<html>
<title> - LEGISLATIVE HEARING ON OCEAN CLIMATE ACTION: SOLUTIONS TO THE CLIMATE CRISIS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         OCEAN CLIMATE ACTION: SOLUTIONS TO THE CLIMATE CRISIS.
                   H.R. 8632, H.R. 3548, H.R. 3919,
                   H.R. 4093, H.R. 5390, H.R. 5589,
                  H.R. 7387, H.R. 8253, and H.R. 8627

=======================================================================

                          LEGISLATIVE HEARING
                          
                               BEFORE THE
                               

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       Tuesday, November 17, 2020

                               __________

                           Serial No. 116-41

                               __________

       Printed for the use of the Committee on Natural Resources
       
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-326 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
         
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Joe Cunningham, SC                   Daniel Webster, FL
Nydia M. Velazquez, NY               Liz Cheney, WY
Diana DeGette, CO                    Mike Johnson, LA
Wm. Lacy Clay, MO                    Jenniffer Gonzalez-Colon, PR
Debbie Dingell, MI                   John R. Curtis, UT
Anthony G. Brown, MD                 Kevin Hern, OK
A. Donald McEachin, VA               Russ Fulcher, ID
Darren Soto, FL                      Pete Stauber, MN
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Jesus G. ``Chuy'' Garcia, IL
Nanette Diaz Barragan, CA

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, November 17, 2020.......................     1

Statement of Members:

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     5
        Prepared statement of....................................     6
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     4

Statement of Witnesses:

    Hilborn, Ray, Professor, School of Aquatic and Fishery 
      Sciences, University of Washington, Seattle, Washington....    25
        Prepared statement of....................................    27
        Questions submitted for the record.......................    30
    Kryc, Kelly, Director of Ocean Policy, New England Aquarium, 
      Boston, Massachusetts......................................    32
        Prepared statement of....................................    34
        Questions submitted for the record.......................    39
    Leonard, Kelsey, Steering Committee Member, Mid-Atlantic 
      Committee on the Ocean, Enrolled Citizen Shinnecock Indian 
      Nation, Long Island, New York..............................    17
        Prepared statement of....................................    19
        Questions submitted for the record.......................    23
    Lubchenco, Jane, University Distinguished Professor, Wayne 
      and Gladys Valley Professor of Marine Biology, Marine 
      Studies Advisor to the President of Oregon State 
      University, Corvallis, Oregon..............................     8
        Prepared statement of....................................     9
        Questions submitted for the record.......................    16

Additional Materials Submitted for the Record:

    Castor, Hon. Kathy, a Representative in Congress from the 
      State of Florida, statement for the record.................    70
    List of documents submitted for the record retained in the 
      Committee's official files.................................    70
                                     


 
 LEGISLATIVE HEARING ON OCEAN CLIMATE ACTION: SOLUTIONS TO THE CLIMATE 
                                 CRISIS

          The hearing will be on the following bills:

H.R. 8632, To direct the Secretary of Commerce, acting through 
   the Administrator of the National Oceanic and Atmospheric 
Administration, to provide for ocean-based climate solutions to 
  reduce carbon emissions and global warming; to make coastal 
communities more resilient; and to provide for the conservation 
 and restoration of ocean and coastal habitats, biodiversity, 
and marine mammal and fish populations; and for other purposes, 
 ``Ocean-Based Climate Solutions Act of 2020''; H.R. 3548, To 
  improve data collection and monitoring of the Great Lakes, 
 oceans, bays, estuaries, and coasts, and for other purposes, 
 ``BLUE GLOBE Act''; H.R. 3919, To require research in coastal 
   sustainability and resilience, to ensure that the Federal 
     Government continues to implement and advance coastal 
    resiliency efforts, and for other purposes, ``Creating 
    Opportunity And Sustainability Through Science Act'' or 
 ``COASTS Act''; H.R. 4093, To improve the National Oceans and 
Coastal Security Act, and for other purposes, ``National Oceans 
and Coastal Security Improvements Act of 2019''; H.R. 5390, To 
 designate Regional Ocean Partnerships of the National Oceanic 
    and Atmospheric Administration, and for other purposes, 
``Regional Ocean Partnership Act''; H.R. 5589, To establish an 
Interagency Working Group on Coastal Blue Carbon, and for other 
  purposes, ``Blue Carbon for Our Planet Act''; H.R. 7387, To 
require the Secretary of Commerce to establish a grant program 
 to benefit coastal habitats, resiliency, and the economy, and 
   for other purposes, ``Shovel-Ready Restoration Grants for 
Coastlines and Fisheries Act of 2020''; H.R. 8253, To amend the 
  Outer Continental Shelf Lands Act to require 30 percent of 
   revenues from offshore wind energy to be deposited in the 
   National Oceans and Coastal Security Fund, and for other 
 purposes, ``Strengthening Coastal Communities Act of 2020''; 
   and H.R. 8627, To express the sense of Congress that the 
 Chesapeake Bay Office of the National Oceanic and Atmospheric 
   Administration shall be the primary representative of the 
    National Oceanic and Atmospheric Administration in the 
   Chesapeake Bay, to require the Secretary of the Commerce, 
 acting through the Administrator of the National Oceanic and 
   Atmospheric Administration, to provide grants supporting 
  research on the conservation, restoration, or management of 
   oysters in estuarine ecosystems, and for other purposes, 
             ``Chesapeake Bay Oyster Research Act''

                              ----------                              


                       Tuesday, November 17, 2020

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 12:02 p.m., via 
Webex, Hon. Raul M. Grijalva [Chairman of the Committee], 
presiding.
    Present: Representatives Grijalva, Huffman, Lowenthal, Cox, 
Neguse, Levin, Haaland, Cunningham, DeGette, Dingell, Soto, 
Cartwright, Tonko, Garcia, Barragan; Bishop, Gohmert, 
Westerman, Graves, Gonzalez-Colon, and Stauber.
    Also present: Representatives Bonamici and Beyer.

    The Chairman. Good morning, the Committee on Natural 
Resources will now come to order. The Committee is meeting 
today to hear testimony on H.R. 8632, the Ocean-Based Climate 
Solutions Act; H.R. 3548; H.R. 3919; H.R. 4093; H.R. 5390; H.R. 
5589; H.R. 7387; H.R. 8253; and H.R. 8627.
    Under Committee Rule 4(f), any oral opening statements at 
hearings are limited to the Chair and the Ranking Minority 
Member or their designees. This will allow us the opportunity 
to hear from our witnesses sooner, and help Members keep to 
their schedules and afford them the opportunity to ask 
questions.
    Therefore, I ask unanimous consent that all other Members' 
opening statements be made part of the hearing record if they 
are submitted to the Clerk by 5 p.m. Eastern Standard Time 
today, or at the close of the hearing, whichever comes first.
    Hearing no objection, so ordered.
    Without objection, the Chair may also declare a recess 
subject to the call of the Chair.
    I am also asking unanimous consent that the gentleman from 
Virginia, Representative Beyer, and the gentlewoman from 
Oregon, Representative Bonamici, be permitted to participate in 
today's proceedings.
    I ask unanimous consent to enter into the record a written 
statement by Representative Kathy Castor.
    As described in the notice, statements, documents, or 
motions must be submitted to the electronic repository at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="145c5a4657707b77675479757d783a7c7b6167713a737b623a">[email&#160;protected]</a> Additionally, please note that as with 
in-person meetings, Members are responsible for their own 
microphones. And as with in-person meetings, Members can be 
muted by staff only to avoid inadvertent background noise. 
Finally, Members or witnesses experiencing technical problems 
should inform the Committee staff immediately.
    Thank you for that, and thank you for joining us at this 
hearing. Let me recognize myself for the opening statement.
    Ms. Snyder. Chair Grijalva----
    The Chairman. Yes?
    Ms. Snyder. Sorry, this is Lora. The audio is not working 
on the streaming device right now, so can you hold just 1 
second, please?
    The Chairman. Do I need to begin from the get-go on calling 
the meeting to order and everything?
    Ms. Snyder. Sarah Lim, what do you think? OK. No, we are 
good.
    [Pause.]
    Mr. Bishop. Perfect time for you to give your speech.
    [Laughter.]
    [Pause.]
    Ms. Snyder. I just got a note the audio is back, so we can 
start.
    The Chairman. OK. We apologize for the technical glitch, 
but let me recognize myself for the opening statement and then 
recognize the Ranking Member or his designee.

 STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE FROM 
                      THE STATE OF ARIZONA

    The Chairman. Thank you to all the Members of Congress and 
witnesses for joining us today, as we have a conversation about 
my bill, the Ocean-Based Climate Solutions Act.
    At over 300 pages long, the bill includes a number of 
provisions, many of which are bipartisan, to address the very 
serious problem of climate change. As the incoming Biden 
administration is going through its transition process, we must 
lay the groundwork to address climate change with the speed 
that this crisis demands.
    Turning to the legislation, the idea here is simple: A 
healthy ocean can help us fight the climate crisis. Our ocean 
has absorbed over one-third of our carbon emissions and 90 
percent of the excess heat we have generated. This has 
consequences, which has resulted in ocean acidification, sea 
level rise, shifting fish stocks, coral reef die-offs, and much 
more. The ocean and atmosphere are closely connected, which is 
good news for us. Scientists have found that 21 percent of the 
carbon equation could be solved globally through the ocean.
    The climate proposals have ignored the ocean for far too 
long. That is why we have put forward the Ocean-Based Climate 
Solutions Act, a bill that provides a roadmap for ocean and 
coastal climate resilience and curbs greenhouse gases.
    Since this bill is the first of its kind, we continue to 
expect and welcome feedback. I look forward to working with all 
of you to improve this legislation as it goes forward.
    The bill develops a plan to protect 30 percent of the ocean 
by 2030, which is good for everybody. A new study finds that 
expanding existing global marine protected areas by just 5 
percent could improve future fisheries catch by at least 20 
percent.
    The bill also prepares our fisheries and blue economy for 
climate change, improves coastal zone management, strengthens 
marine mammal conservation, and confronts ocean acidification 
and harmful algal blooms. It improves coastal resilience, and 
specifically promotes resilience and justice for U.S. 
territories, Indigenous people, and communities of color.
    Critically, the Ocean-Based Climate Solutions Act captures 
and reduces carbon dioxide by creating a pathway forward for 
renewable offshore energy, and enhances natural carbon capture 
and storage in ocean ecosystems like seagrass beds, kelp 
forests, and mangroves, in a concept known as ``blue carbon.''
    The way I look at it, we are in a reciprocal relationship 
with nature. You reap what you sow. Greedy polluters have 
harmed our planet for decades, and now we are all having to 
deal with the consequences. But with solutions like this 
legislation and other proposals to confront climate change, we 
can and will do better.
    The legislation is a compilation of the work of many of my 
colleagues: Representative Bonamici, Representative Seth 
Moulton, Representative Don Beyer, Representative Charlie 
Crist, Representative Debbie Mucarsel-Powell, Representative 
Anthony Brown, Representative Haaland, Representative 
Lowenthal, and Representative Velazquez. So, to them I thank 
them for their work on the pieces of the legislation, their 
legislation, that has been incorporated into the overall bill.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    Thank you to all of the Members of Congress and witnesses for 
joining us today to have a conversation about my bill, the Ocean-Based 
Climate Solutions Act. At over 300 pages long, this bill includes a 
number of provisions--many of which are bipartisan--to address the very 
serious problem of climate change.
    As the incoming Biden administration is going through its 
transition process, we must lay the groundwork to address climate 
change with the speed this crisis demands.
    Turning to the legislation, the idea here is simple. A healthy 
ocean can help us fight the climate crisis.
    Our ocean has absorbed over one-third of our carbon emissions and 
90 percent of the excess heat we have generated. This has consequences 
which has resulted in ocean acidification, sea level rise, shifting 
fish stocks, coral reef die-offs and more. The ocean and atmosphere are 
closely connected, which is good news for us. Scientists have found 
that 21 percent of the carbon equation can be solved globally through 
the ocean.
    But climate proposals have ignored the ocean for far too long. 
That's why we've put forward the Ocean-Based Climate Solutions Act, a 
bill that provides a roadmap for ocean and coastal climate resilience 
and curbs greenhouse gases.
    Since this bill is the first of its kind, we continue to expect and 
welcome feedback. I look forward to working with all of you to improve 
this legislation.
    The bill develops a plan to protect 30 percent of the ocean by 
2030, which is good for everybody--a new study finds that expanding 
existing global marine protected areas by just 5 percent can improve 
future fisheries catch by at least 20 percent.
    The bill also prepares our fisheries and blue economy for climate 
change, improves coastal zone management, strengthens marine mammal 
conservation, and confronts ocean acidification and harmful algal 
blooms. It improves coastal resilience and specifically promotes 
resilience and justice for U.S. territories, Indigenous people, and 
communities of color.
    Crucially, the Ocean-Based Climate Solutions Act captures and 
reduces carbon dioxide by creating a pathway forward for renewable 
offshore energy and enhances natural carbon capture and storage in 
ocean ecosystems like seagrass beds, kelp forests, and mangroves, a 
concept known as ``Blue Carbon''.
    The way I look at it, we are in a reciprocal relationship with 
nature. You reap what you sow: greedy polluters have harmed our planet 
for decades, and now we are all facing the consequences.
    But with solutions like this bill and other proposals to confront 
climate change, we can and will do better.
    Thank you.

                                 ______
                                 

    The Chairman. With that, the Chair will now recognize the 
Ranking Member or his designee for the opening statement.
    Mr. Ranking Member.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman, and thank you for 
holding this hearing in such a manner that easily produces 
interaction and understanding of the issues that we are facing.
    Before I actually begin my comments, I would ask unanimous 
consent that three documents be added to the record. I think 
you have them electronically already.
    One is a letter of opposition to H.R. 8632 that is signed 
by 831 organizations. Basically, anyone who knows about 
fishing, uses fishing, or eats fish is in opposition.
    The second is a letter of the Family Farm Alliance 
expressing concerns over the impact on Western agriculture.
    Third, a letter from Stronger America Through Seafood also 
expresses their concerns with H.R. 8632.
    Mr. Chairman and members of our wonderful Committee, today 
we meet in what will likely be the last Natural Resources 
Committee hearing of the 116th Congress. We are considering 
nine bills, most of which were included in the Chairman's H.R. 
8632. There really is no reason to add to this hearing--unless 
it is to give Members another 5 minutes to campaign, or speak 
on the bills. It is kind of a waste of time. But I would remind 
you all that the election is over. We should move on.
    Jessica Hathaway, the editor-in-chief of National 
Fisherman, described the Chairman's bill perfectly when she 
wrote that, ``Reading its 324 pages felt like swinging a pinata 
packed with a mix of treats and lit fireworks.'' I think 
Hathaway got it perfectly.
    The bill authorizes billions in new grants and programs to 
distract from the economically devastating policies that are 
also being pushed in this bill. The Majority is pushing a so-
called 30x30 idea, locking up 30 percent of our oceans by 2030, 
all under the guise of protecting biodiversity while tackling 
climate change.
    The reality is really much different. The policy is 
woefully misguided. It does not improve fisheries. It 
undermines the Magnuson-Stevens Act. And even worse, it is 
detrimental to America, and especially American fishermen.
    Our fisheries are not on the brink of collapse. According 
to NOAA, 91 percent of the stocks for which we have assessments 
are not subject to overfishing. Further, nearly 90 percent of 
Federal mandated fisheries fall below their annual catch 
limits, meaning that our commercial recreational fishermen are 
not being allowed to harvest the maximum sustainable levels.
    Dr. Hilborn, who is one of our distinguished guests here 
today, a marine biologist and fisheries scientist at the 
University of Washington, has stated that ``the major threat to 
sustainable jobs, food, recreational opportunities, and revenue 
from U.S. marine fisheries is not overfishing, but 
underfishing.'' I look forward to his testimony as we realize 
once again what that actually means, and that we may be looking 
at things as we did in the past, not what is presently needed, 
and definitely not for what the future requires.
    So, I think it is worth repeating: the Magnuson-Stevens Act 
is not just for the conservation and management of fishery 
resources, but also to assure that our citizens benefit from 
employment, food supply, and revenue which could be generated 
from these resources.
    Just like locking up large sums of land has been a terrible 
and expensive idea, locking up 30 percent of our oceans does 
not translate into good stewardship. There are better ways of 
managing our fishery resources--again, the Magnuson-Stevens 
Act, that does not put the industry that supports 1.6 million 
U.S. jobs at risk.
    I would be remiss if I didn't point out the timing of this 
bill. Our fishing industry has been hard hit by COVID-19. 
Instead of helping, it seems the Majority is more interested in 
putting fishermen's livelihood at risk in the name of faux 
conservation.
    And last, I want to point out that this bill bankrupts the 
LWCF by banning its main revenue source. Mr. Grijalva has 
constantly reminded us that LWCF is one of the Nation's bedrock 
conservation laws. I want to remind him that OCS revenues 
provide 100 percent of the funding for the LWCF, as well as 
significant revenues to the Gulf of Mexico coastal states for 
coastal restoration.
    This ban is even more ridiculous after we just locked in 
mandatory spending of $900 million in perpetuity in the not-so 
Great American Outdoors Act.
    So, with that, let the festivities begin. Thank you for 
letting me see you on my screen, and I yield back.

    [The prepared statement of Mr. Bishop follows:]
Prepared Statement of the Hon. Rob Bishop, Ranking Member, Committee on 
                           Natural Resources
    Today we meet in what will likely be the last Natural Resources 
Committee hearing of the 116th Congress.
    We are considering nine bills, most of which are included in 
Chairman Grijalva's H.R. 8632, the Ocean-Based Climate Solutions Act. 
There is no reason these have been added to this hearing, unless it is 
to give those Members 5 minutes to speak. It's a waste of my time and 
of the Committee's time.
    Jessica Hathaway, the editor in chief of National Fisherman, 
described the Chairman's bill perfectly. She wrote that ``Reading its 
324 pages felt like swinging at a pinata packed with a mix of treats 
and lit fireworks.'' \1\ I agree with Ms. Hathaway. The bill authorizes 
billions in new grants and programs to distract from the economically 
devastating policies being pushed.
---------------------------------------------------------------------------
    \1\ https://www.nationalfisherman.com/national-international/ocean-
climate-bill-is-a-grab-bag-for-marine-stakeholders.
---------------------------------------------------------------------------
    The Majority is pushing a so-called ``30 by 30'' idea of locking up 
30 percent of our oceans by 2030 all under the guise of ``protecting 
biodiversity while tackling climate change.'' \2\ The reality is much 
different. This policy is woefully misguided, it does little to improve 
fisheries, undermines the Magnuson-Stevens Act, and even worse it is 
detrimental to American fishermen.
---------------------------------------------------------------------------
    \2\ https://naturalresources.house.gov/media/press-releases/chairs-
grijalva-castor-introduce-landmark-oceans-solutions-bill-to-tackle-
climate-crisis.
---------------------------------------------------------------------------
    Our fisheries are not at the brink of collapse. According to NOAA, 
``91 percent of stocks for which we have assessments are not subject to 
overfishing and 84 percent are not overfished.'' \3\
---------------------------------------------------------------------------
    \3\ Testimony of Chris Oliver, Assistant Administrator for the 
National Marine Fisheries Service, to the House Committee on Natural 
Resources, September 26, 2017.
---------------------------------------------------------------------------
    Further, nearly 90 percent of federally managed fisheries fall 
below their annual catch limits,\4\ meaning that our commercial and 
recreational fishermen are not being allowed to harvest at maximum 
sustainable levels.
---------------------------------------------------------------------------
    \4\ http://www.nmfs.noaa.gov/sfa/laws_policies/msa/.
---------------------------------------------------------------------------
    Dr. Hilborn, a distinguished marine biologist and fisheries 
scientist at the University of Washington and our witness has stated 
that ``[t]he major threat to sustainable jobs, food, recreational 
opportunities and revenue from U.S. marine fisheries is no longer 
overfishing, but underfishing.'' \5\ I look forward to listening to his 
testimony.
---------------------------------------------------------------------------
    \5\ Testimony of Ray Hilborn, Professor at the University of 
Washington, given to the House Committee on Natural Resources, 
September 11, 2013.
---------------------------------------------------------------------------
    I think it's worth repeating that the Magnuson-Stevens Act is not 
just for the conservation and management of fishery resources, but also 
``to assure that our citizens benefit from the employment, food supply, 
and revenue which could be generated'' \6\ from these resources.
---------------------------------------------------------------------------
    \6\ 16 U.S.C. 1801(a)(7).
---------------------------------------------------------------------------
    Just as locking up large sums of lands has been a terrible and 
expensive idea, locking up 30 percent of our oceans does not translate 
to good stewardship. There are better ways of managing our fishery 
resources, again the Magnuson-Stevens Act, that do not put an industry 
that supports 1.6 million U.S. jobs at risk.
    I would be remiss if I didn't point out the timing of this bill. 
Our fishery industry has been hard hit by COVID-19. Instead of helping, 
it seems the Majority is more interested in putting our fishermen's 
livelihoods at risk in the name of conservation.
    Lastly, I want to point out that this bill bankrupts the LWCF by 
banning its main revenue source. Chairman Grijalva constantly reminds 
us that LWCF is one of our Nation's bedrock conservation laws. I want 
to remind him that OCS revenues provide nearly 100 percent of the 
funding for LWCF, as well as significant revenues to Gulf of Mexico 
coastal states for coastal resources restoration.
    This ban is even more ridiculous after we just locked in mandatory 
spending of $900 million in perpetuity with the so-called Great 
American Outdoors Act.
    I yield back.

                                 ______
                                 

    The Chairman. Thank you very much, Ranking Member Bishop.
    And a point of personal privilege--you have mentioned that 
this might be the last possible hearing that we have before our 
new Congress and our new session. I just want to take this 
personal time, Mr. Bishop, to thank you for your service to 
Congress, and to this Committee, both as Chairman and Ranking 
Member of the Natural Resources Committee. It has been a 
pleasure and a chore to work with you all these years.
    And I think it is important to note, as I have noted in the 
past, that you have been a consistent voice for your point of 
view and the philosophy, and one can ask no more of a 
Representative but to be consistent. And I want to thank you 
for that, and wish you the best.
    Let me now begin by introducing our witnesses for this 
hearing. Our first witness is Dr. Jane Lubchenco, a University 
Distinguished Professor of Marine Biology at the Oregon State 
University. Following her, we will hear from Dr. Kelsey 
Leonard, Steering Committee Member, Mid-Atlantic Committee on 
the Ocean, and Enrolled Citizen of Shinnecock Indian Nation. 
Next will be Dr. Ray Hilborn, a professor of the School of 
Aquatic and Fishery Sciences at the University of Washington. 
And, finally, our last witness will be Dr. Kelly Kryc, Director 
of Ocean Policy at the New England Aquarium.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral presentation to 5 minutes, but that 
their entire statement will appear as part of the hearing 
record.
    When you begin, the timer will begin, and it will turn 
orange when you have 1 minute remaining. I recommend that 
Members and witnesses joining remotely use grid view, so they 
may pin the timer on their screen.
    And as your testimony is complete, please remember to mute 
yourself to avoid any inadvertent background noise.
    I will also allow the entire panel to testify before the 
questioning of the witnesses begins by Members.
    I will now recognize Dr. Lubchenco to testify. The time is 
yours.

     STATEMENT OF JANE LUBCHENCO, UNIVERSITY DISTINGUISHED 
PROFESSOR, WAYNE AND GLADYS VALLEY PROFESSOR OF MARINE BIOLOGY, 
    MARINE STUDIES ADVISOR TO THE PRESIDENT OF OREGON STATE 
                 UNIVERSITY, CORVALLIS, OREGON

    Dr. Lubchenco. Chair Grijalva, Ranking Member Bishop, and 
distinguished members of the Committee, thank you for the 
opportunity to join you today. I am an ocean ecologist. I study 
connections in ecosystems, including interactions between 
people and their ecosystems.
    When I read the Ocean-Based Climate Solutions Act, I saw 
oceans of opportunity for exciting, urgently needed progress on 
climate change. But much more, as well. You are all painfully 
aware and have mentioned some of the multiple crises facing the 
Nation and the world. With COVID-19, we are facing an 
unprecedented health crisis that has also triggered an economic 
crisis; the racial injustice crisis, long ignored, has burst 
onto the national conscience; we know there is a biodiversity 
crisis on land and in the ocean; and multiple threats have 
produced an ocean crisis; and, of course, the climate crisis 
that brings us together today.
    Each of these six crises is complex and demands attention. 
Making serious headway with any of them is tough. But taken 
together, they might seem impossible. But what if? What if we 
could find synergies that would allow us to address multiple 
crises at the same time? Now, that would be worth doing.
    This bill provides just such an opportunity, with obvious 
synergies between the ocean and the climate crisis.
    True, the ocean has been mostly out of sight, out of mind 
in dialogues about climate mitigation. We have focused 
primarily on land-based opportunities to produce renewable 
energy; enable more efficient transportation, buildings, and 
appliances; and tap nature-based solutions through forest 
action. But now, thanks to new analyses from scientists 
organized for the High-Level Panel for a Sustainable Ocean 
Economy, we know that the ocean also has powerful solutions 
that might provide as much as 20 percent of the emission 
reductions we need to achieve the 1.5 degree target by 2050.
    Until recently, these solutions were not even on our radar 
screens. Multiple ocean-based climate actions are ripe for 
action. You have begun the exciting process to realize their 
potential. Renewable ocean energy, decarbonizing shipping, 
tapping the power of blue carbon ecosystems, encouraging 
consumption of sustainable seafood instead of animal protein 
from the land, and protecting 30 percent of the ocean by 2030 
are all powerful, timely actions. Together, they provide both 
mitigation and adaptation solutions.
    But if we are smart about tapping this ocean climate 
synergy, we can also achieve even greater benefits across other 
urgent crises. For example, economic stimulus funds could be 
put to excellent use to create the jobs needed to protect and 
restore seagrass beds, salt marshes, and mangroves. These blue 
carbon wetlands would remove massive amounts of carbon from the 
atmosphere, a climate mitigation benefit.
    Restored wetlands would be a boon to the commercial and 
recreational fisheries by restoring critically important 
nursery areas, bringing economic and social benefit. Restored 
wetlands provide wildlife habitat, creating biodiversity 
benefit. They provide recreational opportunities, providing 
health and economic benefit. And those same restored wetlands 
also provide buffers against storm surge, resulting in climate 
adaptation and resilience benefit.
    Finally, if done smartly, many of those jobs and outcomes 
could benefit communities of color. So, with just this one 
example, we see exciting possibilities to derive powerful co-
benefits that address the economic, social justice, 
biodiversity, and ocean crises. A quintuple win-win-win-win-
win. Talk about synergies.
    Marine protected areas provide another strong pathway to 
achieve multiple benefits, including both mitigation and 
adaptation benefit, while also creating jobs, protecting 
biodiversity, enhancing resilience, protecting carbon stores, 
and providing recreational benefit.
    When crises loom, what is needed most is knowledge that 
there is light at the end of the tunnel: hope. This bill 
provides hope because it provides a pathway for tackling 
multiple crises simultaneously. The time for climate action is 
now, using the full suite of tools to achieve the greatest 
social, economic, and environmental benefit. Thank you.

    [The prepared statement of Dr. Lubchenco follows:]
    Prepared Statement of Jane Lubchenco, Distinguished University 
                   Professor, Oregon State University
    Chair Grijalva, Ranking Member Bishop, and distinguished members of 
the Committee, it is an honor to submit this written testimony 
concerning the Ocean-Based Climate Solutions Act.
    I am a marine scientist with expertise in ocean-climate 
interactions, and their connections to human well-being. My 
contributions to these topics have been recognized by multiple 
scientific organizations including the National Academy of Sciences--
who elected me a Member 24 years ago, and presented me with its highest 
award, the Public Welfare Medal, 3 years ago--and by the National 
Science Foundation who bestowed on me its most prestigious honor, the 
Vannevar Bush Award. I received my bachelor's degree from Colorado 
College, my master's degree from the University of Washington and my 
PhD from Harvard University. I have been an academic scientist for most 
of my career, serving on the faculties of Harvard, Stanford, and Oregon 
State Universities.
    I have also had the opportunity to serve my country in a different 
way through positions in the Federal Government. From 2009-2013, I was 
honored to serve as the Under Secretary of Commerce for Oceans and 
Atmosphere and the Administrator of NOAA. It was a pleasure to work 
with many of you and many of your colleagues during those 4 years on 
issues ranging from fisheries and coastal habitats to climate change, 
from weather forecasts and weather satellites to oil spills. Then from 
2014 to 2016, I served as the first U.S. State Department Science Envoy 
for the Ocean doing science diplomacy in developing countries around 
fisheries, healthy oceans, climate change, ocean acidification, and 
sustainable development.
    Since moving back to Oregon, I have worked to produce the knowledge 
and solutions needed to meet serious challenges like climate change. I 
have been delighted to find that people at all levels of organizations 
have a genuine hunger for durable, practical, scalable solutions--from 
the leaders at the tops of governments and organizations to those whom 
they serve.
    I am therefore pleased to see the introduction of the Ocean-Based 
Climate Solutions Act. This bill focuses on the under-appreciated 
connections between the ocean and climate change and it highlights 
solutions. Moreover, the bipartisan nature of many of the related 
referred bills gives me hope that this Committee can provide much-
needed bipartisan leadership to address one of the most urgent problems 
of our time, climate change.
Solutions to Climate Change are Urgently Needed
    As amply documented in the National Climate Assessments and the 
Intergovernmental Panel on Climate Change (IPCC) reports, climate 
change is already affecting people's health and safety, opportunities 
and quality of life, and economic growth. In addition, climate change 
exacerbates existing inequities and functions as a threat multiplier 
for peace and security, increasing the likelihood of political 
instability and terrorism around the world. Global action to reduce 
greenhouse gas (GHG) emissions as rapidly as possible is urgently 
needed and can substantially reduce climate-related risks. The ocean 
has much to offer toward solutions.
    In my testimony, I wish to (1) emphasize the urgency of moving 
decisively; (2) highlight the need to embrace the full suite of 
science-based ocean solutions in this bill, and (3) underscore the 
added bonus of multiple co-benefits that many of the solutions bring, 
ranging from economic to health to biodiversity benefits. This is not a 
time for timid action, nor for piecemeal solutions. Time is short and 
failing to act aggressively will have dire consequences. It is time for 
a full-court press using every play in our playbook.
The Role of the Ocean in the Climate System and Climate Impacts on the 
        Ocean
    Until recently, most discussions of the ocean and climate change 
focused either on the (1) central role the ocean plays in regulating 
the climate system or (2) on the impacts of climate change to the 
ocean. Scientists have documented that the ocean absorbs over 90% of 
the excess heat trapped by GHG emissions and it absorbs nearly a third 
of the carbon dioxide that we emit. The ocean has literally `taken the 
heat' for us, modulating some of the impacts of excess greenhouse 
gases.
    The 2019 IPCC Special Report on the Ocean and the Cryosphere in a 
Changing Climate and the 2018 National Climate Assessment document in 
depressing detail the myriad ways that climate change has impacted the 
ocean and the consequences of those impacts to people's lives, health, 
safety, livelihoods, and economic opportunities. (a) Sea level rise is 
an obvious example, and it disproportionately affects some coasts--such 
as our mid- and south-Atlantic coastlines--more than others. The ocean 
is also (b) warmer and (c) more acidic; it is experiencing (d) 
unprecedented ocean heatwaves and (e) loss of oxygen. And the ocean is 
(f) more variable and (g) less predictable.
    Each of these impacts has consequences, but a deeper dive into one 
of these changes, a warmer ocean, can illustrate the far-reaching 
implications for people. According to NOAA, the average global sea 
surface temperature has increased by approximately 2.3+F (1.3+C) over 
the past 100 years. This might seem like a small amount, but it is 
having disastrous consequences for many coastal communities and 
economies, and for people far inland as well. For example, we are 
seeing the consequences of warmer water in the changing nature of 
tropical storms including hurricanes. There is unequivocal evidence 
that climate change is affecting hurricanes. Let me be clear: there is 
no evidence that climate change affects the number of tropical storms 
and hurricanes each year. However climate change does affect the 
intensity, speed, and water content of tropical storms including 
hurricanes. The results are more powerful Category 4 and 5 storms, 
storms that move more slowly (for example Hurricane Harvey in 2017 that 
caused catastrophic flooding and many deaths in Texas and Louisiana), 
and storms that hold more water (contributing to flooding). Just last 
week, a new analysis was published (Li and Chakraborty 2020) suggesting 
that the greater moisture in hurricanes also acts like an extra battery 
pack to keep them stronger and last longer once they have made 
landfall. Hurricanes in North America are decaying at slower rates over 
land than they used to. These three climate-related impacts enhance the 
power and destructive impact of hurricanes, as well as the intensity of 
storm surge, coastal and inland flooding, and the destructive impact of 
more powerful winds. Sea level rise makes some of these impacts even 
worse. In short, we can connect the dots directly between climate 
change, warmer ocean waters and air temperatures, and threats to 
coastal and inland inhabitants. Warmer Atlantic, Caribbean, and Gulf of 
Mexico waters are supercharging hurricanes, fueling rapid 
intensification, and enhancing the power and longevity of the 
destruction.
    Another impact of warmer water is seen in the heatwaves now being 
documented globally. One particularly well studied heat wave was the 
so-called `Blob' of warm water off the West Coast in 2013-2015, 
stretching some 2,000 miles from Alaska to California, with water 
temperatures close to 7+ Fahrenheit above average! The Blob triggered 
the largest harmful algal bloom ever recorded on the West Coast, 
shutting down crabbing and clamming for months, and resulted in 
multiple declared fishery disasters and triggered the death of 
thousands of marine mammals and seabirds.
    Clearly, many climate change impacts are multifaceted and serious. 
And the impacts to people are profound, underscoring the urgency of 
tackling climate change aggressively and effectively.
Ocean Solutions to the Rescue--the Ocean Panel's Analysis of Mitigation 
        Options

    Thanks to new scientific analyses, we now know that the ocean could 
provide a powerful source of solutions to slow down climate change. 
These would not supplant other parallel, terrestrial-based mitigation 
efforts, but when combined with them would enhance the likelihood that 
we can tackle climate change effectively and smartly.

    Although earlier discussions about ways to mitigate climate change 
focused primarily on land-based solutions, we now have a newly 
appreciated, powerful suite of ocean-based tools to add to the climate 
mitigation toolbox. Moreover, many of these new tools could also bring 
multiple benefits to other parallel issues.

    A report published last year by the High Level Panel for a 
Sustainable Ocean Economy (hereafter called simply the `Ocean Panel') 
(Hoegh-Guldberg et al. 2019a; see also Hoegh-Guldberg et al. 2019b) 
concluded that a set of five ocean-based mitigation solutions could 
achieve as much as 1/5 of the carbon emission reductions needed to 
achieve the 1.5+C degree Paris Agreement target by 2050. The experts 
analyzed the potential emission reductions that could result from 5 
different categories of actions: ocean-based renewable energy, ocean-
based transportation and shipping, protecting and restoring coastal and 
marine ecosystems, seafood, and carbon storage in the seabed (Figures 1 
and 2).


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    .epsFigure 1. Ocean-based Mitigation Options Explored in Hoegh-
Guldberg 2019a and their Associated Annual Mitigation Potential in 
2050. From Hoegh-Guldberg 2019a.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    .epsFigure 2. Contribution of Five Ocean-based Climate Action Areas 
to Mitigating Climate Change in 2050 (Maximum gigatonnes of carbon 
dioxide equivalents). From Hoegh-Guldberg 2019a.

    As shown in Figures 1 and 2, each of these solution categories can 
contribute to the emission reductions needed. But the power lies in 
using multiple solutions. Together they reduce emissions by up to 21% 
of the annual greenhouse gas emission reductions needed by 2020 to 
achieve the 1.5+ target (Figure 3).

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    .epsFigure 3. Contribution of Ocean-based Mitigation Options to 
Closing the Emissions Gap in 2050. From Hoegh-Guldberg et al. 2019a.

    The analysis further suggests that the first four of these 
mitigation solutions would provide immediate opportunities for action 
while the fifth--sequestering carbon on the seabed--is not ready for 
deployment, and requires significantly more research and analysis 
before it might be considered for adoption. The four categories that 
are ripe for action, and the Ocean Panel Report's description of each 
include:

  1.  Ocean-Based Renewable Energy: Reduce barriers to scaling up 
            offshore wind (fixed and floating turbines) and invest in 
            new, innovative ocean-based energy sources such as floating 
            solar photovoltaics, wave power, and tidal power.

  2.  Ocean-Based Transport: Implement available technologies to 
            increase energy efficiency now (e.g., improved hull 
            design), and support the development of low-carbon fuels as 
            part of a broader decarbonization of ocean industries and 
            energy supply chains, including port facilities. Start with 
            decarbonizing domestic fleets.

  3.  Coastal and Marine Ecosystems: Conserve existing ``blue carbon'' 
            ecosystems (mangroves, seagrass beds, and salt marshes) to 
            prevent further release of greenhouse gas emissions and 
            scale up effective restoration efforts.

  4.  Fisheries, Aquaculture, and Dietary Shifts: Reduce emission 
            intensity of fisheries and aquaculture by optimizing wild 
            catch and shifting to low-carbon feed options. Shift diets 
            toward low-carbon marine sources such as sustainably 
            harvested fish and seaweed including kelp as a replacement 
            for emissions-intensive land-based sources of protein.

    After analyzing each of the above options through multiple lens of 
geophysical, technical, economic, and social/political feasibility and 
potential, the Ocean Panel report authors concluded that these four 
options, while not necessarily easy, are feasible and ready for 
adoption. Many of these options are included in H.R. 8632.
Blue Carbon
    Of the above four solutions, the `blue carbon' category might be 
useful to consider in greater detail because this ocean-based 
mitigation solution is less well known. `Blue carbon' is simply the 
carbon that is captured and stored by the world's ocean and coastal 
ecosystems. (`Green carbon' is the carbon that is captured and stored 
by trees and other plants on land.) Capturing carbon alone is not 
sufficient to create climate mitigation benefit. The carbon must also 
be stored, or sequestered so that it is functionally removed from the 
atmosphere. In Blue Carbon ecosystems, the plants capture carbon from 
the air and effectively lock it away in the sediment.
    Three blue carbon ecosystems are particularly important from the 
standpoint of capturing and sequestering carbon: seagrass beds, 
mangrove forests and salt marshes. These three habitats sequester 
carbon at a much faster rate than do forests and they can sequester 
carbon for centuries to thousands of years as long as they are not 
damaged or destroyed. If these habitats are damaged or destroyed, the 
massive amounts of the carbon they have stored, sometimes for 
millennia, are released into the atmosphere, contributing to climate 
change.
    So, first and foremost, preventing the destruction of these 
wetlands is a smart and powerful climate-mitigation action. Moreover, 
because these coastal habitats also provide protection from storm 
surge, nursery habitats for commercial and recreational fisheries, and 
recreational opportunities, their protection brings multiple benefits.
    The second most important climate-mitigation action on the blue 
carbon front is restoring seagrass beds, mangrove forests, and salt 
marshes that have been lost or degraded. A recently reported exemplary 
success in effectively restoring seagrass beds comes from Virginia, 
where scientists from the Virginia Institute of Marine Sciences and The 
Nature Conservancy have recovered over 3,000 hectares of seagrass beds 
in a number of bays and inshore lagoons (Orth et al. 2020). The 
restored beds now sequester on average about 3,000 metric tons of 
carbon each year, locking it away permanently. Moreover, recovering the 
beds has also enhanced water quality and benefited several commercial 
and recreational fisheries.
    Incorporation of blue carbon into Nationally Determined 
Contributions and carbon trading schemes would be useful tools to 
recognize the importance of this mitigation tool and provide resources 
and incentives to both reduce loss of and effectively restore blue 
carbon ecosystems.
Ocean-based Solutions for Adaptation
    As noted earlier, climate change impacts on the ocean, fisheries, 
wildlife, and coastal and ocean ecosystems have been apparent for at 
least two decades and are accelerating. This in turn affects the people 
and economies that depend upon healthy ocean ecosystems for a wide 
array of benefits. Moreover, scientists have documented unprecedented 
rates of loss of biodiversity at the genetic, population, and species 
levels, in marine systems as well as on land and in freshwater (IPBES 
2019). Therefore, in addition to forceful efforts to reduce emissions, 
strong, smart efforts are needed to enhance the resilience of coastal 
and inland communities, coastal and ocean ecosystems, fisheries, and 
other key sustainable uses of the ocean.

    Fisheries. Supporting climate-smart and climate-ready fisheries is 
obvious and important. I am proud that our federally managed fisheries 
are a model for excellent stewardship and have been steadily improving, 
due in large part to visionary leaders within the fishing community, 
strong science, and well-crafted management policies stemming primarily 
from the 2005 Reauthorized Magnuson-Stevens Act. Fisheries managed by 
states, however, are highly variable, with the status of many stocks 
simply unknown. There is clear evidence that one of the best ways to 
minimize the impact of climate change on fisheries is to ensure they 
are well managed (Gaines et al. 2018). Therefore, ensuring that all 
U.S. fisheries are sustainably managed should be high priority.
    However, fishery management needs to be more nimble, more 
precautionary, and more anticipatory than it is at present. This is 
especially true as stocks shift from their historic locations to new 
places, especially when they move across Fishery Management Council 
boundaries or national boundaries.
    Policies to increase the fuel efficiency of fishing vessels without 
penalizing fishermen and women are needed. In addition, the U.S. can 
exert stronger leadership to eliminate fish and fuel subsidies through 
international agreements and management programs.

    Marine Protected Areas (MPAs) are a well-known, but underutilized 
tool to protect biodiversity, provide safe havens for wildlife, help 
recover depleted stocks and species, restore the ecological balance 
within an ecosystem, protect stores of carbon, provide reference areas 
for evaluating impacts of fishing, and enhance ecosystem resilience--on 
a permanent basis. For these benefits to accrue, an MPA must have good 
enabling conditions, including being well designed, resourced, managed 
and enforced.
    Not all MPAs are the same. For example, they vary in the level of 
protection they provide from extractive and abatable destructive 
activities. Only Fully Protected or Highly Protected MPAs provide the 
benefits listed above; Lightly and Minimally Protected Areas simply do 
not. (The MPA Guide, 2019, explains these four types of MPAs.) At 
present, only 2.6% of the global ocean is in Fully to Highly Protected, 
Implemented MPAs (MPA Atlas 2020). And 23% of U.S. waters are in Fully 
and Highly Protected, Implemented MPAs (MPA Atlas 2020).
    There is a compelling need for MPAs to help protect biodiversity. 
The international scientific assessment of biodiversity concluded that 
the biggest threat to marine biodiversity is fishing and impacts of 
fishing gear (IPBES 2019). Fully and Highly Protected MPAs provide safe 
havens from extraction and gear. Moreover, modern technology through 
remote sensing, machine learning and other tools coupled with 
international agreements to fight Illegal, Unregulated and Unreported 
(IUU) Fishing are enhancing the ability to protected MPAs from 
poaching.
    A recent comprehensive, global analysis concluded that Fully and 
Highly Protected MPAs can also play a central role in helping provide 
healthy seafood to feed a growing human population (Cabral et al. 
2020). The authors conclude that at the global scale, ``protecting an 
additional 5% of the ocean could increase future catch by at least 20%, 
generating 9-12 million metric tons more food annually than in a 
business-as-usual world with no additional protection.'' Most of this 
benefit is achieved in countries where fisheries are poorly managed or 
not managed at all, not where they are relatively well managed such as 
in U.S. waters. Hence, this food provisioning benefit of MPAs is highly 
applicable elsewhere, but not particularly relevant for U.S. waters.
    And finally, there is increasing evidence that MPAs hold great 
promise as a climate mitigation and adaptation tool (Roberts et al. 
2017). In protecting genetic, population, and species diversity, Fully 
and Highly Protected MPAs can enhance the resilience of ecosystems, 
protect stores of carbon in the sediment, and protect the ability of 
blue carbon ecosystems to capture and sequester additional carbon. The 
greater the genetic diversity, the greater the likelihood there will be 
genotypes that are suited to a climate-impacted world.
    Numerous scientific analyses have concluded that to achieve the 
biodiversity and climate benefits of MPAs, at least 30% of the ocean 
should be safeguarded in Fully and Highly Protected MPAs. The urgency 
of the biodiversity and the climate crises underscores the importance 
of moving rapidly toward this goal.
    Note that even the best fishery management cannot substitute for 
effective Fully and Highly Protected MPAs in terms of protecting 
biodiversity or enhancing resilience of ecosystems to climate change. 
Good fishery management is necessary but not sufficient for a healthy 
ocean. Even the best-managed fisheries have impacts on target and non-
target species. Simply removing massive amounts of biomass from fished 
areas has significant impacts on the other species in the ecosystem. 
Even well-designed, selective gear has unintended impacts on habitats 
and non-target species. We need both excellent fishery management, 
highly selective gear, and MPAs. They are not substitutes for one 
another. They have different goals, all of which are important and 
needed. Good fishery management and Fully and Highly Protected MPAs 
should go hand-in-hand.
    Marine Spatial Planning that is science- and ecosystem-based and 
goal-oriented is a good tool to harmonize different uses of the ocean. 
Regional Ocean Plans are a smart approach that allows a range of 
stakeholders and interests to consider options for using the ocean in 
ways that address climate change, protect the integrity and resilience 
of the ocean ecosystem, and deconflict various uses.
Economic Recovery Opportunities in the Aftermath of COVID-19
    A healthy ocean is the foundation of a vibrant economy. Fisheries, 
tourism, shipping, and other ocean industries have been 
disproportionately impacted by the COVID-19 pandemic, in the U.S. and 
around the globe. As leaders look to jump-start the economy, ocean-
based opportunities have been mostly overlooked, but in fact provide 
some golden opportunities for smart investment. Another report from the 
Ocean Panel provides timely ideas and analysis of high-priority action 
items that could contribute directly to rebuilding economies, in ways 
that support a sustainable, equitable, and resilient ocean economy. 
Three of the five priority actions discussed in the report overlap with 
topics discussed above: (1) Investing in coastal and marine ecosystem 
restoration and protection, (2) Incentivizing sustainable ocean-based 
renewable energy, and (3) incentivizing the transition to zero emission 
marine transport (Northrup et al. 2020). Two additional opportunities 
include (4) Investing in sustainable, community-led non-fed 
mariculture, and (5) Investing in sewerage and wastewater 
infrastructure for coastal communities. Many of these options provided 
economic, social and environmental benefits and should be seriously 
considered.
In Summary
    Climate change affects all Americans. It affects our health and 
safety and our economic opportunities. But it disproportionately 
affects the poor, people of color, and the elderly. This is true within 
the U.S. and it is true globally. The beauty of the action items 
discussed above is that they provide timely opportunities to address 
climate change while also boosting the economy, strengthening 
communities, benefiting health, and addressing racial inequities.
    Many of the solutions provide both mitigation and adaptation 
benefit. Across all of these topics, investments in science, 
monitoring, assessment and training will pay off handsomely.
    It is high time for ocean actions to be appreciated for the 
significant power they provide as solutions. The ocean connects and 
sustains us. It is our past and our future. When we pay attention to 
the ocean, people win, the economy wins, and nature wins.
    I am happy to provide additional information on these and related 
topics if that would be useful to you.
    Thank you.

References

Cabral, R.B., et al. 2020. A global network of marine protected areas 
for food. Proceedings of the National Academy of Sciences 
117(45):28134-29139.

Gaines, S.D., et al. 2018. Improved fisheries management could offset 
many negative effects of climate change. Science Advances 4:eaao1378.

Hoegh-Guldberg, O., et al. 2019a. ``The Ocean as a Solution to Climate 
Change: Five Opportunities for Action'' (World Resources Institute, 
Washington, DC); www.oceanpanel.org/climate.

Hough-Guldberg, O., E. Northrop, and J. Lubchenco. 2019b. The ocean is 
key to achieving climate and societal goals. Science 365(6460):1372-4. 
https://bit.ly/3eIldK2.

Intergovernmental Panel on Climate Change: Special Report on the Ocean 
and Cryosphere in a Changing Climate. 2019. www.ipcc.ch/report/srocc.

IPBES (Intergovernmental Science-Policy Platform on Biodiversity and 
Ecosystem Services). 2019. Global Assessment Report on Biodiversity and 
Ecosystem Services. E.S. Brondizio, J. Settele, S. Diaz, and H.T. Ngo 
(editors). https://ipbes.net/global-assessment.

Li, L. and P. Chakraborty. 2020. Slower decay of landfalling hurricanes 
in a warming world. Nature 587:230-234. https://doi.org/10.1038/s41586-
020-2867-7.

Lubchenco, J. and S.D. Gaines. 2019. A New Narrative for the Ocean. 
Invited editorial. Science 364(6444), p. 911, DOI: 10.1126/
science.aay2241, https://science.sciencemag.org/content/364/6444/911.

MPA Atlas 2020. https://mpatlas.org/.

MPA Guide 2019. Oregon State University, IUCN World Commission on 
Protected Areas, Marine Conservation Institute, National Geographic 
Society, and UN Environment Program World Conservation Monitoring 
Center. Introduction to The MPA Guide. https://www.protectedplanet.net/
c/mpa-guide.

Northrop, E., M. Konar, N. Frost, and E. Hollaway. 2020. A Sustainable 
and Equitable Blue Recovery to the COVID-19 Crisis. Report. Washington, 
DC: World Resources Institute. https://oceanpanel.org/bluerecovery.

Orth, R.J., et al. 2020. Restoration of seagrass habitat leads to rapid 
recovery of coastal ecosystem services. Science Advances 6:eabc6434.

Roberts, C.M., et al. 2017. Marine reserves can mitigate and promote 
adaptation to climate change. Proceedings of the National Academy of 
Sciences 114(24):6167-6175.

                                 ______
                                 

Questions Submitted for the Record to Jane Lubchenco, Ph.D., University 
            Distinguished Professor, Oregon State University

               Questions Submitted by Representative Cox
    Question 1. Like many of my colleagues, I come from a landlocked 
district--but that doesn't mean that we don't all benefit from ocean-
based climate solutions. The High Level Panel for the Sustainable 
Economy's report on the Ocean as a Solution for Climate Change finds 
full implementation of ocean-based climate solutions could deliver one-
fifth (up to 21 percent) of the annual greenhouse gas emissions cuts 
the world needs by 2050 to keep global temperature rise below 1.5 
degrees Celsius, which the IPCC says we must strive to do. How does the 
Chairman's bill address their findings? Are there any areas we need to 
improve or expand upon?

    Answer. Thank you, Rep. Cox, for drawing attention to the 
overarching importance to all Americans of reducing greenhouse gas 
emissions as rapidly as possible. The Chairman's bill notes a number of 
ways in which ocean-based activities can help achieve that goal. I 
would underscore the importance of using all of the tools in our ocean 
toolbox: already highlighted in the bill are protecting and restoring 
blue carbon ecosystems, Marine Protected Areas that are fully to highly 
protected, ocean renewable energy, and making fisheries more energy 
efficient. I would add making ports more energy efficient and 
decarbonizing shipping to that list--at the national as well as 
international scale. Working in close collaboration with other 
countries on all of these issues will leverage more, more efficient, 
and smarter actions. In addition to more aggressive actions to reduce 
emissions and thus slow down the rate of climate change, parallel 
efforts are needed to adapt to changes already underway. A robust 
National Ocean Policy would be a nice complement to help integrate 
actions across sectors and issues, and to enable smart planning at the 
regional scale, for both mitigation and adaptation.

            Questions Submitted by Representative Velazquez
    Question 1. Dr. Lubchenco, in 2012 Superstorm Sandy tore through 
New York City and research shows that sea level rise played a major 
role in driving Sandy's surge, resulting in severe flooding in the 
region. Consequentially, New York City experienced an estimated $19 
billion in damages and lost economic activity. To better prepare 
coastal communities from future catastrophes, I've introduced the 
National Sea Level Risk Analysis Act, which is included in H.R. 8632. 
Can you explain how a National Coastal Data Information System will 
better protect and prepare businesses, governments, and citizens from 
current and future flooding risks?

    Answer. Thank you, Rep. Velazquez, for your leadership to prepare 
and enhance the resilience of coastal communities to climate and other 
changes. I agree with you that integrated, user-friendly information is 
absolutely needed for smart planning and action. When I was the NOAA 
Administrator, and understanding the grave threats posed by coastal 
inundation and inland flooding, NOAA formed a new partnership with USGS 
and the Army Corps of Engineers, each of whom had one piece of the 
larger puzzle needed for accurate, more unified and comprehensive 
understanding of flood risks. That program was called Integrated Water 
Resources Science and Services (IWRSS (pronounced iris). The goal was 
to integrate and harmonize information across these agencies and 
provide one-stop shopping to communities, businesses and states. Since 
I am no longer at NOAA, I can't provide an update on the state of 
IWRSS, but I suspect you've already investigated that. It strikes me as 
one element needed to provide your and other vulnerable communities 
with better information to plan and to act. I also draw your attention 
to the work done by Climate Central to create user-friendly risk zone 
maps, GIS layers and more https: / / ss2.climatecentral.org / #12 / 
40.7298 / -74.0070?show= satellite&projections=0-K14_RCP85-
SLR&level=5&unit=feet&pois=hide. In short, although there are good 
elements in place for a robust and useful coastal data information 
system, a truly functional, comprehensive system does not exist and is 
urgently needed. Businesses, communities, citizens and governments need 
to plan and for that, they need accurate information, a better 
understanding of risk and trade-offs to evaluate options and make smart 
decisions. I applaud your focus on this topic.

              Questions Submitted by Representative Bishop
    Question 1. During the hearing you seemed to agree that state 
management of fisheries in state waters should not be pre-empted by a 
federal regime. Could you please confirm that position in writing?

    Answer. Thank you, Rep. Bishop, for the chance to clarify my 
position on this issue. Both states and the Federal Government should 
play key roles in managing fisheries. As you are aware, there are 
various agreements between different states and the Federal Government 
to allocate responsibility for specific fisheries, in particular those 
where the fish move back and forth from state waters to federal waters. 
I noted in the hearing that in my experience, although federally 
managed fisheries have improved significantly through time and are 
generally well managed, many state-managed fisheries are not well 
resourced and do not have a good handle on the status of their stocks. 
I was not commenting on who should manage different stocks, but only 
noting that without adequate resources, it is difficult for many states 
to manage their fisheries well.

                                 ______
                                 

    The Chairman. Next I recognize Dr. Leonard. The floor is 
yours.

  STATEMENT OF KELSEY LEONARD, STEERING COMMITTEE MEMBER, MID-
 ATLANTIC COMMITTEE ON THE OCEAN, ENROLLED CITIZEN SHINNECOCK 
              INDIAN NATION, LONG ISLAND, NEW YORK

    Dr. Leonard. Thank you. Chairman Grijalva, Ranking Member 
Bishop, and members of the House Committee on Natural 
Resources.
    Tabutne. Thank you for this opportunity to testify on ocean 
policy solutions for coastal resiliency, and for your dedicated 
work and the work of your staff in bringing this bill together.
    I am an Assistant Professor in the Faculty of Environment 
at the University of Waterloo, and have served since 2013 in a 
regional ocean planning capacity, as a former Tribal Co-Lead 
for the Mid-Atlantic Regional Planning Body, and now as a 
member of the Steering Committee for the Mid-Atlantic Committee 
on the Ocean.
    I speak before you today not only as a water scientist and 
legal scholar, but as a Shinnecock woman. Although I should 
note that I am not here in an official capacity as a Tribal 
governmental representative. However, I am an enrolled citizen 
of the Shinnecock Indian Nation. Our territory is located on 
the eastern end of Long Island, New York, and we are a coastal 
Tribal Nation that has existed on our aboriginal lands and 
waters for more than 10,000 years.
    Shinnecock, in our language, means ``People of the Shore.'' 
We are water people. We are fishermen and baymen, and have 
harvested the bounty of the sea since time immemorial. But 
above all, we are ocean protectors.
    In 2012, when Superstorm Sandy hit our community and 
countless other communities along the Atlantic coast, we knew 
climate change would have irreparable consequences for our 
territory if we did not take swift action to address the 
climate crisis. Increasing extreme storm events mean more 
flooding, saltwater intrusion, infrastructure vulnerabilities, 
power outages, and the potential for loss of life.
    Eastern Tribal Nations were severely impacted by Hurricane 
Sandy, and some reservations, like my own, went weeks without 
power. With rising sea levels, Tribal Nations are on the front 
lines of coastal communities with little protection within 
existing legislation for adaptation and capacity building. This 
is why we need the Ocean-Based Climate Solutions Act.
    I go into more detail in my written testimony, but I would 
like to highlight a few high-level points with you today.
    Global studies have found that nearly 80 percent of the 
world's land-based biodiversity is located on Indigenous 
peoples' territories. And if the United States is to set a 
national goal of conserving at least 30 percent of the land and 
30 percent of the ocean by 2030, that goal should also support 
Tribal sovereignty and Indigenous-led conservation.
    Protection of land and ocean areas should not limit Tribal 
access to food sovereignty, stewardship practices, or 
maintenance of heritage sites and cultural resources. As 
Indigenous peoples, our communities cannot benefit from the 
ocean-based solutions presented in the bill if we are not 
counted.
    Data collection and monitoring of the Great Lakes, oceans, 
bays, estuaries, and coasts must be done in consultation with 
Tribal Nations and align with Indigenous data sovereignty 
principles of free, prior, and informed consent.
    Our role as Tribal Nations is not that of stakeholder, but 
of sovereigns and rights holders in a government-to-government 
relationship with the United States. As former Tribal Co-Lead 
for the Mid-Atlantic Regional Planning Body, I saw firsthand 
the shift in ocean governance when intergovernmental 
coordination is mandated, and Tribal Nations are included in 
equal parity to state and Federal representatives.
    Tribes should not be made to compete with state governments 
for funds to conserve ocean ecosystems. The Ocean-Based Climate 
Solutions Act fills a gap in the Coastal Zone Management Act 
(CZMA) where, previously, Tribal Nations were ineligible to 
access CZMA funds. This type of funding would allow Tribal 
Nations, such as Shinnecock, to continue our coastal habitat 
restoration work, and build shoreline resiliency through 
nature-based solutions that are grounded in our Indigenous 
knowledge systems.
    As Shinnecock people, we have a deep cultural connection to 
whales, and the recent unusual mortality events in the Mid/
North Atlantic waters have terrified our community and other 
Indigenous communities in the region. I believe the whale is 
like a miner's canary, a foreboding and sacrificing alarm of 
our current climate crisis, and the need to take immediate 
action not only to protect our whale relatives, but the planet.
    I want to conclude today by sharing one remaining story 
from my community, the Shinnecock Nation. Like many coastal 
communities, if sea levels continue to rise, half our 
reservation could be inundated by water by 2050. With a growing 
population and a depleting land base and no existing 
legislative process for relocation of Tribal Nations to lands 
of cultural patrimony, where we would retain our land status, 
what will become of us?
    We echo the calls of our Pacific Island brothers and 
sisters--``We are not drowning, we are fighting.'' And we need 
the Federal Government to fight for us.
    Tabutne. And thank you for your time today.

    [The prepared statement of Dr. Leonard follows:]
                Prepared Statement of Dr. Kelsey Leonard
    Chairman Grijalva, Ranking Member Bishop, and members of the House 
Committee on Natural Resources--Tabutne/ thank you for this opportunity 
to testify on ocean policy solutions for coastal community resiliency 
and to ensure the conservation and restoration of ocean and coastal 
habitats.
    I am an Assistant Professor in the Faculty of Environment at the 
University of Waterloo and have served since 2013 in a regional ocean 
planning capacity as a former Tribal Co-Lead for the Mid-Atlantic 
Regional Planning Body and now as a member of the steering committee 
for the Mid-Atlantic Committee on the Ocean.\1\ Our regional ocean 
planning work has received international recognition and was awarded 
the Peter Benchley Ocean Award for Excellence in Solutions in 2017. I 
speak before you today not only as a water scientist and legal scholar, 
but as a Shinnecock woman. Although, I should note that I am not here 
in an official capacity as a Tribal governmental representative.
---------------------------------------------------------------------------
    \1\ Mid-Atlantic Committee on the Ocean, ``Ocean Planning'' (2020) 
(https://www.midatlanticocean.org/ocean-planning/mid-atlantic-
committee-on-the-ocean/).
---------------------------------------------------------------------------
    However, I am an enrolled citizen of the Shinnecock Indian Nation, 
our territory is located on the eastern end of Long Island, New York 
and we are a coastal Algonquian Tribal Nation that has existed on our 
aboriginal lands and waters for more than 10,000 years. Shinnecock in 
our language means ``People of the Shore.'' We are water people. We are 
fishermen and baymen and harvested the bounty of the sea since time 
immemorial. But above all we are Ocean protectors.
    In 2012 when Superstorm Sandy hit our community and countless other 
communities along the Atlantic coast, we knew climate change would have 
irreparable consequences for our territory if we did not take swift 
action to address the climate crisis. Increasing extreme storm events 
mean more flooding, saltwater intrusion, infrastructure 
vulnerabilities, power outages, and potential for loss of life.\2\ 
Eastern Tribal Nations in New Jersey, Delaware, New York, and 
Connecticut were severely impacted by Hurricane Sandy. Some 
reservations went weeks without power after the storm hit.\3\ With 
rising sea levels Tribal Nations are frontline coastal communities with 
little protection within existing legislation for adaptation and 
capacity building. This is why we need the Ocean-Based Climate 
Solutions Act. However, full engagement by Indigenous Peoples is 
critical to fulfilling the policies described in the Ocean-Based 
Climate Solutions Act and the operationalization of the bill must honor 
treaties and support Tribal Sovereignty, the Federal Trust 
Responsibility, Tribal Self Determination, and the Government-to 
Government relationship between Tribal Nations and the Federal 
Government.
---------------------------------------------------------------------------
    \2\ Jantarasami, L.C., et al. 2018: Tribes and Indigenous Peoples. 
In Impacts, Risks, and Adaptation in the United States: Fourth National 
Climate Assessment, Volume II [Reidmiller, D.R., et al. (eds.)]. U.S. 
Global Change Research Program, Washington, DC, USA, pp. 572-603. doi: 
10.7930/NCA4.2018.CH15.
    \3\ ICTMN. (2012). ``Hurricane Sandy Passes, Tribes Begin Assessing 
Damage.'' Indian Country Today Media Network, Verona, NY.
---------------------------------------------------------------------------
 i. establish a national goal of conserving at least 30 percent of the 
              land and ocean of the united states by 2030
    Global studies have found that nearly 80% of the world's land-based 
biodiversity is located on Indigenous Peoples' territories \4\ and if 
the United States is to set a national goal of conserving at least 30 
percent of the land and 30 percent of the ocean within the United 
States by 2030 that goal should also support Tribal Sovereignty and 
Indigenous-led conservation. Protection of land and ocean areas should 
not limit Tribal access to food sovereignty, stewardship practices or 
maintenance of heritage sites and cultural resources. As Indigenous 
Peoples and Tribal Nations we have been stewards of these lands and 
waters for thousands of years and our conservation practices represent 
an applied science based on dynamic and cumulative observational data. 
In the establishment of new protected areas there should be established 
co-governance arrangements with Tribal Nations. There are examples of 
Indigenous-led protected areas around the world \5\ and the Ocean-Based 
Climate Solutions Act could shape the United States as a world leader 
not only in conservation but Indigenous rights restoration. It is past 
time the Federal Government begins to fulfill its 2010 endorsement of 
the United Nations Declaration on the Rights of Indigenous Peoples.
---------------------------------------------------------------------------
    \4\ Schuster, Richard, et al. ``Vertebrate biodiversity on 
indigenous-managed lands in Australia, Brazil, and Canada equals that 
in protected areas.'' Environmental Science & Policy 101 (2019): 1-6.
    \5\ Ban, Natalie C., and Alejandro Frid. ``Indigenous peoples' 
rights and marine protected areas.'' Marine Policy 87 (2018): 180-185.

ii. improve data collection and monitoring of the great lakes, oceans, 
---------------------------------------------------------------------------
          bays, estuaries, and coasts, and for other purposes

    As Indigenous Peoples our communities cannot benefit from the 
ocean-based solutions presented in the bill if we are not counted. Data 
collection and monitoring of the Great Lakes, oceans, bays, estuaries, 
and coasts must be done in consultation with Tribal Nations and align 
with Indigenous data sovereignty principles including free, prior, and 
informed consent. Within the BLUE GLOBE Act there are areas for 
enhanced coordination with Tribal Nations and Indigenous Peoples. 
Through my work with the Mid-Atlantic Regional Ocean Data Portal I have 
seen the immense benefit ocean data can have when made accessible to 
Tribal Nations for planning and policymaking. However, our ocean data 
infrastructure, especially funding streams available for Tribal 
Nations' data collection and monitoring, is severely underfunded. You 
have the opportunity with these bills to remedy that and to create 
tools that will allow for best-available science to include Indigenous 
science and traditional ecological knowledges to inform sound decision-
making for ocean governance.

    However, in building these data sources with Indigenous partners 
additional care is needed. I support portions of the bill that call for 
Indigenous communities to retain rights of ownership over data provided 
to Federal agencies and would encourage the adoption of the Global 
Indigenous Data Alliance C.A.R.E. principles for Indigenous data 
governance \6\<SUP>,</SUP>\7\ which include: Collective benefit; 
Authority to Control; Responsibility; and Ethics.
---------------------------------------------------------------------------
    \6\ Global Indigenous Data Alliance. ``CARE principles for 
Indigenous data governance.'' GIDA https://www.gida-global.org/care 
(2019).
    \7\ Carroll, Stephanie Russo, et al. ``The CARE Principles for 
Indigenous Data Governance.'' Data Science Journal 19, no. 1 (2020).

    <bullet> Collective benefit: Data ecosystems shall be designed and 
            function in ways that enable Indigenous Peoples to derive 
---------------------------------------------------------------------------
            benefit from the data.

            -- C1. For inclusive development and innovation

            -- C2. For improved governance and citizen engagement

            -- C3. For equitable outcomes
    <bullet> Authority to Control: Indigenous Peoples rights and 
            interests in Indigenous data must be recognized and their 
            authority to control such data respected. Indigenous data 
            governance enables Indigenous Peoples and governing bodies 
            to determine how Indigenous Peoples, as well as Indigenous 
            lands, territories, resources, knowledges, and geographical 
            indicators are represented by and identified within data.

            -- A1. Recognizing rights and interests

            -- A2. Data for governance

            -- A3. Governance of data

    <bullet> Responsibility: Those working with Indigenous data have a 
            responsibility to share how that data are used to support 
            Indigenous Peoples' self-determination and collective 
            benefit. Accountability requires meaningful and openly 
            available evidence of these efforts and the benefits 
            accruing to Indigenous Peoples.

            -- R1. For positive relationships

            -- R2. For expanding capability and capacity

            -- R3. For Indigenous languages and worldviews

    <bullet> Ethics: Indigenous Peoples' rights and well-being should 
            be the primary concern at all stages of the data life cycle 
            and data ecosystem.

            -- E1. For minimizing harm and maximizing benefit

            -- E2. For justice

            -- E3. For future use

    Moreover, data collection on the Blue Economy must include Tribal 
industries. In this way Tribal-level statistics should be included to 
measure the contribution of the Great Lakes, oceans, bays, estuaries, 
and coasts to the overall economy of the United States.
  iii. require research in coastal sustainability and resilience, to 
 ensure that the federal government continues to implement and advance 
           coastal resiliency efforts, and for other purposes
    Indigenous Peoples are on the frontlines of climate change. 
Indigenous communities, like my own, face severe livelihood risks due 
to increasingly extreme climate events and as such must be equal 
partners in the development of scalable best practices and solutions to 
ensure more resilient and sustainable communities. Our role as Tribal 
Nations is not that of stakeholder but of sovereigns and rights holders 
in a government to government relationship with the United States. Our 
research practices must therefore reflect that distinct relationship 
and the United States must honor the federal fiduciary responsibility 
to Tribes.
 iv. designate regional ocean partnerships of the national oceanic and 
           atmospheric administration, and for other purposes
    As former Tribal Co-Lead for the Mid-Atlantic Regional Planning 
Body I saw firsthand the shift in ocean governance when 
intergovernmental coordination is mandated, and Tribal Nations are 
included in governance with equal parity to state and federal 
representatives. This form of ocean justice in intergovernmental 
coordination led to the first U.S. National Ocean Policy and regional 
ocean action plans \8\ that were unprecedented in American history. I 
also saw the development of a regional ocean assessment \9\ process 
that valued Indigenous science and can now serve as a model for 
integration of Indigenous data and science into the ocean planning 
process through regional ocean data portals. We need more of that level 
of coordinated action. The Ocean-Based Climate Solutions Act positions 
the United States once more to be a leader in ocean governance that 
prides itself on fairness, equity, and participation of all peoples in 
ocean decision-making.
---------------------------------------------------------------------------
    \8\ Mid-Atlantic Regional Planning Body. ``Mid-Atlantic regional 
ocean action plan.'' (2016). https://www.boem.gov/environment/mid-
atlantic-regional-ocean-action-plan.
    \9\ Mid-Atlantic Regional Planning Body. ``Mid-Atlantic Regional 
Ocean Assessment.'' (2015). https://roa.midatlanticocean.org/.
---------------------------------------------------------------------------
    However, within the Regional Ocean Partnership Act there is not a 
pathway for intergovernmental coordination among Tribes. It would be my 
recommendation that the path set forward to promote intergovernmental 
coordination among states is provided equally to Tribal Nations and the 
funding streams would be equally accessible and operationalized. 
Unfortunately, coastal Indian Tribes in regions outside of the West 
Coast are absent from the bill and the replacement of Regional Planning 
Bodies by Regional Ocean Partnerships for intergovernmental 
coordination has hindered progress for ocean planning and conservation. 
Tribes should not be made to compete with State governments for funds 
to conserve ocean ecosystems and maintain habitats of cultural 
patrimony.
                           v. offshore energy
    I support Title III of the bill limiting oil and gas leasing in the 
outer continental shelf and would echo the concerns of Tribal leaders 
across the country who through the National Congress of American 
Indians in 2009 issued a resolution calling for greater coordination on 
the impacts of outer continental shelf developments on Tribal rights 
and sovereignty.\10\ Moreover, other offshore energy developments 
should occur in consultation with Tribal Nations in a government-to-
government relationship. Tribal rights extend to ocean related 
activities and Tribes have reserved rights and inherent sovereignty for 
purposes of ocean and marine development. Moreover, wealth gained from 
offshore energy leasing should be shared with Tribal Nations and 
Indigenous communities who are ocean rights holders that predate the 
United States.
---------------------------------------------------------------------------
    \10\ The National Congress of American Indians, Resolution #PSP-09-
024, ``Outer-Continental Shelf Protection and Coordination'' (2009) 
(https://www.ncai.org/attachments/Resolution_ 
TOwvMXRiPywSFtMIWInuAkzlOotkWKpxzfTXPvSHIUZCwSTGKZt_PSP-09-
024_final.pdf).
---------------------------------------------------------------------------
vi. establish an interagency working group on coastal blue carbon, and 
                           for other purposes
    With regards to the Blue Carbon for Our Planet Act I support the 
development of Integrated Pilot Programs To Restore Degraded Coastal 
Blue Carbon Ecosystems among Tribes, ensuring that Indigenous 
communities are not only included in the program but equitably 
represented based on disproportional impacts of climate change on our 
communities.\11\ Moreover, the Federal Government must ensure that data 
included in the Coastal Carbon Data Clearinghouse includes 
disaggregated data accessible for Tribal Nations and Indigenous 
communities.
---------------------------------------------------------------------------
    \11\ Norton-Smith, Kathryn, et al. ``Climate change and indigenous 
peoples: a synthesis of current impacts and experiences.'' Gen. Tech. 
Rep. PNW-GTR-944. Portland, OR: US Department of Agriculture, Forest 
Service, Pacific Northwest Research Station. 136 p. 944 (2016).
---------------------------------------------------------------------------
     vii. provide grants supporting research on the conservation, 
restoration, or management of oysters in estuarine ecosystems, and for 
                             other purposes
    Indigenous Peoples throughout the Mid-Atlantic have harvested 
oysters sustainably for thousands of years. Our own Shinnecock oysters 
are prized among some of New York City's top restaurants. Historically, 
we harvested the meat and with the shells we created vast mounds--known 
as shell middens--that show an archaeological record of oyster 
stewardship that can and should inform sustainable practices for oyster 
habitat restoration today.\12\ The portions of the bill that call for 
increased research on the conservation, restoration, or management of 
oysters in estuarine ecosystems are needed and we hope that Tribal 
Nations and Indigenous communities can be listed as eligible entities 
for receipt of those research grants.
---------------------------------------------------------------------------
    \12\ Jansen, Alex. ``Shell middens and human technologies as a 
historical baseline for the Chesapeake Bay, USA.'' North American 
Archaeologist 39, no. 1 (2018): 25-50.
---------------------------------------------------------------------------
 viii. grants to further achievement of tribal coastal zone objectives
    The Ocean-Based Climate Solutions Act fills a needed gap in the 
Coastal Zone Management Act (CZMA) where previously Tribal Nations were 
ineligible to access CZMA funding. This type of funding would allow 
Tribal Nations, such as Shinnecock, to continue our coastal habitat 
restoration work and build shoreline resiliency through nature-based 
solutions grounded in our Indigenous knowledge systems.\13\
---------------------------------------------------------------------------
    \13\ Sengupta, Somini and Shola Lawal. (2020, March 5). The 
Original Long Islanders Fight to Save Their Land From a Rising Sea. 
Retrieved from https://www.nytimes.com/2020/03/05/climate/shinnecock-
long-island-climate.html.
---------------------------------------------------------------------------
              ix. strengthening marine mammal conservation
    As Shinnecock People we have a deep cultural connection to whales 
and the recent Unusual Mortality Events in Mid/North Atlantic have 
caused grave alarm within our community and other Indigenous 
communities in the region. I believe the whale is like a miner's canary 
a foreboding and sacrificing alarm of our current climate crisis and 
the need to take immediate action not only for their protection but for 
the planet. Therefore, Title VIII of the Ocean-Based Climate Solutions 
Act is needed to protect these relations and that the conservation 
practices implemented would be informed by Indigenous and western 
science and support Tribal Sovereignty.
         x. bureau of indian affairs tribal resilience program
    Title IX of the Act is important to ensure the Federal Government 
can meet its fiduciary obligations to Tribes. Tribal Nations are 
frontline communities and require these grants to be able to build 
resiliency in our nations and ensure our deteriorating infrastructure 
can be rebuilt to withstand climatic changes.
                 xi. coastal resiliency and adaptation
    I want to conclude today by sharing one remaining story from my 
community, the Shinnecock Nation. Like many coastal communities if sea 
levels continue to rise half our reservation could be inundated by 
water by 2050.\14\<SUP>,</SUP>\15\ With a growing population and a 
depleting land base and no existing legislative process for relocation 
of Tribal Nations to lands of cultural patrimony where we would retain 
our land status what will become of us? We echo the calls of our 
Pacific Island brother and sisters ``We are not drowning. We are 
fighting.'' And we need the Federal Government to fight with and for 
us. The Federal Trust Responsibility is ``a legally enforceable 
fiduciary obligation on the part of the U.S. to protect Tribal treaty 
rights, lands, assets, and resources, as well as a duty to carry out 
the mandates of Federal law with respect to American Indian and Alaska 
Native Tribal Nations and Villages'' as well as to non-federally 
recognized Indigenous Peoples. Sea Level Rise poses a direct threat to 
the lands, waters, assets, resources, and ecosystems that are protected 
by the Federal Trust Responsibility. I support portions of the bill 
that establish processes for relocation of communities and humbly call 
for the Federal Government to do more. Tribal Nations currently 
confront a significant unmet funding need for relocating or protecting 
infrastructure threatened by climate impacts. There is not only a need 
for funding but for legislative guarantees that our land status will 
transfer with our people as we are forced to relocate due to the 
climate crisis. The Ocean-Based Climate Solutions Act is the 
opportunity to create a world where the United States is a leader in 
ocean justice for the benefit of all peoples.
---------------------------------------------------------------------------
    \14\ Shepard, Christine C., et al. ``Assessing future risk: 
quantifying the effects of sea level rise on storm surge risk for the 
southern shores of Long Island, New York.'' Natural hazards 60, no. 2 
(2012): 727-745.
    \15\ NOAA Coastal Services Center. (2012). ``Sea Level Rise and 
Coastal Flooding Impacts Viewer.'' http://coast.noaa.gov/digitalcoast/
tools/slr.

---------------------------------------------------------------------------
    Tabutne. Thank you for your time today.

                                 ______
                                 

 Questions Submitted for the Record to Dr. Kelsey Leonard, Shinnecock 
                             Indian Nation
               Questions Submitted by Representative Cox
    Question 1. The Chairman's bill would also establish a Blue Carbon 
Program at NOAA to improve the management of coastal carbon sinks. What 
benefits would this new program bring to the management of coastal 
carbon sinks? What existing management practices need to be improved?

    Answer. Existing management practices can be improved through 
greater consultation of Tribal governments and inclusion of Indigenous 
Knowledge ensuring the best available science for decision-making in 
the management of coastal carbon sinks. Coastal ecosystems such as 
mangroves, sea grass, and tidal marshes, are essential to climate 
change resilience due to their roles in storm surge buffering and food 
security and their unique capacity for carbon storage. Coastal carbon 
sinks, referred to as blue carbon ecosystems, sequester more carbon per 
area unit than do terrestrial forests. They are also extremely 
threatened due to both climate change and anthropogenic forces. For 
example, the IUCN predicts that all mangrove ecosystems could disappear 
in the next century under a business-as-usual scenario. Destruction of 
coastal carbon sinks not only releases the carbon stored therein, but 
also reduces overall capacity to uptake carbon from the atmosphere.
    The program established under Title I of this bill would ensure 
that the most valuable blue carbon ecosystems are identified, 
protected, and continuously studied and monitored to better understand 
their role in mitigating and adapting to climate change. The 
comprehensive blue carbon program would facilitate interagency 
cooperation and management of coastal carbon sinks, promote public 
understanding of these valuable resources, support partnerships between 
federal agencies, Tribes, state and local governments or NGOs, and 
increase protection from agency actions for areas designated under the 
program.
    Importantly, the program would also assess the economic, social, 
and environmental impacts and co-benefits of carbon storage, such as 
reduced flood risk, maintenance of biodiversity, and healthy fisheries, 
as well as the makeup of communities served by these ecosystems. The 
program prioritizes funding for blue carbon restoration projects that 
would benefit communities of color, low-income, and Tribal Nation or 
Indigenous communities.

            Questions Submitted by Representative Velazquez
    Question 1. Dr. Leonard, H.R. 8632 includes important provisions 
for the U.S territories, which have been heavily impacted by natural 
disasters during the last 4 years. Specifically, Section 704, requires 
the NOAA Administrator to provide technical assistance to improve data 
collection and forecasting for extreme weather. How will technical 
assistance like this benefit territories like Puerto Rico, which has 
limited resources and is still recovering from Hurricane Maria?

    Answer. This year has already seen the greatest number of 
hurricanes in the Atlantic Ocean since NOAA began recording hurricanes 
in the 1850s.\1\ Studies show that climate change is increasing the 
risk of severe weather events, and the brunt of that risk will be borne 
by areas already impacted by major tropical storms, typhoons, and 
hurricanes. Additionally, higher sea levels and atmospheric moisture 
increase levels of flooding associated with major oceanic weather 
events. Shifts in the range and severity of storm events weaken the 
reliability of existing predictive data, which has already proven 
insufficient to prevent tragic losses of life and billions of dollars 
in damage. Hurricane Maria was the wettest hurricane on record to hit 
Puerto Rico, and severe rainfall of that degree is now five times more 
likely to hit the island than it was 50 years ago.\2\ In addition to 
causing at least 3,000 deaths, Hurricane Maria destroyed Puerto Rico's 
main weather radar used for hurricane forecasting, and significant 
investment is needed to both rebuild and improve the island's 
forecasting capabilities. For all U.S. territories facing the risk of 
natural disasters, more comprehensive data collection and weather 
forecasting is essential to supporting impacted-based decision services 
in and facilitating pre-disaster preparations.
---------------------------------------------------------------------------
    \1\ https://www.noaa.gov/news/2020-atlantic-hurricane-season-takes-
infamous-top-spot-for-busiest-on-record.
    \2\ https://www.nature.com/articles/d41586-019-01280-w.
---------------------------------------------------------------------------
    Technological advances over the past decade have increased 
forecasting abilities, and additional funding is needed to both 
implement existing technology and continuing to develop new forecasting 
methods. NOAA's recent deployment of hurricane gliders to increase data 
availability on ocean conditions and improve the accuracy of hurricane 
forecasting is an example of the highly beneficial technology that can 
be implemented when sufficient funding is available. Minimizing 
uncertainty in forecasting means increasing the time that potentially 
impacted territories have to prepare for threats facing them. Section 
704's grant program would ensure that territories can engage with and 
benefit from such technology to live-saving ends. Additionally, Section 
704 would also provide needed resources to ensure technological 
advances are inclusive of Indigenous Knowledge from U.S. 
Territories.\3\ A recent study by David-Chavez et al. (2020) found that 
resource limitations were a significant obstacle to Indigenous 
Knowledge mobilization in the Caribbean including Boriken (Puerto 
Rico).\4\
---------------------------------------------------------------------------
    \3\ David-Chavez, D.M. & Gavin, M.C. (2018). A global assessment of 
Indigenous community engagement in climate research. Environmental 
Research Letters, 13(12), 123005.
    \4\ David-Chavez, D.M., et al. (2020). Community-based (rooted) 
research for regeneration: understanding benefits, barriers, and 
resources for Indigenous education and research. AlterNative: An 
International Journal of Indigenous Peoples, 16(3), 220-232.

    Question 2. Dr. Leonard, climate change issues are deeply 
intertwined with injustice and human rights disputes. As you know, LMI 
and communities of color are unfairly exposed to, and impacted by, 
hazardous pollution and industrial practices. Can you explain how H.R. 
8632 guards our Nation's waters and redistributes resources, 
protection, and power to LMI and minority frontline communities where 
---------------------------------------------------------------------------
environmental injustices are most pervasive?

    Answer. Multiple sections of the Ocean-based Climate Solutions Act 
prioritize the needs and interests of LMI and minority frontline 
communities in light of the disproportionate risk of harm from climate 
change that these communities face and the disproportionate burden of 
environmental and resource degradation placed on these communities by 
present and historic government practices.
    Sec. 107 secures protections for coastal areas that buffer 
frontline communities from storm surges and requires increased agency 
consultation regarding actions that would impact areas designated under 
the section. Sec. 201 calls for the protection of marine habitats that 
mitigate threats to vulnerable coastal communities by protecting 
natural resources vital to health and economies of those communities. 
It also requires the section to be implemented in such a way as to 
increase access to nature for low-income and communities of color. Sec. 
1005 creates a grant program for shovel-ready restoration of coasts and 
fisheries and prioritizes projects that would benefit communities 
without adequate resources. Sec. 1302 likewise creates a grant program 
for coastal and estuary resilience projects that advance environmental 
justice by reducing the disproportionate impact of climate change on 
frontline communities.
    These sections, among others, both dedicate resources to increasing 
the resilience of vulnerable communities in the face of climate change 
and ensure the consideration of these communities in the development 
and implementation of federal policy.


                                 ______
                                 

    The Chairman. Thank you very much, Dr. Leonard.
    Let me now turn to and recognize Dr. Hilborn for his 
testimony.

    Thank you, Doctor.

  STATEMENT OF RAY HILBORN, PROFESSOR, SCHOOL OF AQUATIC AND 
FISHERY SCIENCES, UNIVERSITY OF WASHINGTON, SEATTLE, WASHINGTON

    Dr. Hilborn. Mr. Chairman and Members, thank you for this 
opportunity to address the Committee on this important issue.

    As someone who has worked in fisheries for over 50 years, 
and done field work in Alaska for almost 40 years, I know that 
global warming is real, and climate change is the major 
challenge to American fisheries. The question is, what are the 
most appropriate tools to respond?

    Before we discuss how to respond to climate change, we 
first need to set the stage. What is the state of U.S. 
fisheries and oceans?

    U.S. fish stocks are healthy and increasing in abundance, 
and U.S. fisheries management is highly precautionary. A recent 
paper in Proceedings of the National Academy of Sciences showed 
that overfishing is causing only a 3-5 percent loss in 
potential yield from U.S. fisheries, whereas precautionary 
underfishing is causing far more loss of yield. Overfishing is 
simply not a concern for U.S. fisheries production. Science-
based management under the Magnuson-Stevens Act is working.
    So, how should we respond to the challenges of climate 
change?

    The United States has an admirable set of laws and 
institutions that can do this. The Regional Fisheries 
Management Councils have the authority, and the Magnuson-
Stevens Act, the Endangered Species Act, the Marine Mammal 
Protection Act, and other legislation give councils the tools 
to respond to climate change. We don't need a fixed set of 
closed areas; we need adaptive response to climate.

    In the years ahead, it will be important for fisheries 
management to be more flexible, allowing for changes in the 
distribution and productivity of marine species. Areas and 
stocks that are high priority for protection now may not be the 
same in 20 years.

    This brings me to Title II of the Ocean-Based Climate 
Solutions Act, which would require establishment of marine 
protected areas that ban all commercial fishing activity in 30 
percent of U.S. ocean waters by 2030. Such fixed marine 
protected areas are simply the wrong tool to adapt to climate 
change.

    There are three primary objectives in the 30x30 proposal: 
(1) to increase target species production; (2) to better 
protect non-target species; and (3) to protect sensitive 
habitats. MPAs will either not help achieve these objectives, 
or there are far better tools.

    Both theory and empirical evidence shows you cannot 
increase target species yield with MPAs unless overfishing is 
widespread. This is not the case in the United States. We would 
not expect MPAs to increase the yield from our fish stocks. 
Certainly, there are typically more fish in closed areas than 
outside, but remember that the fishing effort that was 
previously inside the MPA has been moved outside. The evidence 
shows that when MPAs are put in place and stocks are well 
managed, abundance goes up in the closed area, but goes down 
outside with no net gain. MPAs would help to increase yield in 
places where overfishing is common, such as South and Southeast 
Asia, but not the United States.

    It has been clearly demonstrated that bycatch can be best 
reduced by changes in fishing technology, fishing gear, or 
changes in incentives to alter fleet behavior. Bycatch 
reduction of 90 percent has been achieved by turtle excluder 
devices for trawls, acoustic pingers for gill nets, and a 
combination of tori lines, change in bait, circle hooks, and 
night setting for longlines. The spatial location of bycatch 
problems will change as species distribution changes. Closing 
fixed areas of the oceans based on current distributions will 
not be effective.

    Certainly, vulnerable marine ecosystems need protection, 
but Fishery Management Councils are doing that in a way that is 
science-based, and has credibility with industry and other 
stakeholders. These areas should be mapped and protected from 
fishing gear that impacts certain species, but the distribution 
of these species may well shift with climate change, and fixed 
closed areas are not the right tool.

    MPA advocates argue that areas with no fishing are more 
resilient to climate change than fished areas, but they ignore 
the fact that a 30x30 would cause 70 percent of U.S. oceans to 
see increased fishing pressure from vessels that move out of 
the 30 percent closed. Thus, if the areas inside the reserve 
are more resilient, the areas outside would be less resilient. 
Do we really want to make 70 percent of our oceans less 
resilient to climate change?

    For none of these issues are no-take areas the most 
appropriate tool, but the proposed legislation would draw staff 
time, resources, and industry engagement away from the really 
effective tools. MPAs will also not help other threats to the 
ocean, such as ocean acidification, exotic species, land-based 
runoff, plastics, or illegal fishing.

    I certainly agree with my colleagues in the environmental 
movement that we need protection of our oceans. But Title II 
takes the wrong approach, and we can do better if we apply the 
same resources that will work. Let councils use the effective 
tools to protect 100 percent of the U.S. oceans, not apply an 
ineffective tool to 30 percent.
    Thank you very much.

    [The prepared statement of Dr. Hilborn follows:]

  Prepared Statement of Ray Hilborn, Professor, School of Aquatic and 
               Fishery Sciences, University of Washington
    Good morning and I want to thank the members and staff for the 
opportunity to address this committee. My name is Ray Hilborn, I am a 
Professor of Fisheries and Aquatic Sciences at the University of 
Washington. I have been studying fisheries management for 50 years, 
both in the U.S. and in a number of other countries and international 
commissions. I currently serve on the SSC of the Western Pacific 
Council. My research has resulted in 300 peer reviewed journal 
articles, and several books including ``Quantitative fisheries stock 
assessment and management'' which is a standard reference work on 
fisheries management. My work has been recognized by several awards 
including the Volvo Environmental Prize, the International Fisheries 
Science Prize, and the Ecological Society of America's Sustainability 
Science Prize.

    I am not representing any group, although I do receive research 
funding from a wide range of sponsors including major U.S. foundations 
such as the Gordon and Betty Moore Foundation, the David and Lucielle 
Packard Foundation and the Walton Family Foundation; NGOs such as the 
Environmental Defense Fund, The Nature Conservancy and the Natural 
Resources Defense Council; agencies including the National Science 
Foundation and NOAA; and commercial and recreational interest groups.

    As someone who has worked in fisheries for over 50 years, and done 
field work in Alaska for almost 40 years, I know that global warming is 
real, and climate change is the major challenge to American fisheries. 
The key question is what are the most appropriate tools to respond?

    Before we discuss how to respond to climate change we first need to 
set the stage. What is the state of U.S. fisheries and Oceans? U.S. 
fish stocks are healthy and increasing in abundance, and U.S. fisheries 
management is highly precautionary. Figure 1 shows the median abundance 
of scientifically assessed stocks in the U.S. relative to the reference 
point of the abundance that would produce maximum sustainable yield.\1\ 
As you will see the median abundance has always been above the target 
level and has been increasing since 2000.
---------------------------------------------------------------------------
    \1\ Data from NOAA stock assessments and can be found in 
www.ramlegacy.org.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    .epsFigure 1. Median stock abundance of U.S. stocks relative to the 
---------------------------------------------------------------------------
target biomass that would produce maximum sustainable yield.

    In a recent paper in Proceedings of the National Academy of 
Sciences (1), we showed that overfishing is causing only a 3-5% loss in 
potential yield from U.S. fisheries, whereas precautionary underfishing 
is causing far more. Figure 2 shows the loss of U.S. fish production in 
millions of tons from overfishing, and from underfishing. Underfishing 
is simply harvesting less than would produce maximum sustainable yield. 
If we were to fully exploit all of our underfished resources we might 
increase yield by 40%. Overfishing is simply not a major concern for 
U.S. fisheries production: science-based management under the Magnuson-
Stevens Act is working.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    .epsFigure 2. The amount of yield lost to overfishing and 
underfishing from U.S. fish stocks.

    Also to set the stage, the Committee should be aware that in 
general U.S. fisheries produce food, protein and nutrients at much 
lower environmental cost than alternative land-based production methods 
(2). Expanding crops production requires destroying native ecosystems, 
with most growth in global production coming from conversion of 
tropical forests. In contrast the well-managed U.S. fisheries maintain 
largely natural ecosystems that are little altered when compared to the 
conversion from forest to crops. Anything that reduces U.S. fish 
production will either cause us to import more fish from places with 
lower environmental standards, or rely on more land based production.
    The impact of fishing on non-target species such as birds, and 
mammals, and on vulnerable marine ecosystems, is less well known but of 
more concern than overfishing target species, and to me the major 
challenge to sustaining our oceans and producing food from the ocean.
    Climate change has two major dimensions, warming and increased 
variability in weather. Warming has been shown to cause species to 
shift their ranges (3), generally but not always toward the poles, and 
some species will become less productive and others will become more 
productive. We may also expect more variation from year to year in the 
abundance of fish stocks.
    Recent examples of shifting distributions include the movement of 
pollock in the Bering Sea northwards, and North Atlantic right whales 
moving into areas of intense lobster and crab fishing. Responding to 
these changes in distribution requires dynamic real time management.
    So how should we respond to the challenges of climate change? The 
U.S. has an admirable set of laws and institutions that can do this. 
The Regional Fisheries Management Councils have the authority, and the 
Magnuson-Stevens Act, the Endangered Species Act, the Marine Mammal 
Protection Act and other legislation gives Councils the tools to 
respond to climate change. We don't need a massive overhaul of existing 
law to tackle the challenge.
    In the years ahead it will be important for fisheries management to 
be more flexible, allowing for changes in distribution and 
productivity. Areas and stocks that are high priority for protection 
now may not be the same in 20 years.
    That brings me to Title II of the Ocean-Based Climate Solutions 
Act, which would require the establishment of marine protected areas 
that ban all commercial fishing activity in 30 percent of U.S. ocean 
waters by 2030. Such marine protected areas are simply the wrong tool 
for adapting to climate change. There are three primary objectives of 
the 30x30 proposal; (1) to increase target species production, (2) to 
protect non-target species and (3) to protect sensitive habitats. MPAs 
will either not help or there are better tools.
    Both theory and empirical evidence shows that you cannot increase 
target species yield with MPAs unless overfishing is wide spread 
(4),(5),(6). Overfishing is rare in the U.S. and we would not expect 
MPAs to increase the yield from our fish stocks. Certainly there are 
typically more fish in the closed areas than outside, but remember that 
the fishing effort that was previously inside the MPA has been moved 
outside. The evidence shows that when MPAs are put in place and stocks 
are well managed, abundance goes up inside the closed area, and goes 
down outside with no-net gain.
    In the highly publicized MPA network set up in California it has 
been shown that abundance of target species increased inside reserves, 
but declined outside (7) and that the result was no measureable 
increase in fish abundance (6).
    It has been clearly demonstrated that bycatch can be best reduced 
by changes in fishing technology, fishing gear, or changes in 
incentives to alter fleet behavior. The dramatic reductions in bycatch 
from turtle excluder devices for trawls, acoustic pingers for gill 
nets, and a combination of tori lines, change in bait, circle hooks and 
night setting for longlines has often reduced bycatch by 90%. The 
distribution of bycatch problems will change as species distribution 
changes. Setting aside fixed areas of the oceans is not going to be 
effective.
    Certainly, vulnerable marine ecosystems need protection, but many 
Fishery Management Councils are doing that--and in a way that is 
science-based and has creditability with industry and other 
stakeholders. Moreover, these areas only need protection from mobile 
bottom contact gear such as trawls and dredges. There is no need to ban 
midwater trawling, purse seining, longlining or surface gill nets to 
protect corals, sponges or sea grasses. Moreover the distribution of 
these species may well change with climate change.
    MPA advocates argue that MPAs are more resilient to climate change 
than fished areas; however a recent review article (8) entitled 
``Climate change, coral loss, and the curious case of the parrotfish 
paradigm: Why don't marine protected areas improve reef resilience?'' 
has shown no evidence for this. Furthermore, the MPA advocates ignore 
that fact that 30x30 would cause 70% of U.S. oceans to see increased 
fishing pressure from the vessels that moved out of the 30% closed, and 
thus potentially be less resilient to climate change. Do we really want 
to make 70% of our oceans less resilient to climate change?
    For none of these issues are no take MPAs the most appropriate 
tool, but the proposed legislation would draw staff time, resources and 
industry engagement away from the really effective tools. The oceans in 
the U.S. are under many threats beyond climate change, including ocean 
acidification, exotic species, land based runoff, plastics and illegal 
fishing. There are solutions to each of these problems, but it is not 
no-take MPAs--they do nothing to mitigate these problems.
    I certainly agree with my colleagues in the environmental movement 
that we need to protect our oceans, but Title II takes the wrong 
approach and we can do much better if we apply the same resources to 
the tools that will work. Let Councils use the effective tools to 
protect 100% of U.S. oceans, not apply an ineffective tool to 30%. No 
take areas are an inflexible, static tool, whereas agency management we 
already have can respond to climate change in real time.
References

1. R. Hilborn, et al. Effective fisheries management instrumental in 
improving fish stock status. Proceedings of the National Academy of 
Sciences 117, 2218-2224 (2020).

2. R. Hilborn, et al. The environmental cost of animal source foods. 
Front Ecol 7Environ.

3. M.L. Pinsky, et al. Marine taxa track local climate velocities. 
Science 341, 1239-1242 (2013).

4. A. Hastings and L.W. Botsford. Equivalence in yield from marine 
reserves and traditional fisheries management. Science 284, 1537-1538 
(1999).

5. R. Hilborn, F. Micheli, and G.A. De Leo. Integrating marine 
protected areas with catch regulation. Can J Fish Aquat Sci 63, 642-649 
(2006); published online EpubMar.

6. D. Ovando. (2018). Ph.d. thesis. University of California Santa 
Barbara.

7. S.L. Hamilton, et al. Incorporating biogeography into evaluations of 
the Channel Islands marine reserve network. Proceedings of the National 
Academy of Sciences 107, 18272-18277 (2010); published online Epub2010 
(10.1073/pnas.0908091107).

8. J.F. Bruno, I.M. Cote, and L.T. Toth. Climate change, coral loss, 
and the curious case of the parrotfish paradigm: Why don't marine 
protected areas improve reef resilience? Annual review of marine 
science 11, 307-334 (2019).

                                 ______
                                 

   Questions Submitted for the Record to Dr. Ray Hilborn, Professor, 
    School of Aquatic and Fishery Sciences, University of Washington
              Questions Submitted by Representative Bishop
    Question 1. During the hearing we heard testimony that the 
Magnuson-Stevens Act isn't a conservation statute, and that additional 
statutory authority is needed. Do you agree with that characterization?

    Answer. I strongly disagree with that statement. The implication 
was that Regional Fisheries Management Councils are only concerned with 
target species management. This is simply not true.
    The Act is entitled the Magnuson-Stevens Fishery Conservation and 
Management Act. Conservation is the first reason for its existence. 
Public Law 94-265 describes it as an act ``to provide for the 
conservation and management of fisheries and other purposes.''
    Among the ``other purposes'' are the protection of habitats; 
article 104-297 states ''One of the greatest long-term threats to the 
viability of commercial and recreational fisheries is the continuing 
loss of marine, estuarine, and other aquatic habitats. Habitat 
considerations should receive increased attention for the conservation 
and management of fishery resources of the United States.'' Further, 
article 104-297 charges the Regional Fisheries Management Councils to 
``promote the protection of essential fish habitat in the review of 
projects conducted, under Federal permits, licenses, or other 
authorities that affect or have the potential to affect such habitat.''
    In addition to the mandates of the Magnuson-Stevens Act, Regional 
Fisheries Management Councils and NOAA are regulated by a range of 
other federal laws that mandate biodiversity protection. These include 
especially the Marine Mammal Protection Act and the Endangered Species 
Act, which require the councils and NOAA to devote considerable 
attention to a wide range of non-target species and ecosystems.
    Let us be clear, Marine Protected Areas in the U.S. and globally, 
have been almost exclusively a fisheries management measure; they 
simply move fishing effort. MPAs have had little if any impact on any 
of the other forces affecting marine ecosystems, and in the U.S. the 
Regional Fisheries Management Councils are required by law to consider 
fisheries impacts on all species of conservation concern and on marine 
habitats.
    Further, a very high proportion of the scientific understanding of 
trends in marine biota is housed in the NMFS Regional Science Centers. 
NOAA's Office of Protected Resources is responsible for the 
conservation, protection, and recovery of species under the Endangered 
Species Act and the Marine Mammal Protection Act. The ecosystem 
division of the Regional Science Centers are a major hub of knowledge 
of the overall changes in the marine ecosystem. So there is an existing 
science and management structure well able to protect marine 
biodiversity as required by U.S. law. The notion that we should bypass 
this existing structure through the creation of new Marine Protected 
Areas is deeply misguided and would lead to duplication of effort.

    Question 2. During the hearing we heard testimony that target 
species managed under the Magnuson-Stevens Act only comprise a small 
percentage of the biomass in any given ocean area, and that therefore 
MPAs are essential to achieve broader marine biodiversity objectives. 
Do you agree?

    Answer. Regional Fishery Management Councils--drawing on the 
expertise of the Regional Science Centers and the Councils' Scientific 
and Statistical Committees--are responsible for managing fishing 
activity and considering its impacts on marine ecosystems. The idea 
that management is only concerned with the health of target species is 
simply untrue.
    Certainly the target species are only a small portion of the marine 
ecosystems, but the fisheries management system is designed, and 
required, to consider a broad range of biodiversity. The Regional 
Science Centers conduct surveys that track changes in abundance of 
hundreds of species that are not target species, and the Regional 
Fisheries Management Councils devote much of their time and resources 
to minimizing the impact of fishing on non-target species and habitats.
    As examples of how the existing legislation has protected 
ecosystems, the map below shows areas that are managed in a variety of 
ways to protect a wide range of marine biodiversity. Large areas of the 
marine ecosystem are closed to fishing to protect sensitive benthic 
species such as corals in the Aleutian Islands, and other areas closed 
to protect breeding grounds of birds and mammals.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    .epsThis map courtesy of John Olsen, National Marine Fisheries 
Service.

    It is not widely recognized how much of the US EEZ has been closed 
to fishing. At least 67% of the U.S. EEZ is closed to bottom trawling, 
and 24% of the area of the continental shelf. Over 3.8 million square 
kilometers of the US EEZ is in protected areas such as Marine 
Monuments, Wildlife Refuges, and Marine Sanctuaries. That is over 30% 
of the U.S. EEZ
    Our federal system of fisheries management has evolved over more 
than four decades to put science at the center of the decision-making 
process. Council deliberations relating to biodiversity objectives are 
rigorous, and they are achieving considerable success. Creating a 
cabinet-level Task Force that would simply designate permanent Marine 
Protected Areas in large tracts of the U.S. Exclusive Economic Zone 
will encroach on the ability of Fishery Management Councils to achieve 
their management objectives. Overall biodiversity outcomes would be 
weakened, not improved.

                                 ______
                                 

    The Chairman. Thank you, Dr. Hilborn, for your testimony.
    And now let me recognize Dr. Kryc for her testimony.
    You are recognized.

STATEMENT OF KELLY KRYC, DIRECTOR OF OCEAN POLICY, NEW ENGLAND 
                AQUARIUM, BOSTON, MASSACHUSETTS

    Dr. Kryc. Thank you, Chairman Grijalva, Ranking Member 
Bishop, and all of the Committee members for inviting me to 
testify on the topic of ocean climate action.
    As a former resident of Arizona, a non-ocean state, I want 
to acknowledge Chairman Grijalva's leadership in introducing 
this bill, and recognizing that no matter where we reside, a 
healthy and thriving ocean is critical to all of us.
    I am Dr. Kelly Kryc, the Director of Ocean Policy at the 
New England Aquarium in Boston, Massachusetts. I am also an 
oceanographer and a geoscientist. My career has focused on both 
the energy and environmental sides of climate. And although I 
currently serve in a role advocating for a healthy ocean, I 
also have experience working with the energy sector to achieve 
a balance between energy extraction and protecting the 
environment, conserving natural resources, and promoting 
safety. I am testifying today in support of H.R. 8632.
    On the whole, the Ocean-Based Climate Solutions Act 
proposes a comprehensive, yet pragmatic framework for taking 
immediate action to limit the impacts of the climate crisis by 
harnessing the power of the ocean.
    Let me be clear: the provisions outlined in the bill are 
absolutely necessary if we are to prevent the worst of what has 
been predicted under a business-as-usual scenario.
    The evidence is overwhelming: we must severely curb 
emissions of greenhouse gases, and we need to do it now. 
Prohibiting new offshore oil and gas leasing, while 
simultaneously enhancing offshore wind energy production will 
help the United States meet its energy needs as the country 
works to achieve its climate targets.
    In 2018, when the Trump administration announced a draft 
plan to open nearly the entire U.S. Outer Continental Shelf for 
potential oil and gas lease sales, the Aquarium opposed this 
course of action because of the risks posed to the ocean and 
coastal communities that depend on it for their living. We 
still oppose any new oil and gas activities offshore.
    Despite our reservations related to offshore oil and gas 
development, the Aquarium fully supports the development of 
offshore renewable wind energy, with the caveat that the 
industry use the best-available science to inform the siting, 
construction, and ongoing operation of the platforms. While we 
recognize that offshore wind will likely impact the marine 
environment, we support this because climate change represents 
a much greater threat to the ocean and its wildlife.
    Furthermore, by conducting scientific research, exercising 
the precautionary principle, and making decisions informed by 
the best scientific information available, we believe that the 
benefits of offshore wind in mitigating climate change far 
outweigh the costs.
    One of the potential costs that the Aquarium is deeply 
vested in is the fate of the endangered North Atlantic right 
whale. Ensuring the ongoing recovery of vulnerable marine 
mammal populations is an essential component of any ocean-based 
solution to climate change. This bill addresses the important 
issue of marine mammal mortality caused by lethal strikes with 
vessels transiting the animals' habitats. In 2020 alone, two 
young endangered North Atlantic right whales were killed by 
vessel strikes. The current estimate of remaining North 
Atlantic right whales dropped to just 366 animals in 2020.
    The bill's solution to reduce shipping speeds in U.S. 
waters addresses three complementary issues: first, slowing 
ships down directly reduces carbon emissions; second, slower 
vessel speeds are proven to reduce the lethality of strikes 
with marine mammals; third, slower vessel speeds reduce 
underwater noise through decreased propeller cavitation, which 
improves marine mammals' abilities to communicate and navigate. 
The Aquarium supports the bill's provision establishing a 
nationwide voluntary ship slowdown program, and encourages the 
Committee to consider mandatory speed restrictions in areas 
where right whales are present.
    Taken together, the provisions in this title of the bill 
will make a meaningful difference in securing the health of 
marine mammals, which will ensure that they continue providing 
climate benefits as carbon reservoirs and fertilizers of the 
ocean.
    In closing, the Aquarium is grateful to the Chairman and 
the Committee for their leadership on addressing ocean-based 
solutions to climate change. As an ocean scientist and an ocean 
advocate, I personally am grateful for the opportunity to shift 
the narrative of the ocean as a victim of the climate crisis to 
the ocean as the hero in this story. The solutions detailed in 
this bill should be implemented sooner, rather than later, to 
reduce the intensity of projected climate impacts, and set us 
on a sustainable path where humans find balance with the 
planet.
    Thank you again for inviting me to serve as a witness in 
support of this important and groundbreaking legislation, and I 
look forward to your questions.

    [The prepared statement of Dr. Kryc follows:]
  Prepared Statement of Dr. Kelly Kryc, Director of Ocean Policy, New 
                            England Aquarium
    Thank you to Chairman Grijalva, Ranking Member Bishop, and all the 
committee members for inviting me to testify on the topic of ocean 
climate action: solutions to the climate crisis. As a former resident 
of Arizona--a non-ocean state--I want to acknowledge Chairman 
Grijalva's leadership in introducing H.R. 8632: The Ocean-Based Climate 
Solutions Act and the recognition that no matter where we as U.S. 
citizens reside, a healthy and thriving ocean is critical to all of us. 
I also want to thank the lead sponsors of the other bills (H.R. 3548, 
H.R. 3919, H.R. 4093, H.R. 5390, H.R. 5589, H.R. 7387, H.R. 8253, and 
H.R. 8627) being considered during this hearing for their efforts to 
keep the ocean front of mind and sustain the necessary science and 
research that informs decision making critical for managing our ocean 
ecosystems.
    I am the Director of Ocean Policy at the New England Aquarium 
(Aquarium) based in Boston, Massachusetts. The New England Aquarium is 
a catalyst for global change through public engagement, innovative 
scientific research, commitment to marine animal conservation, 
leadership in education, and effective advocacy for vital and vibrant 
oceans.
    For decades, scientists at the Aquarium's Anderson Cabot Center for 
Ocean Life have been working to protect marine and freshwater 
ecosystems from human impacts and conserve threatened and endangered 
animals and habitats. The Aquarium's scientists conduct cutting-edge 
research to understand, quantify, and reduce the consequences of human 
activities on the health of marine species and ecosystems by developing 
science-based solutions and advocating for policies that balance human 
use of the ocean with the need for a healthy, thriving ocean now and in 
the future.
    I am an oceanographer and a geoscientist. While I was an active 
scientist, I conducted geochemical research on ocean sediments to 
understand Earth's climate history. My focus was on reconstructing the 
climate history of Antarctica for the past 10,000 years. The goal of 
this research was to understand the causes of past extreme climate 
events and to use that information to anticipate what we might expect 
in the present or future as Earth's climate changes in response to 
excess carbon dioxide and other greenhouse gasses being emitted into 
the atmosphere. My career in policy has focused on both the energy and 
environmental sides of climate and, although I currently serve in a 
role advocating for a healthy ocean, I also have experience working 
with the energy sector to achieve a balance between energy extraction 
and protecting the environment, conserving natural resources, and 
promoting safety.
    While the ocean has a central role in my life, I have to remind 
myself that not everyone is as attuned to the role that the ocean plays 
in all of our lives whether we live on the coast or not. For those of 
us that live on the ocean, it may be easier to see how the ocean is 
connected to our health and well-being. It provides food, tourism, 
transportation, and increasingly, clean energy from offshore wind 
resources. The ocean comprises 71% of the Earth and is responsible for 
keeping the planet habitable, whether by providing oxygen, absorbing 
excess carbon dioxide and heat from anthropogenic sources, or storing 
vast amounts of carbon in deep-sea sediments. The ocean's reach extends 
far beyond the coasts. It is responsible for controlling weather 
patterns that determine precipitation for farms and ranches in 
Oklahoma, prolonged droughts in Colorado, and flooding in Missouri. 
Persistent heat waves or the intensifying polar vortex are also 
attributed to changes in our ocean.
    Prior to the COVID-19 pandemic, 2020 held the promise of being the 
``Super Year'' for the ocean and climate. The year kicked off with the 
United Nations Framework on Climate Change (UNFCCC) 25th Conference of 
Parties (COP) in December 2019. I was at that meeting and appreciated 
that the Chairman and other members of the committee attended as well. 
Promoted as the ``Blue COP,'' it was the first time the ocean was 
integrated in the international climate negotiations with the result 
that an ocean section was agreed to in the COP decision text. The 
``Blue COP'' was to be followed by the United Nations Ocean Conference, 
the IUCN World Conservation Congress, the Our Ocean Conference, the 
15th meeting of the Conference of the Parties to the Convention on 
Biological Diversity, and concluding with the 26th UNFCCC COP. Each of 
these international conferences represented an opportunity to continue 
reinforcing the need to include the ocean as part of the solution to 
the climate crisis.
    By introducing H.R. 8632: The Ocean-Based Climate Solutions Act, 
the House of Representatives and the leadership of the House Natural 
Resources Committee has ensured that efforts to integrate ocean-based 
solutions to climate change remain at the forefront of decision making 
and policies that recognize the role of the ocean in keeping the planet 
healthy and habitable for all life on Earth.
    The 15 titles that comprise H.R. 8632 leverage the ocean's capacity 
to serve as a solution to climate change by advancing offshore 
renewable energy and limiting offshore conventional energy from fossil 
fuels, protecting the vast carbon reservoirs stored in the ocean (i.e. 
``blue carbon''), supporting climate-ready fisheries, expanding marine 
protected areas, and welcoming all stakeholders to the dialogue.
    I am testifying today in support of H.R. 8632 in my capacity as 
both the Director of Ocean Policy at the New England Aquarium and as a 
geoscientist with professional experience working directly on many of 
the solutions proposed in the bill. On the whole, the Ocean-Based 
Climate Solutions Act proposes a comprehensive yet pragmatic framework 
for taking immediate action to limit the impacts of the climate crisis 
by harnessing the power of the ocean.
    While the Aquarium supports the goals outlined in all 15 titles of 
the bill, my written testimony addresses those that Aquarium works on 
directly or has taken a position on in the past.
Blue Carbon and Coastal Resilience
    Blue carbon is defined as the carbon captured by the planet's ocean 
and coastal ecosystems.\1\ In particular, coastal ecosystems comprising 
mangroves, seagrasses, tidal and salt marshes, and estuaries are 
incredibly effective at storing carbon. Development projects that 
degrade or destroy these ecosystems not only release the stored carbon 
back into the atmosphere further exacerbating climate change, they also 
leave coastal communities vulnerable to the impacts of rising sea 
levels and intensifying storms.
---------------------------------------------------------------------------
    \1\ https://oceanservice.noaa.gov/facts/bluecarbon.html.
---------------------------------------------------------------------------
    Coastal wetlands represent less than 1% of the ocean, but they 
store more than 50% of the seabed's carbon reserves. Moreover, they 
sequester enough carbon to offset one billion barrels of oil annually. 
One hectare of mangrove forest is capable of offsetting the equivalent 
of 726 tons of emissions from burning coal, and one hectare of seagrass 
can store twice the amount of carbon than that of a terrestrial 
forest.\2\
---------------------------------------------------------------------------
    \2\ https://oceanwealth.org/why-blue-carbon-is-redd-hot/.
---------------------------------------------------------------------------
    By providing a mechanism to increase carbon storage in coastal 
ecosystems and supporting mapping, restoration, and protection of these 
critically important, but vulnerable, ecosystems, the Ocean-Based 
Climate Solutions Act capitalizes on the many co-benefits these systems 
offer in the fight against climate change.
    By investing in coastal restoration and resilience, the bill 
supports nature-based solutions and prioritizes front-line communities. 
As a cultural institution based on the Boston waterfront, the Aquarium 
has experienced first-hand the devastating impacts from sea-level rise 
and flooding from storm surge. Funding that supports efforts to enhance 
coastal resilience and protect and restore important coastal ecosystems 
from climate threats is needed for communities like Boston and 
organizations like the Aquarium to adapt to future climate scenarios. 
Protecting and restoring coastal ecosystems uses ``natural 
infrastructure'' to provide cost-effective solutions that increase 
resilience for coastal communities and also enhance habitats for birds 
and fish, improve water quality, and sequester carbon.
    As evidence of the value of restoring these ecosystems, a recent 
study developed an economic evaluation of the Boston Harbor cleanup 
that was mandated under the Clean Water Act and initiated in 1986. The 
results from the study show that the cost of the cleanup itself was 
$4.7 million and that the resulting ecosystem restoration has provided 
$30-100 billion in services to society.\3\ The numbers here speak for 
themselves regarding the co-benefits of restoring and protecting 
coastal habitats both to protect coastal communities and store carbon.
---------------------------------------------------------------------------
    \3\ https://www.frontiersin.org/articles/10.3389/fmars.2018.00478/
full.
---------------------------------------------------------------------------
Marine Protected Areas
    The Aquarium supports the provisions pertaining to Marine Protected 
Areas proposed in the Ocean-Based Climate Solutions Act. New England 
Aquarium together with Mystic Aquarium provided the scientific 
justification that was used to designate the Northeast Canyons and 
Seamounts Marine National Monument (Monument) in 2016.\4\ We 
subsequently opposed President Trump's proclamation weakening 
protections of the Monument in June 2020. The Aquarium conducts regular 
aerial surveys of the Monument to monitor and measure marine 
biodiversity visible at the surface and uses this information to inform 
decision making on the Monument and advocate for the need to maintain 
strong protections for this highly diverse, but extremely fragile, 
ecosystem.
---------------------------------------------------------------------------
    \4\ https://www.frontiersin.org/articles/10.3389/fmars.2020.00566/
full.
---------------------------------------------------------------------------
    The Aquarium also supports the global call to protect 30 percent of 
lands and seas by 2030 and sees this as the minimum amount of 
protection required to ensure that the ocean continues to produce 
oxygen, absorb heat, support healthy and diverse ecosystems, provide a 
plentiful source of healthy, low-carbon protein for billions, and 
enhance resilience to climate impacts.
    While the Aquarium recognizes that setting aside places in the 
ocean to protect them from the impacts of human activities may not have 
wide appeal amongst all ocean users, we view this as a critical and 
necessary component of any ocean-based solution to climate. The 
Aquarium also supports balanced uses of ocean and advocates for 
science-informed decision-making to ensure that human uses of the ocean 
are sustainable and minimize impacts to habitats and wildlife.
    The science on this topic routinely demonstrates the benefits of 
highly protected Marine Protected Areas. Recently published results 
show that protecting just 5% more of the ocean can increase future fish 
catches by at least 20%.\5\ These results reinforce the complementary 
benefits that marine protected areas have for fisheries and make a 
strong case for expanding marine protected area specifically designed 
to support productive and sustainable fisheries.
---------------------------------------------------------------------------
    \5\ https://www.pnas.org/content/117/45/28134.
---------------------------------------------------------------------------
    In New England, over the past decade, the Gulf of Maine has warmed 
faster than 99% of the global ocean.\6\ Warming temperatures combined 
with slow adaptation has contributed to the collapse of the Gulf of 
Maine cod fishery. In addition, the lobster fishery has been migrating 
north with estimates that the fishery in Maine may also collapse within 
5 years.\7\ The dire outlook for fisheries in New England and elsewhere 
supports arguments on behalf of strongly protecting marine environments 
from human activities to enhance resilience and support fisheries. 
Because of this, the Aquarium recognizes the need to balance both the 
human communities that depend on the ocean with those of a vibrant 
ecosystem too often impacted negatively by the industrialization of the 
ocean. We strongly support conducting the science necessary to ensure 
this balance is achieved and believe that the ocean--if healthy and 
well managed--can accommodate multiple uses that support both 
conservation measures and some extractive uses.
---------------------------------------------------------------------------
    \6\ https://science.sciencemag.org/content/350/6262/809.
    \7\ https://esajournals.onlinelibrary.wiley.com/doi/full/10.1002/
eap.2006.
---------------------------------------------------------------------------
Offshore Energy
    The provisions outlined in the Ocean-Based Climate Solutions Act 
are absolutely necessary if we are to prevent the worst of what has 
been predicted under a business-as-usual scenario. The evidence is 
overwhelmingly clear. We must severely curb emissions of greenhouse 
gasses, and we need to do it now. Prohibiting new oil and gas leasing 
in all areas of the Outer Continental Shelf while simultaneously 
enhancing offshore wind energy production to 25 gigawatts by 2030 will 
help the United States meet its energy needs while also enabling the 
country to achieve its climate targets. Both of these goals are 
consistent with the Aquarium's overarching mission to protect the blue 
planet.
    In 2018 when the Trump administration announced a draft plan to 
open nearly the entire U.S. Outer Continental Shelf for potential oil 
and gas lease sales, the Aquarium vehemently opposed this course of 
action because of the risks posed to the ocean and coastal communities 
that depend on it for their living. The Deepwater Horizon oil spill in 
2010 demonstrated the devastating impact that this industry can have on 
the environment. The commercial fishing industry in the Gulf of Mexico 
is estimated to have lost $247 million as a result of post-spill 
fisheries closures with an estimated total loss of upwards of $8.7 
billion and 22,000 jobs by 2020. Lost tourism dollars were estimated to 
have cost Gulf of Mexico states up to $22.7 billion in just the 2 years 
after the spill.\8\ New England fisheries are the most valuable in the 
country with scallop and lobster landings worth a combined $1.18 
billion in 2018. In New England and elsewhere along the Atlantic coast, 
these costs simply don't outweigh any benefits for allowing offshore 
oil and gas to proceed in the Atlantic or elsewhere.
---------------------------------------------------------------------------
    \8\ https://www.nrdc.org/sites/default/files/gulfspill-impacts-
summary-IP.pdf.
---------------------------------------------------------------------------
    As of November 2, 2020, there were 2,286 active leases in the Gulf 
of Mexico representing 12,148,609 acres, most of which are in the 
Western and Central Planning Areas and cover nearly 13% of the total 
available acreage.\9\ In 2012, the Department of the Interior released 
a report showing that nearly two-thirds of the acreage leased by the 
industry was neither producing or under active exploration or 
development.\10\ While these numbers have invariably changed since 
2011, the fact remains that companies still have the right to develop 
and produce oil and gas offshore on existing leases. In other words, we 
do not need to issue more leases when so many go unused, particularly 
at a time when we must be planning for a clean energy economy instead 
of planning for more fossil fuel extraction.
---------------------------------------------------------------------------
    \9\ https://www.boem.gov/sites/default/files/documents/oil-gas-
energy/leasing/regional-leasing/gulf-mexico-region/
Lease%20Statistics%20November%202020.pdf.
    \10\ https://www.doi.gov/news/pressreleases/DOI-Releases-Update-on-
Unused-Oil-and-Gas-Leases.
---------------------------------------------------------------------------
    Given the Aquarium's commitment to conserving and protecting North 
Atlantic right whales, we also opposed NOAA's issuance of Incidental 
Harassment Authorizations to geophysical companies interested in 
conducting seismic surveys seeking potential offshore oil and gas 
reservoirs in the Atlantic. The sound produced by these seismic arrays 
would have been detrimental to North Atlantic right whales and other 
marine life in the Atlantic. Further, we view these surveys as 
unnecessary given our view that oil and gas development should not 
proceed.
    Despite our reservations to conventional oil and gas development 
and production in the Atlantic, the Aquarium fully supports the 
development of offshore renewable wind energy with the caveat that the 
industry use the best available science to inform the siting, 
construction, and ongoing operation of the platforms. The Aquarium is 
actively involved in the research to support these decisions and 
mitigate any impacts to North Atlantic right whales and other 
vulnerable, threatened, and endangered species. We recognize that 
offshore wind will likely impact the marine environment, but by 
engaging scientists early and exercising the precautionary principle, 
the Aquarium strongly feels that the benefits far outweigh the costs by 
mitigating climate change through this critical energy transition from 
conventional fossil fuels to clean, renewable offshore wind energy.
    This isn't the first time Massachusetts--or New England for that 
matter--has gone through an energy transition. From the 1700s to the 
late 1800s, whales were used for energy. Oil from whale blubber lit 
entire cities until the first modern oil well was established near 
Titusville, Pennsylvania. Communities dependent on whaling went out of 
business. Now, Massachusetts and New England residents stand to gain 
immensely in the form of jobs, a clean environment, low-cost energy, 
and reduced risks from climate change as we transition yet again to 
benefit from offshore renewable energy. As lessons are learned off our 
coast, they can be applied elsewhere to help facilitate a wider 
transition and provide economic benefits across the country.
Climate Ready Fisheries
    New England is on the front line of a rapidly changing ocean that 
is altering our fisheries and forcing us to adapt. Because the Aquarium 
believes that a healthy ocean is part of the solution to climate 
change, we also believe that sustainable fisheries are a key component 
of not only a resilient ocean, but also a low-carbon source of protein 
for billions of people. As with every other issue pertaining to ocean 
use, the Aquarium supports strong, science-based decision making and 
cooperative research that involves the fishing community. Innovative 
tools and approaches in addition to a robust scientific process are 
needed to support and implement adaptive measures that help fisheries 
managers adapt to shifting stocks, decreasing biomass, changes in 
distribution and abundance, and changes in recruitment, which is 
supported by the provisions of the bill.
Marine Mammal Conservation
    Beyond being an iconic cultural institution and tourist 
destination, the New England Aquarium is most well-known for its 40-
year old research program on the North Atlantic right whale. In 
addition, our scientists study other cetaceans, pinnipeds, and sirenias 
(i.e. manatees). As experts in marine mammal research and conservation, 
the Aquarium was pleased to see marine mammals included as an ocean-
based climate solution.
    Marine mammals, and specifically large whales, are an essential 
element of a low-carbon future. Whales not only store a vast amount of 
carbon in their bodies by virtue of their size (to the tune of 1 Gt per 
large whale), but also distribute nutrients throughout the water column 
that support phytoplankton growth, which in turn removes carbon dioxide 
from the atmosphere and produces oxygen. Ensuring the ongoing recovery 
of marine mammal populations and the survival of threatened and 
endangered species is an essential component of any ocean-based 
solution to climate change.
    By directing the National Marine Fisheries Service to establish and 
implement climate impact management plans for vulnerable populations of 
marine mammals with the goal of effectively conserving species in the 
face of climate change, the bill ensures we are planning for the 
impacts that a changing climate will have on these species.
    This bill also addresses the important issue of marine mammal 
mortality resulting from interactions with shipping vessels. The United 
States is heavily reliant on the commercial shipping industry; 
according to NOAA, approximately 75% of all U.S. trade involves some 
form of marine transportation.\11\ Each year, dozens of large whales in 
the United States are killed when they are struck by vessels transiting 
their habitats.\12\ In 2020 alone, two young (one was just days old) 
endangered North Atlantic right whales were killed by vessel strikes. 
The current estimate of remaining North Atlantic right whales dropped 
to just 366 animals in 2020.
---------------------------------------------------------------------------
    \11\ NOAA Office for Coastal Management. Ports. Accessed November 
2020 at https://coast.noaa.gov/states/fast-facts/ports.html.
    \12\ Rockwood, R.C., Calambokidis, J., and Jahncke, J. (2018). High 
mortality of blue, humpback and fin whales from modeling of vessel 
collisions on the U.S. West Coast suggests population impacts and 
insufficient protection. PLOS ONE 13(7). https://doi.org/10.1371/
journal.pone.0201080.
---------------------------------------------------------------------------
    In addition, widespread shipping activity translates to a sizable 
carbon footprint. In 2019, domestic and international shipping 
accounted for 4% of the U.S. transportation sector's energy-related 
carbon emissions.\13\ Shipping contributes to underwater noise, which 
interferes with marine mammal communication, foraging, and navigation. 
The ambient noise in the oceans is generally doubling each decade, led 
by a rise in commercial shipping.\14\
---------------------------------------------------------------------------
    \13\ House Select Committee on the Climate Crisis. ``Solving the 
Climate Crisis: The Congressional Action Plan for a Clean Energy 
Economy and a Healthy, Resilient, and Just America.'' Majority Staff 
Report, 116th Congress, June 2020. Accessed at https://
climatecrisis.house.gov/sites/climatecrisis.house.gov/files/
Climate%20Crisis%20Action%20 Plan.pdf.
    \14\ Andrew, R.K., Howe, B.M., and Mercer, J.A. (2010). Long-time 
trends in ship traffic noise for four sites off the North American West 
Coast. J. Acoust. Soc. Am. 129(2): 642-651.
---------------------------------------------------------------------------
    The bill's solution to reduce shipping speeds in U.S. waters 
addresses all three of these issues. Slowing ships down directly 
reduces carbon emissions and increases fuel efficiency,\15\ which may 
provide an economic incentive to comply. As an added benefit, slower 
vessel speeds are proven to reduce the lethality of strikes with marine 
mammals as well as reduce underwater noise through decreased propeller 
cavitation.\16\ The Aquarium supports the bill's provision establishing 
a nation-wide voluntary ship slowdown program administered by the 
National Oceanic and Atmospheric Administration as a necessary step to 
both reduce greenhouse gas emissions from shipping and reduce lethal 
interactions between vessels and marine mammals. The Aquarium hopes 
that mandatory speed restrictions will be considered in the future in 
areas that serve as critical habitat for North Atlantic right whales 
during times when the animals are present.
---------------------------------------------------------------------------
    \15\ https://link.springer.com/article/10.1057/
mel.2013.2#::text=Slower%20speeds%20generally% 
20improve%20vessel,volatile%20and%20expensive%20cost%20item.&text=As%20a
%20second%20 slow%20steaming,GHG%20emissions%2C%20namely%20CO2.
    \16\ https://www.researchgate.net/publication/
292345445_Propeller_cavitation_noise_and_ background_noise_in_the_sea.
---------------------------------------------------------------------------
    Taken together, the provisions in the Ocean-Based Climate Solutions 
Act will make a meaningful difference in securing the health of marine 
mammals, which will ensure that they continue providing climate 
benefits as carbon reservoirs and fertilizers of the ocean.
    In closing, the Aquarium is grateful to the Chairman and the 
committee for their leadership on addressing ocean-based solutions to 
climate change. As an ocean scientist and an ocean advocate, I am 
personally grateful for the opportunity to shift the narrative of the 
ocean as a victim of the climate crisis to the ocean as the hero in 
providing solutions that mitigate and help humans as well as marine 
wildlife and ecosystems weather the gathering storm. The solutions 
detailed in the Ocean-Based Climate Solutions Act, if implemented 
sooner rather than later, are the key to reducing the intensity of 
projected impacts and setting us on a sustainable path where humans 
find balance with the planet.
    The Aquarium looks forward to continuing to work with committee 
members to achieve the ambitious goals of the Ocean-Based Climate 
Solutions Act.
    Thank you again for inviting me to serve as a witness in support of 
this important and ground-breaking legislation.

                                 ______
                                 

Questions Submitted for the Record to Dr. Kelly Kryc, Director of Ocean 
                      Policy, New England Aquarium
               Questions Submitted by Representative Cox
    Question 1. The COVID-19 pandemic is far from over, as we have seen 
the number of cases skyrocket over the past few months. Not only are we 
dealing with a public health crisis, but COVID-19 has also created an 
economic fallout that we are still grappling with. With unemployment 
around 7% and an estimated 11 million unemployed, this crisis is not 
over. According to NOAA, in 2018, the ocean economy was responsible for 
$373 billion to our GDP, while supporting 2.3 million jobs. How can we 
leverage ocean and coastal restoration and ocean-climate solutions to 
help individuals get back to work, while also helping us address the 
climate crisis?

    Answer. The New England Aquarium and other cultural institutions 
across the United States have experienced the serious economic fallout 
of the COVID-19 pandemic first hand. According to the American Alliance 
of Museums, 1/3 of all museums in the United States may close 
permanently as funding sources and financial reserves are exhausted as 
a result of the financial crises brought on by the pandemic.\1\ New 
England Aquarium is responsible for the health and welfare of 20,000 
animals in our collection. To continue caring for our animals, the New 
England Aquarium has reduced as many costs as feasible, including 
reducing our staff by 42% since March 2020. As contributors to and 
beneficiaries of the ocean economy, we recognize the critical role that 
a healthy ocean plays in our own ability to deliver our mission to 
serve as is a catalyst for global change through public engagement, 
innovative scientific research, commitment to marine animal 
conservation, leadership in education, and effective advocacy for vital 
and vibrant oceans. Funding provided through the American Recovery and 
Reinvestment Act of 2009 (ARRA) provides an example of how impactful 
ocean and coastal restoration projects can be in helping individuals 
get back to work and supporting economic recovery and growth. ARRA 
provided $167 million to NOAA that supported 125 habitat restoration 
projects. That funding and those projects created 2,280 jobs, restored 
25,000 acres of habitat, and has generated $260.5 million in economic 
output annually. Not only that, these projects opened river habitat, 
removed marine debris, reconnected tidal wetlands, and restored coral 
reefs. The provisions outlined in Section 1005 of the Ocean-Based 
Solutions to Climate Act build on the success of the ARRA coastal 
restoration program by authorizing $3,000,000,000 to restore marine, 
estuarine, costal, or Great Lake habitat that provides adaptation to 
climate change. The New England Aquarium supports this approach as both 
pragmatic and effective with the added benefit of producing co-benefits 
that support the economy and address climate change.
---------------------------------------------------------------------------
    \1\ https://www.aam-us.org/2020/07/22/united-states-may-lose-one-
third-of-all-museums-new-survey-shows/.

            Questions Submitted by Representative Velazquez
    Question 1. Dr. Kryc, as the Chairwoman of the House Small 
Businesses Committee and a Representative of coastal communities, I'm 
deeply concerned about the impacts of climate change on small 
businesses located along our waterfronts. Can you explain the unique 
challenges faced by small businesses located in our coastal 
communities? How can small businesses utilize the climate change 
relocation initiative program in H.R. 8632 to better prepare for the 
effects of global warming?

    Answer. As a small business located on the Boston waterfront, the 
New England Aquarium shares the Chairwoman's concerns. During a storm 
surge event in early 2018, flooding in the plaza in front of the 
Aquarium and at the Aquarium ``T'' stop forced the Aquarium to close to 
the public at a substantial loss in revenue from ticket sales. A little 
more than 50 years ago, the Aquarium was one of the first non-
industrial businesses to establish a presence on the waterfront, which 
at the time was not as desirable a location as it is now due to water 
quality issues in the Boston Harbor. The Boston Harbor cleanup that was 
initiated in 1986 under the Clean Water Act helped to transform the 
Boston waterfront into the tourist destination and business hub it is 
now. Now, the Boston waterfront is facing a new threat from climate 
change and associated sea level rise. A 2013 report by the Organization 
for Economic Cooperation and Development ranked Boston as the world's 
eighth most vulnerable to flooding among 136 coastal cities.\2\ This 
has profound impacts on the residents of Boston and its businesses. As 
the COVID-19 pandemic has painfully demonstrated, small businesses in 
coastal communities (and elsewhere) simply don't have the resources to 
weather these storms in the absence of support from the U.S. 
Government, state and local governments, and the communities 
themselves. While the New England Aquarium has a long-term plan to work 
with other Boston waterfront businesses and communities to develop a 
climate resilient waterfront, and the city of Boston is implementing a 
strategy to defend it from the impacts of climate change, we appreciate 
the actions detailed in Section 1006 of the Ocean-Based Solutions to 
Climate Act to proactively launch an initiative to coordinate Federal 
agency activities to identify and assist communities that have 
expressed interest in relocating due to health, safety, and 
environmental impacts from climate change.
---------------------------------------------------------------------------
    \2\ https://www.worldbank.org/en/news/feature/2013/08/19/coastal-
cities-at-highest-risk-floods.

    Question 2. Dr. Kryc, due to these unprecedented times, we have the 
opportunity for economic restructuring that incentivizes clean energy 
jobs. In your testimony, you discuss how offshore wind energy 
production promotes jobs for coastal communities and provides economic 
benefits across the country. As we work toward re-opening our economy, 
what role can clean energy jobs play in improving public health, labor 
---------------------------------------------------------------------------
productivity, and economic output?

    Answer. Transitioning to a clean energy economy--whether powered by 
wind, solar, geothermal, or the ocean itself--is the critical first 
step in mitigating the impacts of climate change, which represents a 
threat to the health, well-being, and livelihoods of all Americans. The 
United States has not only gone through several energy transitions 
during its history, but led them by embracing innovation and change. 
Clean energy represents an opportunity for American citizens to benefit 
greatly from this transition. New England is leading the way on 
developing offshore wind resources off its coastline and demonstrating 
that these projects create high-paying jobs for local residents, 
provide the resources to revitalize aging coastal infrastructure in 
port cities, and contribute millions of dollars in economic impacts to 
the region annually. The 2018 Massachusetts Offshore Wind Workforce 
Assessment \3\ estimates between 6,800 and 10,000 construction jobs 
will be created for the four planned projects off of Massachusetts. 
Ongoing operations and maintenance will contribute an additional 1,000 
to 1,800 jobs annually. In addition, the Assessment estimates that the 
direct impact on the state's economic output resulting from these 
projects is estimated at $678.8 million to $805.1 million per year, 
with total economic gains of between $1.4 billion to $2.1 billion 
including direct, indirect, and induced impacts. Similar assessments 
for other regions of the United States demonstrate similar benefits to 
their local workforces and economies.\4\<SUP>,</SUP>\5\ The U.S. 
Offshore Wind Power Economic Impact Assessment \6\ published in 2020 by 
the American Wind Energy Association suggests that 20,000-30,000 
megawatts of offshore wind capacity will be operational by 2030, which 
would support up to 83,000 jobs and produce as much as $25 billion 
annually in economic output by 2030. In addition, the Assessment 
reports that wind developers have already announced investments of $307 
million in port-related infrastructure, $650 million in transmission 
infrastructure, and $342 million in U.S. manufacturing facilities and 
supply chain development. All of these benefits translate to benefits 
to American households that will have access to clean, renewable energy 
at price parity with electricity generated from oil, gas, or coal with 
the added public health benefit of access to clean air and water. The 
Ocean-Based Solutions to Climate Act recognizes the need to transition 
to a clean energy economy and provides the framework for how the United 
States works to accelerate the responsible development of this resource 
in U.S. waters. The New England Aquarium supports offshore wind and is 
working with the developers and Massachusetts to conduct research that 
will be used to inform decision-making that aims to minimize impacts to 
marine ecosystems and wildlife.

    \3\ https://files.masscec.com/
2018%20MassCEC%20Workforce%20Study.pdf.

    \4\ https://www.nrel.gov/docs/fy13osti/57565.pdf.

    \5\ https://www.nrel.gov/docs/fy14osti/60445.pdf.

    \6\ https://supportoffshorewind.org/wp-content/uploads/sites/6/
2020/03/AWEA_Offshore-Wind-Economic-ImpactsV3.pdf.
---------------------------------------------------------------------------
              Questions Submitted by Representative Bishop
    Question 1. Your testimony relies heavily on the premise that MPAs 
can help restore overfished fisheries. You push the approach hard for 
the U.S., but we have healthy, sustainably management fisheries in the 
U.S. Isn't your position inconsistent with the reality of how well-
managed fisheries in the U.S. are?

    Answer. The New England Aquarium strongly supports the Magnuson 
Stevens Act (MSA) and agrees with the ranking member that U.S. 
fisheries are some of the most well managed in the world. That said, 
implementation of MSA across the regions has yielded inconsistent 
results, and there is still room for improvement. For example, 
fisheries in New England have failed to attain the same success as 
fisheries in other regions under the MSA. The National Marine Fisheries 
Service's 2018 Status of the Stock Report \7\ reported that 91% of 
managed U.S. fish stocks are not subject to overfishing and 82% are not 
overfished. Of 43 stocks on the overfished list, 14 are in New 
England--the most of any region. Of 28 stocks on the overfishing list, 
6 are in New England. At its core, MSA is a fisheries law and, while 
MSA does allow the Council to protect marine habitats ``as 
practicable'' for the benefit of the fisheries, the law prioritizes 
maximizing sustainable yields of fish stocks. Furthermore, MSA focuses 
on managing 479 fish stock or stock complexes, which represent less 
than 1% of the documented ocean species in U.S. waters. While fisheries 
management tools and laws play an important role in ensuring a healthy 
ocean, they were not meant to protect the full biodiversity of the 
ocean. For that, marine protected areas (MPAs) are necessary. Fully and 
highly protected MPAs support ecosystem health and resilience by 
protecting genetic diversity, and species abundance, size and 
fecundity.\8\ Increased biodiversity has been shown to increase 
resilience in ecosystems to the impacts of climate change including 
lower pH, increased temperatures, and/or disease.\9\ The New England 
Aquarium considers marine protected areas and well-managed fisheries to 
be complimentary to each other as tools to keeping the ocean (and its 
fisheries) healthy today and in the future. That's why we support the 
provisions in Title II of the Ocean-Based Climate Solutions Act. The 
ocean is a complex environment and requires a diverse and flexible 
arsenal of tools to balance the competing uses of its resources. For 
the ocean to continue providing those resources, it must be able to 
restore itself. For that, marine protected areas are needed.
---------------------------------------------------------------------------
    \7\ https://www.fisheries.noaa.gov/national/2018-report-congress-
status-us-fisheries.
    \8\ https://tos.org/oceanography/article/planning-for-change-
assessing-the-potential-role-of-marine-protected-areas.
    \9\ https://onlinelibrary.wiley.com/doi/abs/10.1111/ele.12598.

---------------------------------------------------------------------------
                                 ______
                                 

    The Chairman. Thank you very much, Dr. Kryc, and I want to 
thank the panel for their testimonies.
    And reminding Members that Committee Rule 3(d) imposes a 5-
minute limit on questions, I will not recognize myself at this 
point, but I afford the Members that are participating in the 
hearing the opportunity to make their statements, ask their 
questions. Let me begin with Representative Huffman.
    Sir, you are recognized.
    Mr. Huffman. Thank you very much, Mr. Chairman, and I want 
to thank you for your leadership in pulling this bill together, 
bringing it forward to this hearing. I also want to thank the 
Committee staff for their work on what is a very big, very 
ambitious, comprehensive bill that incorporates a lot of good 
science-based ideas on how to tackle climate change through our 
oceans.
    Many of these ideas were raised by the Select Committee on 
the Climate Crisis, where I have served in this Congress to 
raise awareness of the dangers of continued offshore drilling, 
as well as possible solutions such as blue carbon, which I am 
pleased to see reflected in this bill.
    I am also pleased that the bill contains a prohibition on 
new oil and gas leasing in all areas of the Outer Continental 
Shelf, which would include two areas that I have been fighting 
to protect: the West Coast and the Arctic.
    We are all aware of the impacts of the climate crisis, and 
the need for bold, progressive legislation in my district and 
also across the country. Coastal communities are all too 
familiar with the consequences of inaction, whether it is sea 
level rise, ocean heat waves, or loss of important coastal 
habitat. We are facing a dire situation.
    This legislation is a starting point. It is a set of 
proposals that includes tangible solutions to not only protect 
our ocean resources and biodiversity, but to harness the power 
of our oceans to tackle the most important issue of our time. 
It is probably the biggest, most ambitious ocean and climate 
bill this Committee has ever considered.
    And it is not perfect. I appreciate that staff has already 
made some technical changes to improve concerns that I have 
raised, and addressed feedback that I have given. I am 
confident that this bill will continue to improve as it moves 
forward through the legislative process. And I also believe 
many of the concerns that have been raised, particularly from 
the fishing community, can and will be resolved.
    But we have to find a way to tackle this challenge, and it 
is so important that today we are getting started.
    My question is for Dr. Kryc about offshore wind energy. 
Obviously, it is very important that we pursue renewable energy 
sources, and we see the opportunities to stimulate the economy 
and create jobs, as well. What kind of economic opportunity do 
you think offshore wind provides?
    And what other forms of renewable energy in our oceans do 
you think we should be exploring?
    And then I also want to invite you to speak to the way in 
which you think this legislation supports research and 
development into those types of energy sources.
    Dr. Kryc. Thank you, Representative Huffman, for that 
question. I am delighted to answer that. We are very excited 
about the offshore wind industry that is starting to develop 
off of our coast in New England and further down the Atlantic 
Coast.
    Current estimates have the offshore wind industry by 2030 
as having generated 83,000 new jobs, and $25 billion in annual 
economic output. That is a really important resource for our 
region. And, also, as other regions look to develop this 
resource in their waters, it shows the potential of what this 
has to offer.
    You also mentioned other energy sources, and marine 
hydrokinetic energy is one of my favorite types of energy. That 
is energy from the tides, from currents, and in waves, as well 
as OTEC, the energy that is generated from thermal gradients.
    Anyway, those are boutique energy sources that offer an 
awful lot of potential for folks on the coasts, and they offer 
the potential to overcome some of the intermittency issues that 
might happen with other renewable energy sources. Tidal energy 
can be predicted 100 years out, which is, really, a kind of 
remarkable thing.
    The resources that are needed to develop those pieces of 
energy are included in this bill. And I am looking at Dr. 
Lubchenco here--Oregon State is one of the marine energy 
centers, as well as in Florida, and also in Hawaii. So, 
increasing the amount of resources available to continue 
developing those resources will help us add yet one more tool 
to the arsenal of clean energy options for energy generated 
from the ocean, going forward.
    Mr. Huffman. OK. Dr. Kryc, I want to try to sneak in one 
more question. We know the ocean is a busy place, and we have 
to carefully site these renewable energy projects, not just to 
avoid environmental impacts, but to avoid unnecessary impacts 
on the fishing industry and other users. How do you think this 
bill supports collaboration and thoughtful planning to avoid 
those conflicts?
    Dr. Kryc. Thank you for that question, as well. I think 
that New England is representing an opportunity for us to test 
all of those things, and engage stakeholders at the table to 
overcome some of the challenges associated with the multiple 
uses, and finding that balance.
    So, I just want to flag for people a resource called the 
Responsible Offshore Science Alliance that brings scientists, 
fishermen, and the industry together in the Atlantic Region to 
have those discussions, and figure out how to balance the need 
to develop the energy source, to continue the fisheries, and to 
make sure that all of those decisions are science-based.
    Mr. Huffman. Thank you. I yield back.
    The Chairman. The gentleman yields. Thank you, Mr. Huffman. 
Let me now recognize the Ranking Member, Mr. Bishop.
    Mr. Bishop. Mr. Chairman, I think Mr. Stauber has an 
appointment. Can I ask if you would go to him first?
    The Chairman. Not a problem.
    Mr. Stauber, you are recognized, sir.
    Mr. Stauber. Thank you, Member Bishop. I appreciate this 
opportunity.
    Thank you all for testifying today.
    Chairman Grijalva, the so-called Ocean-Based Climate 
Solutions Act fits neatly within the Green New Deal and the 
goals of the House Democrats. Like other previous bills, this 
legislation sacrifices affordable energy development done by 
union men and women under the highest environmental standards 
in the world. Instead, these types of policies will only 
increase demand for dirtier energy sources in Russia and other 
countries that we compete with that lack environmental and 
labor standards.
    The average American household spends a little more than 
$3,500 a year on energy alone. Last year, it reached 60 below 
zero with the wind chill in my district for several days in a 
row. I am sure that is a little colder than the Chairman's 
district. And as you can imagine, energy costs are something 
that my neighbors are closely familiar with. I cannot support 
legislation that will make it harder for families in my 
district to heat their homes, put food on their table, and 
further financially burden the middle class because some 
millionaire on a beach somewhere doesn't want his view of the 
ocean obscured due to an oil or gas rig.
    Energy independence is our Nation, and energy independence 
is critical for our Nation to continue on.
    Dr. Hilborn, the goal of this bill is to supposedly 
mitigate climate change. Could you tell me how increasing the 
cost of energy for American families, importing energy from 
abroad, and killing American jobs mitigates climate change?
    Dr. Hilborn. I am afraid I haven't prepared anything on 
that, and it is really outside my area of expertise.
    Mr. Stauber. OK.
    Dr. Hilborn. I am a fisheries guy.
    Mr. Stauber. Dr. Hilborn, what policies should this 
Committee be pursuing to actually benefit marine conservation, 
instead of focusing on hurting American families?
    Dr. Hilborn. Well, my expertise is in the fisheries realm, 
and in fisheries we do have the issue of the more precautionary 
we are in the United States, the more we import fish from 
places that have lower standards.
    But we need to become more dynamic and responsive to 
changes in fish distribution and changes in fish productivity, 
and we have the system for doing that. The councils can do 
that. They are just starting to do it on a major basis. But we 
need to change the assumption that nature is stable over time, 
and realize that things are changing, and we need to be able to 
respond to those changes.
    Mr. Stauber. Thank you, Dr. Hilborn.
    Mr. Chair, I yield back. Thank you, Ranking Member Bishop.
    The Chairman. Thank you, sir. Let me now recognize 
Representative Dingell if she has any questions, or--is she 
still with us?
    [No response.]
    The Chairman. If not, let me now recognize Mr. Levin for 
any questions that he might have.
    Mr. Levin. Thank you, Mr. Chairman. I appreciate your 
leadership on this legislation, and for holding today's 
hearing. Obviously, I care a great deal about this, 
representing a district with 52 miles of coastline. And I 
appreciate our witnesses today.
    Dr. Kryc, the bill bans all new offshore leases for oil, 
gas, or methane hydrate exploration and development. There are 
some that will tell you that this means we will be indebted to 
Russia or others for energy, which, frankly, is a tired 
argument with very little basis in fact.
    Could you explain why we need to ban new offshore drilling 
leases as soon as possible, and move toward onshore renewable 
energy instead?
    Dr. Kryc. Thank you, Congressman Levin, for that question. 
I would be happy to answer. Anticipating this question, I 
looked it up, and at the moment we do import 11 million tons, 
or about 6 percent, of fuel from Russia.
    We also have achieved a great deal of energy independence 
in the recent past.
    Offshore production on the Outer Continental Shelf 
represents 16-18 percent of the total production in the United 
States of oil, and only 4 percent of gas. So, if you were to 
take those two things off, that does not exclude any existing 
leases that still exist and remain to be produced. The average 
time for a well production, once a platform is in place, the 
life span could be as many as 25+ years. So, there is plenty of 
runway.
    But the real key here in our perspective, from the 
Aquarium's perspective, and from the ocean conservation 
perspective, it is the need to transition as quickly as 
possible to clean, greenhouse-gas-free emissions. And that 
comes in the form offshore wind and marine hydrokinetic energy, 
as that gets developed, as well as land-based sources of 
renewable energy, going forward.
    Mr. Levin. Thank you for that. And in your testimony you 
say that the New England Aquarium supports offshore wind 
development, and I quote, ``with the caveat that the industry 
use the best-available science to inform the siting, 
construction, and ongoing operation of the platforms.''
    So, Dr. Kryc, how can science-based approaches to offshore 
wind siting reduce harm to wildlife and the environment?
    Dr. Kryc. Thank you. Again, for the Atlantic, and from the 
Aquarium's perspective, one of the primary species that we are 
concerned about is the North Atlantic right whale. We are 
involved in early studies to understand how those animals are 
using the habitats, where the leases and the siting of the 
platforms will be, so that the siting can accommodate those 
animals as they migrate through and transit through those lease 
sites.
    We are looking at fisheries. We are looking at the impacts 
on sharks, turtles, and other vulnerable and threatened species 
to develop mitigation plans that enable the balance to exist 
between what is needed for the energy transition of the future, 
as well as providing for the ecosystem and the wildlife needs 
of the ocean habitats themselves, to ensure that the ocean 
remains healthy for the future.
    Mr. Levin. Thank you for that. And one more question for 
you, Doctor.
    A number of places, including my home state of California, 
are laying out ambitious plans to transition to 100 percent of 
new cars being zero emissions, and also new requirements for 
trucks, which I believe will have benefits not only for climate 
action, but also obvious benefits for public health, along with 
air quality, environmental justice, and the list goes on.
    I wanted to ask you about ships and, specifically, when can 
we expect ships to transition to cleaner fuels?
    And are there additional policies we could add to this bill 
to help catalyze the zero-emission vessel transition in 
international shipping?
    Dr. Kryc. Thank you. That is a really good point. I think 
that in my written testimony I make the point that, right now, 
shipping in the United States represents 4 percent of 
emissions, and that is only expected to grow as international 
trade grows, and our dependence on marine transportation grows.
    The bill already sets the path and the policy forward for 
reducing those emissions through fuel efficiency, through the 
slowdowns of the ship speeds, and then those have the co-
benefits that I mentioned for marine mammals.
    So, leaning on programs in your home state that have been 
so successful, like the Blue Skies, Blue Whales initiative, I 
think is a really great start for reducing shipping emissions 
in U.S. waters.
    Mr. Levin. I am out of time, but I want to thank you for 
all your great work, Doctor, and I thank my colleagues for 
their great work on this bill.
    And I will yield back.
    The Chairman. Thank you, Mr. Levin.
    Mr. Bishop, you are recognized.
    Mr. Bishop. Thank you. I appreciate it, sir.
    Dr. Hilborn, let me ask you a question. Ms. Lubchenco's 
testimony made a rather alarmist claim that, if I quote this 
right, even the best fishery management cannot substitute for 
effective, high-protected MPAs, in terms of protecting 
biodiversity, et cetera, et cetera.
    Your testimony, Mr. Hilborn, actually takes a different 
approach. Can you explain to the Committee how our current 
system is, in your mind, a better approach?
    Dr. Hilborn. Yes, thank you. Thanks for this question.
    The current system protects biodiversity over 100 percent 
of the Economic Zone of the United States through the councils. 
That is, I serve on the SSC of the Western Pacific Council, and 
it is our job to meet U.S. legislation, like the Endangered 
Species Act, the Marine Mammal Protection Act, over the entire 
Economic Zone. Proposed 30x30 closures would simply protect 30 
percent of the Zone, whereas using the existing tools of 
bycatch avoidance, protecting vulnerable ecosystems, protecting 
target species, we can protect 100 percent of the Economic 
Zone, and the biodiversity in 100 percent of the Economic Zone. 
And certainly the track record with respect to target species 
is outstanding.
    Mr. Bishop. Thank you. Let me give you another question, if 
I could, sir.
    Both Ms. Lubchenco and Ms. Kryc quote a recent study that 
says, if you protect an additional 5 percent of the ocean, you 
can increase future catch by at least 20 percent. Considering 
we only pass laws that have jurisdiction over the United 
States, are these claims really relevant?
    Dr. Hilborn. Well, certainly there are places in the world 
where marine protected areas would increase catch. And the 
biggest potential is South and Southeast Asia, that has very 
ineffective fisheries management. Overfishing is rampant. But 
there is really no potential to increase the yield of American 
fisheries in the U.S. Economic Zone by marine protected areas.
    Mr. Bishop. So, as I think Ms. Kryc said in her written 
testimony, if that wind power disturbs fishery efforts, but it 
is worth the cost--and this may be out of your area of 
expertise, so I will just ask you this--what do you say would 
be the effect on fishing in the United States, the industry as 
a whole, if certain areas are put off limits and then certain 
areas which do have these types of good kinds of energy 
developments are also going to be included in the areas that 
are on limits, and still have an impact that is negative, even 
if it is worth the cost?
    And, once again, maybe I am asking you something that is 
out of your area of expertise, and it is an unfair question.
    Dr. Hilborn. Well, I don't think there is a general answer 
to that. It would all depend on where these things were sited, 
and how much catch was coming from those places, how mobile the 
species are, whether they would effectively be caught 
elsewhere. So, I just don't think that there is an answer to 
that. It would have to be done on a case-by-case basis.
    Mr. Bishop. All right, thank you. Do I have time for one 
question? I have 1 minute, I am told.
    Ms. Lubchenco, you made suggestions that state management 
of their jurisdictions are not as efficient and effective as 
the Federal Government would be. So, there is an implication 
that we should federalize management areas.
    I just want to know if those comments are aimed at simply 
the offshore fishing, or are you talking about fishery 
management that is on shore? Because there is very clear 
evidence, especially on onshore fish managements that don't 
come under NOAA, that there is an incompetence on the Federal 
Government that far exceeds what the states are able to do in 
their fish hatcheries. So, is that statement only dealing with 
ocean issues and ocean fishing, or are you talking about all 
fishing?
    Dr. Lubchenco. Ranking Member Bishop, thanks for the 
opportunity to clarify this. I am not in any way, shape, or 
form suggesting federalizing the management of all fisheries. 
States are responsible for managing the fisheries in their 
state waters, except when there are agreements where the stocks 
go back and forth.
    My point was simply that----
    Mr. Bishop. OK, before you run out of time, you weren't 
talking about all fisheries. We are dealing with only those 
issues that deal with offshore ocean fishing. Is that correct?
    Dr. Lubchenco. My point is simply that state-managed 
fisheries are not managed, generally, as well as our federally-
managed fisheries, and we need to do a better job to help the 
states do their management better.
    Mr. Bishop. OK. And if you are talking about all fisheries, 
then I think there is clear evidence that that is not an 
accurate statement. And I think many of those local fisheries 
on the coast would have some quibbling with your jurisdictional 
approach, as well. But if you are talking about all fishery 
management, especially those that are onshore and not offshore, 
especially those hatcheries, that clearly is not the case. 
Mismanagement is worse with the Federal Government on all--that 
is why I wanted to clarify if you were talking about all 
fisheries. So, I appreciate you stating that fact.
    Dr. Lubchenco. Certainly some state fisheries are well 
managed. My point is they all need to be, and they aren't. 
There is much room for progress in state-managed fisheries.
    Mr. Bishop. And, obviously, state management gives you a 
greater opportunity of having success than if you have a 
Federal Government management system that treats everything as 
a one size fits all, and then doesn't meet the needs of those 
local areas, which I have seen, once again.
    Dr. Lubchenco. I agree.
    Mr. Bishop. That is why I wanted to make the distinction. I 
have seen that clearly in onshore fish management regulations 
and jurisdiction. So, I appreciate you clarifying that.
    Mr. Grijalva, thank you. I yield back.
    The Chairman. Thank you, sir.
    Let me now recognize Representative Haaland.
    Ms. Haaland. Thank you, Chairman. I ask unanimous consent 
to enter into the record three scientific papers that support 
Title II, and a letter submitted by 180 organizations and 
businesses demonstrating broad support for the goal to protect 
30 percent of our oceans and lands by 2030, as set forth in 
Title II of the Ocean-Based Climate Solutions Act.
    [No response.]
    Ms. Haaland. Thank you, Chairman.
    Dr. Lubchenco, I would like to give you the opportunity, if 
you would like to take it, to respond further to Mr. Hilborn on 
his last----
    Dr. Lubchenco. Thank you, Congresswoman. I appreciate that 
opportunity. Both the question and the response framed fishery 
management against conservation, as if we have an either/or 
choice. And in my view, we absolutely need good fishery 
management, and we absolutely need good conservation.
    The Magnuson-Stevens Act, which is the law that regulates 
federally-managed fisheries, is a fishery management act. It is 
not a conservation act. It does not manage biodiversity. So, 
suggesting that it is a good tool for managing biodiversity is 
simply inaccurate.
    We need better tools to achieve biodiversity conservation 
that are a complement to the Magnuson-Stevens Act. The 
opportunity exists to expand our protection and management of 
biodiversity with all the other benefits that MPAs bring in 
parallel to continuing good fishery management.
    And, in particular, much of Dr. Hilborn's statements are 
focusing on the fact that our federally-managed fisheries do a 
good job with target species, which, for the most part, they 
do. But they have not had as strong a track record with weak 
stocks, and with many of the bycatch species. In both of those 
instances, spatial protection through fully or highly protected 
MPAs can, in fact, be a very nice complement. So, this is not 
either/or. We need both.
    Ms. Haaland. Thank you, Dr. Lubchenco.
    And Dr. Leonard, how does the bill maintain or accelerate 
the much-needed intergovernmental coordination for ocean 
justice, in your opinion?
    Dr. Leonard. Thank you, Congresswoman, for that question.
    In particular, the bill has a section to support the 
Regional Ocean Partnerships, which are kind of a new evolution 
of what I previously talked about, in terms of the regional 
planning bodies that came out of the national ocean policy in 
the prior administration.
    With the Regional Ocean Partnerships, that is where we see 
the intergovernmental coordination happening on the ground 
right now. In my specific instance, with the Mid-Atlantic 
Committee on the Ocean--through MARCO, NROC, the West Coast 
Pacific states, as well as tribes working together to think 
through what does ocean planning look like in our regions--how 
do we sustainably use ocean resources and coordinate all of our 
ocean activities with one another.
    The one thing that I will point out in the way the current 
portions of the bill reads I would say that we need some 
additional review and modernizing around tribes. Right now the 
Regional Ocean Partnerships are structured to give states power 
and allow for states and Federal agencies to have greater 
intergovernmental coordination. But there is nothing that 
really allows for there to be supportive funding and 
infrastructure for tribes amongst ourselves to have that 
intertribal coordination as it pertains to ocean conservation 
and ocean resiliency.
    So, I think we almost need something that is a blend of 
what is stated, in terms of Regional Ocean Partnerships and 
what we previously had with the regional planning bodies, where 
there was a mandated intergovernmental coordination of equal 
parity of tribes, states, and Federal representatives coming 
together on an equal footing. And I just don't really see that 
playing out right now in the Regional Ocean Partnerships, as it 
currently stands.
    Ms. Haaland. Thank you so much.
    And Dr. Kryc, I just have just a few seconds. How do we 
convince those in landlocked states that the ocean does, in 
fact, impact them, and their Representatives should support 
ocean climate policy?
    Dr. Kryc. Thank you. I will answer that as quickly as 
possible. The ocean controls all of the weather patterns that 
we see across the United States and across all of the 
continents. So, the rain that is happening in the middle of the 
country; the droughts that are happening in Colorado, New 
Mexico; the wildfires, all of these things are ultimately tied 
to the interconnected nature of our entire planet. And those 
patterns are driven by the ocean. So, we all have an investment 
to make in a healthy ocean.
    Ms. Haaland. Thank you so much, Chairman. I yield.
    The Chairman. The gentlelady yields. Let me now recognize 
Mr. Gohmert.
    Sir, the time is yours.
    [No response.]
    The Chairman. Let me then turn to Mr. Westerman.
    Sir, you are recognized.
    [No response.]
    The Chairman. We turn to the gentleman from Louisiana, Mr. 
Graves.
    You are recognized, sir.
    Mr. Graves. Thank you, Mr. Chairman. I want to thank the 
witnesses for their testimony. I appreciate the opportunity to 
join you today.
    A number of things to counter. First, I want to briefly 
respond to my friend in California who made the comments on 
saying there was no relationship between stopping domestic 
energy production and increased importation. I will be willing 
to make a bet or wager with my friend right now that I can 
produce evidence showing that that is exactly the case in 
history.
    We have had expert witnesses before this very Committee 
that have testified that, including during the Obama 
administration. In fact, during the moratorium or permitorium 
in the aftermath of the Deepwater Horizon, that is exactly what 
we saw. And if my friend can produce some evidence or facts 
showing otherwise, then I would be willing to yield you my 
future time on the Committee. But the reality is that that data 
doesn't exist.
    In any case, Mr. Chairman, I ask unanimous consent to 
submit for the record House Resolution No. 38 that was passed 
by the Louisiana Legislature, including unanimously passed by 
the Louisiana Senate, that is in total opposition to the 
underlying bill, the blue ocean legislation.
    Mr. Chairman, look, this bill is written and referred to 
five different committees. We know that that is not going to go 
anywhere, because we are not going to get through five 
different committees.
    I certainly share my friend's objectives of having a 
cleaner energy future and reducing emissions. My home state of 
Louisiana--if any state is affected by sea rise and the 
symptoms of climate change, it is the people that I represent. 
So, we have a great stake in ensuring that we have sustainable 
coastal communities, that we have a clean energy future, that 
we have sustainable, affordable energy policies. But this 
legislation really doesn't even do that. And I think we all 
know that.
    For example, if this legislation were implemented years 
ago, we would have lost $200 billion--that is with a B--$200 
billion to the United States Treasury. I ask any of my friends 
on the other side, how would you fund senior citizen programs, 
health care programs, education programs, environmental 
programs, transportation programs, how would you do that 
without $200 billion?
    There is this concept out there, there is this belief out 
there, Mr. Chairman, for many folks on the other side that the 
target, or the enemy is the energy source. That is not it. And 
we have to stop saying that, and stop believing it, because it 
is going to prevent us from implementing suggestions or 
policies that actually make sense.
    It is the emissions, and there are proven strategies today, 
technologies today, where you can actually sequester emissions, 
you can utilize emissions: CCS, CCU-type technologies that 
complement our conventional energy sources.
    Look, we all know. We can sit here and ban cars in 
California and everywhere else for next year. You don't have 
the energy infrastructure in place to supplant the energy that 
is brought to the table with 30 times more energy density than 
the next closest alternative. That is what conventional fuels 
provide.
    So, we have to stop this dream world that some people are 
operating in.
    I want to ask perhaps the sponsor of the bill one question, 
one question. As you know, this bill will stop--will stop--the 
investment of revenues into wetlands restoration in the coast 
of Louisiana, which is the greatest wetlands loss in the 
continental United States. And it will stop investment in 
hurricane protection and coastal resiliency programs.
    I mentioned in our last hearing, this year alone we had 
Hurricane Laura and Marco that came at the same time, we had 
Hurricane Delta and Zeta, and then caught the edge of Hurricane 
Sally. We had people die. What would you say to the family 
members of people in Louisiana that lost loved ones, when your 
legislation would actually take future investments in the 
restoration of our coast and the protection of these 
communities?
    [Pause.]
    The Chairman. We can deal with this question, or we can 
continue to avoid it, as we have in the past, dealing with 
climate change and of the important role of oceans in the 
mitigation and resiliency that has to be built up. But the 
legislation----
    Mr. Graves. I am happy to have that discussion.
    The Chairman [continuing]. Does not intend to do any 
restoration.
    Mr. Graves. Reclaiming my time, I have tried to have this 
conversation with my friend many, many times in the past. And 
here is the reality--all you people sitting there on your 
pedestals, and telling us what we need to do--we produce more 
offshore energy than every other state in the Nation combined. 
We have the top commercial fisheries in the continental United 
States in the same exact area.
    All these people are coming to try to prescribe solutions 
for us that have no idea what in the world they are talking 
about, what the on-the-ground conditions are. And the people 
that actually represent these areas, they are opposed. The 
people that actually represent these very communities, that 
understand this stuff much better than any of you and your 
little towers out there around the United States that don't 
even represent, don't even live, don't even spend time in these 
very areas.
    It is really embarrassing to continue to see legislation 
like this that is so offensive to the people that I represent, 
and simply doesn't respect the science or on-the-ground 
conditions. It offends those that repeatedly have lost loved 
ones as a result of the inaction by this very Committee.
    I yield back.
    The Chairman. I couldn't agree with you more, sir. And our 
exploration of constituents, perhaps even within your district 
and other districts in Louisiana, considering the cancer 
corridor, and the environmental justice and frontline 
communities across portions of Louisiana need to be dealt with. 
There are life and death issues there, as well, and I hope you 
join with us in working on that.
    With that, let me recognize Mrs. Dingell, if she is 
available now, for her time.
    [No response.]
    The Chairman. Mr. Cartwright, if he is available. You are 
recognized.
    Mr. Cartwright. Thank you, Mr. Chairman. Late Monday 
morning, Hurricane Iota became the latest in-season hurricane 
in recorded history to reach Category 5 intensity in the 
Atlantic Basin. As this dangerous hurricane makes landfall in 
Central America, in Nicaragua, we are again reminded of the 
disastrous effects of climate change.
    The scientific community agrees that a healthy ocean is 
going to help us fight the climate crisis.
    As Vice Chair of the Appropriations Subcommittee on 
Commerce, Justice, and Science, I, along with my Democratic 
colleagues, have fought for robust funding for the National 
Oceanic and Atmospheric Administration, NOAA, an agency 
designed to protect and restore our coastal regions.
    I have also introduced two bills, the PREPARE Act and the 
SAFE Act, which improve adaptation and resiliency to extreme 
weather events and climate change. That is why I applaud our 
Chairman, Chairman Grijalva, for introducing H.R. 8632, the 
Ocean-Based Climate Solutions Act, the bill that would provide 
the resources we need to protect our ocean and coastal 
communities.
    The investments we make now will save us significant 
hardship and expense in the future.
    As we rebuild our communities after each natural disaster, 
we have quickly learned the lesson that the costs of inaction 
on climate change are incredibly high. A recent study and 
scientific report states that not acting right now to mitigate 
climate change will result in a projected additional $600 
billion every year in damage.
    Given all of this, I would like to ask Dr. Kryc, if you 
could elaborate on what you think the long-term fiscal and 
real-world impacts of the investments called for in the Ocean-
Based Climate Solutions Act would be.
    Dr. Kryc. Thank you, Congressman Cartwright, for that 
question.
    We firmly believe that these investments will be not only 
good for the ocean, but good for Americans and for the economy.
    In a recent example in the American Recovery and 
Reinvestment Act, $160 million was awarded to NOAA that 
supported 125 habitat restoration projects. Those projects have 
paid a great deal of dividends over the following years--not 
only in jobs, they created a little over 2,200 jobs, they 
restored 25,000 acres of habitat, and have generated $260 
million in economic output annually.
    Natural infrastructure is known to be more cost effective 
than gray, or hard infrastructure, and it has the co-benefits 
of not just providing resilience, but the ability to store 
carbon to support nurseries of fisheries and, in our own Boston 
Harbor, sharks, which is a really delightful development, since 
Boston Harbor has been cleaned up.
    So, I think that there are so many benefits to these types 
of investments, and they have been shown time and time again to 
pay dividends on more than the initial investment.
    Mr. Cartwright. Thank you, Dr. Kryc.
    As I mentioned earlier, the climate crisis not only impacts 
our environment, our economy, and our health, but it also harms 
our oceans. Current laws like the Magnuson-Stevens Act only 
manage 0.2 percent of the ocean's known species. With one in 
six species at risk of extinction, this hands-off approach is 
terribly inadequate to address the existential risk to our 
oceans posed by climate change.
    The Ocean-Based Climate Solutions Act addresses the 
dangerous consequences of the climate crisis by holistically 
protecting the ocean's biodiversity and natural resources.
    Dr. Kryc, Dr. Leonard, Dr. Lubchenco, can you elaborate on 
why protections outlined in this bill are critical for the 
health of our oceans?
    Dr. Kryc. I will jump off and just say that the protections 
afforded through marine protected areas go beyond fisheries. 
And they, through increased biodiversity within the boundaries 
of a marine protected area, impart resilience to things like 
ocean acidification. And those types of studies have been done 
in places where, if you have the entire range of, all the way 
up through apex predators, that those systems have been shown 
to withstand changes in temperature and pH that we are unable 
to control.
    So, as we can control things like setting aside special 
places that give those places resilience, that just benefits 
the entire ocean, as a whole.
    Mr. Cartwright. Dr. Leonard?
    Dr. Leonard. Thank you. I would say that the bill really 
supports the mitigation effort that we need right now to 
address the climate crisis within ocean conservation and ocean 
ecosystems. But what does that actually look like in practice?
    That is research going to oyster habitats and oyster 
hatcheries, and thinking about the way in which we can use 
oysters to rehabilitate ecosystems grounded in Indigenous 
knowledge systems, which is something that we have been doing 
in this part of the world for thousands of years.
    And then, in addition, other mitigation efforts, like 
nature-based solutions, again, grounded in Indigenous knowledge 
systems. As Shinnecock, we have done some great coastal habitat 
restoration through seagrass planting. I think we need to have 
more of those mitigation efforts, and this bill provides the 
funding to be able to do those types of exact conservation 
measures.
    Mr. Cartwright. And Dr. Lubchenco?
    Dr. Lubchenco. Thank you, Congressman Cartwright. I really 
appreciate the fact that you have painted a picture of the vast 
biodiversity that is not really under fishery management. And 
let me bring that home to U.S. waters, because the numbers that 
you cited were global.
    The Magnuson Fisheries Act manages around 474 stocks and 
stock complexes. But there are nearly 50,000 documented species 
in U.S. waters. So, the Magnuson-Stevens Act actually manages 
less than 1 percent of all known species in U.S. waters.
    Again, I would repeat that the Magnuson-Stevens fishery 
management is a fishery management law. It is not an ocean 
management law. So, managing oceans more holistically, where we 
have vibrant fisheries, as well as 30 percent in fully to 
highly protected areas, is really essential to achieve the kind 
of benefits that Dr. Kryc was alluding to: safe havens for 
wildlife, enhanced resilience to climate change, to help 
recover weak stocks, to contribute to food security where 
fisheries are not well managed, and that is mostly elsewhere in 
the world.
    But they also provide reference areas, where we can 
evaluate the impacts of fisheries for areas--so to compare 
inside and outside of MPAs. And we have recently discovered 
that there are vast stocks of carbon on the seabed. And using 
protected areas to protect those stores of carbon can prevent 
them being released into the atmosphere.
    So, marine protected areas here are really a powerful, but 
under-utilized tool that will bring not only biodiversity 
benefit, but climate resilience and many other benefits to a 
healthy ocean that we all need.
    Mr. Cartwright. Thank you, Doctor.
    Mr. Chairman, I am sorry for going over. I yield back.
    The Chairman. The gentleman yields.

    Mr. Westerman, sir, you are recognized.
    [No response.]

    The Chairman. Let me now recognize, then, Mr. McClintock.
    Sir?
    [No response.]

    The Chairman. All right, let me now turn to the gentleman 
from Florida, Mr. Soto.
    You have 5 minutes, sir, you are recognized.

    Mr. Soto. Thank you, Mr. Chairman. We just had an election. 
Climate change was on the ballot, and President-elect Joe Biden 
won. A majority of Americans, especially our young people, want 
significant change. My colleagues across the aisle should take 
note.

    We once again have a national mandate for the United States 
to combat climate change at home. And, as the most advanced 
Nation on the planet, we have a duty to lead the world effort. 
Climate change denial and the fact that it is caused by human 
activities--again, is an extremist political position. It is a 
dangerous view that threatens the future of our Nation and our 
planet. Scientists, Federal agencies, the U.S. military, even 
the Federal Reserve and SEC are starting to recognize the long-
term risks.

    And the American people want us to stop bickering and work 
together on a bipartisan solution.

    The facts? The largest energy bill of the term was 
bipartisan: the Clean Economy Jobs and Innovation Act, where 
213 Democrats and 7 Republicans voted yes. We revised the 
Department of Energy grants relating to energy storage, 
microgrids, including renewables, nuclear, and, yes, natural 
gas. It moved the ball forward on combating climate change in a 
reasonable and incremental fashion.

    But here is what I find so interesting about that vote. The 
rest of you voted no. Other than seven Republicans, you voted 
no, along with the very Green New Deal proponents you attack 
here today.

    The path forward is clear. We need to come together to pass 
bipartisan bills, and to continue to act on climate. The oceans 
are part of that solution, and we have seen many bills dealing 
with that here today.

    In my own home state, Florida's coasts remain in danger of 
offshore oil drilling, and our great Florida reef is in danger 
of massive coral bleaching from warming seas. We must protect 
these environmental treasures for all Americans.

    And my fellow Floridians, Congressman Crist and 
Congresswoman Debbie Mucarsel-Powell, have presented important 
reforms here today.

    Ms. Leonard, looking at Representative Crist's bill to 
designate Regional Ocean Partnerships of NOAA, and for other 
purposes, you had talked about it at length already. How are 
communities of color left behind? How are poorer communities 
left behind without these Regional Ocean Partnerships?

    Dr. Leonard. Well, I think, put blankly, the lack of 
coordination means that communities are going to be left 
behind. So, the Regional Ocean Partnerships create a forum by 
which states, Federal representatives, Tribal representatives, 
Fishery Management Council representatives, as well as our 
broader stakeholders actually have forums and entities that 
they can come to to share concerns.
    Also, on the ground, we have been doing a lot of work 
around diversity, equity, inclusion, and justice to think about 
how do we make sure that there is ocean justice for all. And I 
think one pathway is supporting innovative bills like the 
Ocean-Based Solutions Act to do just that, and to continue to 
support our work through Regional Ocean Partnerships.
    You do great work. And to have best available science means 
that we need funding to support that research and to support 
the data collection. And that then, in turn, allows us to 
support justice movements that benefit local communities, 
communities of color, and marginalized communities, based on 
economic impacts, as well.
    So, I think that is why this is needed.
    Mr. Soto. Thank you.
    Mr. Chairman, how much time do I have left? I can't see it 
on the screen.
    The Chairman. Take your time, about 45 seconds.
    Mr. Soto. OK. Dr. Lubchenco, Debbie Mucarsel-Powell has a 
bill to establish a grant program to benefit coastal habitats, 
Shovel-Ready Restoration Grants for Coastlines and Fisheries 
Act of 2020. How would this be important in really moving ahead 
some of these projects?
    Dr. Lubchenco. Congressman Soto, it is extremely important 
that we pay close attention to these coastal habitats, 
especially the seagrass beds, mangroves, and salt marshes that 
are what we call the blue carbon ecosystems. They just suck up 
carbon much, much faster than do forests on land. And 
protecting them is one of the first lines of defense, so that 
we don't lose them, we don't release all of the carbon that has 
been stored there for millennia into the atmosphere.
    But we also have learned that it is possible to protect 
them--I mean to restore them after they have been degraded. And 
up the coast from you--not your state, but up the coast, in 
Virginia--and I note in my written testimony, there is a very 
nice example of restoration of seagrass beds in Virginia 
recently that has shown the power of being able to utilize 
these coastal ecosystems to reduce carbon emissions and help 
directly, significantly with mitigating climate change.
    Because those habitats also provide a wealth of other 
benefits: they restore nursery areas, they provide recreational 
opportunities, they are buffers against storm surge--they are 
critically important in multiple dimensions. And having the 
resources to do that coastal restoration is critically 
important.
    And, as Dr. Kryc mentioned, when I was Administrator of 
NOAA, the ARA funds that we utilized to do habitat restoration, 
we had only $160 million. And as it turned out, we got $3 
billion worth of proposals from communities around the country. 
So, there is huge latent opportunity and interest in----
    The Chairman. I am going to need you to wrap up your 
answer, so we can----
    Dr. Lubchenco. Apologies, Chairman.
    The Chairman. We have gone over quite a bit. No problem.
    Mr. Soto. I yield back.
    The Chairman. Thank you. On my Republican colleagues' side 
of the dais, is there anyone that wishes to ask questions--we 
don't have a name at this point.
    Miss Gonzalez-Colon. Yes, sir.
    The Chairman. Oh, yes, Miss Gonzalez-Colon, you are 
recognized. Thank you.
    Miss Gonzalez-Colon. Thank you, Mr. Chairman. I would like 
to yield my 5 minutes to my friend, Garret Graves.
    [Pause.]
    Mr. Graves. Mr. Chairman?
    The Chairman. You are recognized, sir.
    Mr. Graves. Thank you.
    Mr. Chairman, I want to show you a graphic here, and I ask 
unanimous consent that this be included in the record.
    This is a graphic that shows crude oil supply sources to 
California refineries. As you can see here, Mr. Chairman, as 
energy production in California has gone down, as they have 
reduced the energy coming in from Alaska, all of that has been 
supplanted or replaced by energy from foreign sources.
    And, Mr. Chairman, you can see there is not a reduction. It 
is not a reduction in oil. None. It is simply replacing or 
supplanting all of that domestic production with foreign.
    Mr. Chairman, I can't vouch for the source of this 
information, but I can tell you it is from energy.ca.gov. Ouch.
    Mr. Chairman, look, just bringing more fact into this 
thing--the reality is, as you all know, you all are a scientist 
panel, our expert panel, our witnesses, you are scientists. 
This is a global issue. For every one ton of emissions we have 
produced in the United States, four tons, four additional tons 
of emissions, have come out of China. That is not a global 
reduction. It is a global increase. The Paris Accords result in 
a global increase.
    This whole thing, we are not even bringing science to the 
table. I am asking for more science, not less, more science to 
inform our decisions, moving forward.
    The facts clearly show that when you reduce domestic 
production, you increase your dependence upon foreign sources 
of energy. Facts and science and history shows you have greater 
emissions from foreign sources of energy than you have from 
domestic.
    So, look, we can sit here and do all this pretty window 
dressing. We can talk about this in a way that makes us all 
feel really good. None of this is based on science. None of 
this is based upon fact. And it is incredibly frustrating to 
watch people wander down this emotional path without any type 
of scientific support.
    Dr. Lubchenco, you and I have worked together before, 
extensively. And you made a comment, and I want to push back on 
it. You made the comment about state-managed fisheries. Look, I 
will give you one quick fact. The fact is that I can't think 
of--and I am fairly certain on this--there is not a single 
state-managed fishery that has required a restoration plan or a 
rebuilding plan, yet I can sit here and think of a whole lot of 
federally-managed fisheries that have been overfished that 
required it. So, I don't think it is fair to take shots at 
state-managed fisheries. In fact, my home state of Louisiana, 
we developed an LA Creel system which has a 90 percent 
certainty level, whereas the MRIP program is 80 percent or 
less.
    So, we have better science and better data informing our 
fish management than what the Federal Government does, so I 
don't think comments like that are necessarily accurate or 
fair. And I do want to give you a chance to respond, in case I 
misconstrued something that you said.
    Dr. Lubchenco. Congressman Graves, it is great to see you 
again. Thank you, sir, for your comment.
    I did not intend at all to throw state fisheries under the 
bus, to criticize them. I am simply pointing out that we need 
effective state-managed fisheries, just like we need effective 
federally-managed fisheries. Some state fisheries are well 
managed. Others are absolutely not. And most of them, we simply 
don't have enough information to know how they are doing. Most 
states simply don't have the resources to do the kind of 
effective fishery management that is really needed.
    Thanks for letting me clarify that.
    Mr. Graves. We have imposed additional fees on ourselves to 
make sure that we had the resources that were needed to 
properly manage our fisheries in Louisiana. So, we did that to 
ourselves to make sure that the resources were there.
    Dr. Lubchenco. And that is a great model.
    Mr. Graves. Thank you.
    So, Mr. Chairman, I will say this again, and I will offer 
this to you every day of the week. In regard to a cleaner 
energy future, reducing emissions, the United States continuing 
to be the global energy technology leader, I am 100 percent in. 
I would be happy to work with you any day of the week.
    But continuing to throw out legislation that has no chance 
of going anywhere and, quite frankly, is only going to result 
in higher energy prices, higher emissions, and creating more 
jobs in other countries, I don't think that is a solution for 
America.
    I yield back.
    The Chairman. Thank you. The gentleman yields back.
    Mr. Lowenthal, you are recognized, sir.
    Dr. Lowenthal. Thank you, Mr. Chair. And first I would like 
to ask unanimous consent to enter into the record a written 
statement from the World Shipping Council on the Ocean-Based 
Climate Solution Act, H.R. 8632.
    The Chairman. So ordered, without objection.
    Dr. Lowenthal. Thank you. And I also want to thank you, Mr. 
Chair, I would like to thank the staff for working so hard, and 
the other Members that have contributed to this, and the 
discussion that we are having today.
    I truly appreciate also listening to Representative Graves 
talking about that we are not focusing enough on emissions. We 
tend to focus more on the source, rather than emissions. I will 
say, in California, we have tried to address that question by 
being relatively neutral on what are the solutions, and more 
focusing on emissions reduction. And I think it is always 
important for us to look at the concept, and I appreciate your 
raising that issue.
    I want to talk first to some of the things that have been 
on here, if I can open up my questions. I want to talk first to 
Dr. Kryc.
    Dr. Kryc, first of all, I want to thank you and the New 
England Aquarium for your great work. You have worked with my 
staff, especially Shane Trimmer, on many questions over the 
years on aquaculture, on marine mammal protection. You have 
helped us as we have worked on marine debris, especially 
plastic and the reduction of plastic pollution. And I look 
forward to working with you and the Aquarium on these important 
issues, because they are not going away.
    But I want to talk about one thing that you talked about, 
and that I have direct experience with, and that was the 
legislation that we are talking about today really addresses 
and establishes the Quiet Seas and the Clean Skies Vessel Speed 
Reduction Award program.
    I represent the Port of Long Beach, and my adjacent port is 
the Port of LA. We are the busiest commercial maritime hub in 
terms of much of international trade and international cargo.
    Our shipping lanes cross the Santa Barbara Channel, which 
is a vital marine ecosystem where whales congregate to feed. We 
had established a program from the Santa Barbara Channel down 
to the Ports of LA Long Beach, a voluntary program called the 
Blue Whales, Blue Skies program that you talked about, which is 
attempting to both accommodate commerce, and also to protect 
marine mammals in the Santa Barbara Channel.
    And given all the work that you have done in the New 
England Aquarium to protect the North Atlantic right whale, I 
am really interested in the data that you have about the 
threats that marine mammals face, especially around ship 
strikes, which is what we tried to deal with. You have already 
talked a little bit about it, and I am kind of interested. Do 
you think a voluntary program that encourages the reduction of 
ship speeds is going to help marine mammals, and is going to 
promote ecosystem resilience?
    In the Quiet Seas and Clear Skies Vessel program there is 
both a voluntary program and also, in other parts where 
maritime conservancies, we have a more mandatory program.
    I am interested in how do you see the voluntary program 
working?
    Dr. Kryc. Thank you, Congressman Lowenthal, for that 
question. As I mentioned in my oral testimony and my written, 
we would like to see a mandatory ship restriction specifically 
for North Atlantic right whales. That said, this bill and the 
provisions that it outlines for shipping, and the voluntary 
measures, and the rewards-based system, we think will help. 
That is not something that has been implemented in the 
Atlantic.
    And to answer your question about the impacts of shipping 
specifically on the North Atlantic right whale, as I mentioned, 
we lost 2 North Atlantic right whales of the remaining 366 this 
year, both juveniles, to vessel strikes. And they weren't 
ships, they were small vessels, maybe 25 feet, going faster 
than 10 knots. The science that we have done at the Aquarium 
demonstrates that we can reduce mortality to North Atlantic 
right whales by upwards of 90 percent by reducing ship speeds 
to 10 knots or less.
    We have also been very successful in using science to 
recommend shifts in shipping lanes to avoid the most 
concentrated areas where these animals are congregating to 
feed.
    I think that time is up, but I am happy to explore this 
more with you.
    Dr. Lowenthal. Thank you. Do I have time? I don't see the--
--
    The Chairman. I don't have my clock up right now.
    Dr. Lowenthal. I don't either, so I am going to ask one 
more question, and you will just have to cut me off if I have 
gone over----
    The Chairman. Yes, OK.
    Dr. Lowenthal. And I will be quick.
    Dr. Lubchenco, we have heard a lot today about offshore 
wind, but everything has been focused on the North Atlantic and 
the Atlantic. I am interested in, even though we are talking 
about this on a national level, what research and development 
is going to be needed to overcome hurdles--and is this 
something a technology, offshore wind, that can be expanded 
into the Gulf of Mexico and the Pacific?
    And what are we going to do--what types of research and 
development is needed to make it more cost effective? Because 
we are not seeing it in those areas like we are in the North 
Atlantic.
    Dr. Lubchenco. Congressman Lowenthal, thanks. I think the 
evidence shows that there are likely to be different types of 
ocean energy that are going to be appropriate for different 
places around the country. In some places it is going to be 
wind, but in others it will be tidal or current or, in some 
cases, wave energy. And the R&D that is required to really 
determine what is most appropriate, how continuous the energy 
provision would be, what kind of infrastructure is needed, much 
of that is in the very elementary stages.
    Investments in R&D that can, and the research that enables 
us to understand what works best in this place, and how it 
connects to grids on land is absolutely needed, and would be a 
very smart path forward.
    Dr. Lowenthal. Just before I yield back, I would like to 
follow up that conversation with you.
    As we begin to talk about a comprehensive approach, we have 
really only focused so far on offshore wind and turbines. And 
you are saying, if we are going to look at other parts of the 
country, it would be appropriate to do research and 
development, and to really look at the opportunities to create 
energy in other ways than just through wind. I thank you.
    And I yield back.
    The Chairman. Thank you.
    Again, I'm not seeing any names on the Minority side, 
unless there is one that isn't on my list, or hasn't been 
provided to me. If not, let me now recognize Ms. Barragan for 
her 5 minutes.
    Ms. Barragan. Thank you. Thank you, Chair Grijalva, for 
holding this important hearing on ocean solutions to the 
climate crisis.
    Climate change is impacting everyone, especially our most 
vulnerable coastal communities. However, there is an 
opportunity to build a sustainable ocean economy that creates 
new industries and jobs, while reducing greenhouse gas 
pollution.
    We are leading the way at the Port of Los Angeles, where I 
happen to represent, where a new public-private ocean institute 
called AltaSea is creating a world class, ocean-based, 35-acre 
campus where scientists, entrepreneurs, and educators can come 
up with innovative solutions to food, energy, and climate 
security. It is estimated that, in Los Angeles, the ocean-based 
economy will produce more than 126,000 jobs, paying a combined 
$37.7 billion in wages by 2023.
    The bills the Committee is hearing today will drive climate 
solutions, restore our oceans, foster innovation, and help us 
realize the potential of a sustainable ocean economy.
    Dr. Lubchenco, an important part of the Ocean-Based Climate 
Solutions Act is the permanent protection of the Outer 
Continental Shelf from offshore drilling. Prior to this 
pandemic, fishing, tourism, and recreation along the Pacific, 
Atlantic, and Florida's Gulf Coast supported over 2.5 million 
jobs. Ten years ago, you led NOAA's response to the Deepwater 
Horizon oil spill off the coast of Louisiana. Can you speak to 
the potential dangers and impacts of an oil spill in the Outer 
Continental Shelf that make permanent protection from drilling 
so important?
    Dr. Lubchenco. Thanks, Congresswoman. We have seen in no 
uncertain terms the devastation that massive oil spills can 
have. But even smaller spills can have really nasty impacts on 
ecosystems, not only on the most obvious target species, like 
oiled birds, whose images are very graphic, but also for the 
other species below the surface, whether it is marine mammals 
that get oiled or very, very small microscopic species in the 
plankton that then get incorporated into the rest of the 
ecosystem.
    The bottom line is that oil is really toxic. The 
hydrocarbons that are in the oil are really nasty to living 
creatures. And starting with the Santa Barbara oil spill, just 
up the coast from you in 1969, we have seen how devastating oil 
spills can be. So, doing everything possible to avoid those 
spills is really smart.
    When we add to that consideration the consequences of 
burning that oil, and the contributions it makes to climate 
change, and all of the devastating impacts that has on the 
ocean and on people, it seems a no-brainer that we shift as 
rapidly as possible to green energy sources, and to do so in 
ways that are innovative and that really create jobs.
    I love what is happening in the Ports of LA, in Congressman 
Lowenthal's district. Those ports are doing really innovative, 
great work that is conservation and smart business in ways that 
I think are a wonderful model.
    Ms. Barragan. Great. Thank you. Representative Lowenthal 
has Long Beach, and I have Los Angeles. We partner together, 
and it is a great way to have a duo team.
    Dr. Leonard, thank you for your incredible work as a Tribal 
leader on the Mid-Atlantic Regional Planning Body of the U.S. 
National Ocean Council.
    How should Congress ensure our ocean climate policy 
addresses the needs of environmental justice communities, and 
builds trust between government and these communities?
    Dr. Leonard. Well, I think one step forward is the Ocean-
Based Climate Solutions Act, and the provisions within the bill 
that allow for increased funding, increased research, and 
increased data collection.
    But in doing all of that, it also needs to support Tribal 
sovereignty, and support the Federal trust responsibility in 
ensuring that tribes, in a government-to-government 
relationship are a part of that research, are a part of the 
data collection, are integral partners in how the United States 
envisions ocean conservation and ocean justice moving forward.
    And one issue that is of particular importance and of 
particular severity for myself, being a Shinnecock woman, is 
relocation. And I think provisions of the bill that provide for 
our coastal communities to relocate are much needed. And we 
actually even need more.
    One thing that I see in the bill right now, and that 
doesn't exist for Tribal Nations, are legislative guarantees. 
The bill allows for funding for relocation, which is very much 
needed, and an unmet need currently for Tribal communities and 
coastal communities broadly. But what we need, as well, are 
legislative guarantees that, as our people are forced to 
relocate due to the climate crisis, that our Tribal Nations, 
our land status, will transfer with our people as we are forced 
to relocate to new lands of cultural patrimony. And I don't see 
that currently in the provisions, but I am hopeful that a bill 
like this could envision that, and could chart a path forward 
so that relocation, which is real--we have environmental 
climate refugees currently in the United States--can have more 
pathways for funding that can support that relocation, and 
support the overall health of American citizens. Thank you.
    Ms. Barragan. Thank you. I yield.
    The Chairman. The gentlelady yields. Let me now, absent any 
indication from the Minority side--if they have some of theirs 
that want to address the panelists. Let me now ask the 
gentleman from Chicago, Mr. Garcia.
    The time is yours.
    Mr. Garcia. Thank you, Mr. Chairman and Ranking Member, and 
to the witnesses joining us today. Today, we speak on the 
existential threat of global climate change, and the 
devastating impacts on wildlife and our communities, impacts 
that will affect generations to come.
    Although Chicago is far from the ocean, we are no strangers 
to the impacts of climate change. Climate change is causing 
significant and far-reaching impacts on the Great Lakes. 
Unchecked human activity over the last two centuries has led to 
habitat losses, invasive species outbreaks, and polluted air, 
water, and sediments. The Great Lakes, one of the world's most 
abundant freshwater resources, hold more than 90 percent of 
North America's fresh surface water. Unless we take action, it 
will suffer from severe pollution, hurting the 34 million 
people who live within its basin, and especially communities of 
color.
    Dr. Leonard, thank you for joining us today. In your 
testimony you mentioned that, ``data collection and monitoring 
of the Great Lakes, ocean, bays, estuaries, and coasts must be 
done in consultation with Tribal Nations.''
    Two questions: Why is it so important to consult with 
Tribal Nations and other communities traditionally left out of 
the policy-making process?
    And second, Section 1505 of the Ocean-Based Climate 
Solutions Act authorizes a study to assess public access to the 
Nation's coasts, including the Great Lakes. What barriers to 
accessing our coasts do some communities face?
    Dr. Leonard. Thank you very much for those questions. I 
would say, for the first question, to be informed decision 
makers related to marine environments, our Great Lakes, as well 
as ocean environments, we have to have the best available 
science. And right now we don't, because we are not including 
Indigenous science and data collection within Indigenous 
communities in the data that informs our best available science 
that then informs our decision makers.
    So, what we are looking for in the Great Lakes region, as 
well, because we are doing an international region of both 
Canada, the United States, states, provinces, First Nations, 
Tribal Nations, communities--a really complex space--we need 
data collection that allows for, again, intergovernmental 
coordination, and for the ability for our tribes and other 
Indigenous communities to be able to contribute our data to the 
best available science that is informing decision making in the 
basin.
    And one way that we see that sort of having a disconnect 
right now is some of the best science coming out about Great 
Lakes habitat restoration, protection against aquatic invasive 
species is coming from the Great Lakes Indian Fish and Wildlife 
Commission, and they are bootstrapping their budget because 
they don't have funding streams available to them to really 
have that influx that they need to do the research, and 
continue the great science work that they are doing, and then 
to have that contribute to the larger national best-available 
science conversation.
    So, that is one area we need more Indigenous involvement in 
data collection and science, because it should inform our best 
available science for decision making.
    And your second question about access in communities to our 
oceans, we have a legacy and a history of segregation across 
America. Those segregation policies and laws have had a 
systemic influence on the way in which communities of color, 
disenfranchised economic communities, are able to access our 
oceans and coastlines.
    There have been some great studies coming out about even 
just the cost of a parking permit to access a beach. Our 
beaches and our coastlines are not really in the public domain, 
and they have been disenfranchised from communities of color 
and communities who are economically deprived because of the 
way in which we have set up systemic laws and segregation 
policies that have purposely aimed at excluding those 
communities for decades, if not centuries.
    So, we have to do a lot more to remedy those historic 
injustices if we are going to tread a path of ocean 
reconciliation and ocean justice for our future.
    Mr. Garcia. Thank you, Dr. Leonard.
    Dr. Lubchenco, in my last half-a-minute plus, the living 
shorelines provision in this bill sets aside funds for the 
Great Lakes. Can you please explain what living shorelines are, 
and how they specifically benefit the Great Lakes?
    Dr. Lubchenco. Sure, Congressman, thank you so much for 
that question.
    Living shorelines are simply shorelines that have 
vegetation and creatures that live there. And those dune 
systems, grass systems, et cetera, are providing very important 
functions to stabilize shorelines, to absorb carbon dioxide, to 
help provide critical nursery areas for important fisheries.
    The vegetation that is along the shoreline is critically 
important to the healthy adjacent waters of the Great Lakes. 
They interact in very complex fashion. So, having them be 
intact, having them be healthy contributes both to the 
livelihoods of people in the vicinity, but also to the 
resilience to climate change. So, both protecting and restoring 
them are important.
    Mr. Garcia. Great, thank you.
    Mr. Chairman, I applaud you for introducing this landmark 
ocean solutions bill to tackle the climate crisis, and for 
including critical provisions that would benefit the Great 
Lakes. Thank you.
    The Chairman. Thank you very much, Mr. Garcia, and let me 
now, absent any indication from the Minority side--Mr. Tonko, 
you are recognized, sir.
    Mr. Tonko. Thank you, Chairman Grijalva, for organizing 
this hearing. It is very thoughtful and very timely. And thank 
you to each and every witness for the invaluable testimony you 
have provided. Oceans are unmistakably critically important in 
the fight against climate change, so I appreciate the 
opportunity today.
    Dr. Lubchenco, over the past 15 years, and particularly in 
the Trump administration, climate scientists have often been 
targeted for producing work that has been viewed as politically 
inconvenient to those who deny the impacts of anthropogenic 
climate change. Such attacks have been visible in the last 4 
years as Federal scientists have been silenced and sidelined, 
keeping them from sharing their work with the public and 
informing our national response.
    My question is, how do strong scientific integrity 
protections at agencies working on climate science serve to 
benefit the public good?
    Dr. Lubchenco. Congressman Tonko, it is nice to see you 
again, and thank you for being such a strong and effective 
champion for scientific integrity.
    The importance of scientific integrity is paramount. People 
need to trust the information that is provided by the Federal 
Government.
    The most obvious examples are weather forecasts and 
disaster warnings. If people think that they have been 
manipulated for political reasons, then they won't take them 
seriously, and they won't take the actions that are needed to 
protect their lives, their families, and their property.
    The same is true for fisheries information or any other 
kinds of information that the Federal Government is providing 
to people. We need to trust that that information is based on 
the best available science, and has not been cherry-picked or 
manipulated or, in some cases, the science is distorted.
    The scientific integrity policies that agencies created 
under President Obama--my agency, NOAA, included--are intended 
to ensure that the information is not cherry-picked, 
manipulated, or distorted.
    And that is important not only for public trust, but it is 
also important so that the agencies can have the best possible 
scientists working for the government. Scientists are not going 
to work in a government where their science is ignored or 
altered or suppressed. They will leave, and new scientists 
aren't going to come and take their places if they think that 
their science is unwelcome.
    So, to have a thriving scientific enterprise in agencies, 
we need to have scientific integrity. And the public needs to 
be able to trust what the government says. And for both of 
those reasons, not only do agencies need to have good, strong 
scientific integrity policies, but it is important that there 
be a public expression of the importance of that, as well, 
through legislation that says this is our expectation, this is 
what we want of Federal science.
    Mr. Tonko. Thank you for that. And what recommendations 
would you make to our President-elect Biden to strengthen 
scientific integrity policies across the gamut of Federal 
Government?
    Dr. Lubchenco. Congressman, we have seen from some of the 
violations of scientific integrity policies--for example, at 
NOAA--that happened in the last few years, that there are 
multiple ways that the scientific integrity policies that exist 
need to be improved, and also need to be enforced so that 
political appointees are aware of those policies and abide by 
them.
    But it is not sufficient to have an agency such as NOAA 
have a scientific integrity policy if the department that it is 
part of, the Department of Commerce, ignores that policy. So, 
there needs to be harmonization and mutual respect for the 
integrity of science at all levels within the Federal 
Government.
    Those are some of the ideas, but I am happy to explore 
others, if that would be useful.
    Mr. Tonko. Yes, a rather holistic and inclusive process.
    Mr. Chairman, I don't know how much time I have left, I 
don't see the clock.
    The Chairman. Not a lot. You have 10 seconds.
    Mr. Tonko. Let me just quickly ask Dr. Lubchenco--your 
testimony highlights the increasing intensity, speed, and water 
content of tropical storms due to warming water temperatures. 
Could you expand on impacts warmer water could have on upstate 
New York?
    Dr. Lubchenco. Certainly, Congressman. The first time you 
and I interacted was in the aftermath of Hurricane Sandy, when 
your district, which is far inland, was flooded in some 
horrific fashion. And what we are seeing now, as climate change 
changes the hurricanes so that they are more likely to be 
really strong, more Category 4 and 5, they move more slowly. 
So, when they come up over land, they sit there and dump 
massive amounts of water like Hurricane Harvey did on Houston. 
But they also have more water, because warmer water and warmer 
air holds more water, so there is more water to cause flooding.
    A paper that just came out last week that I mentioned in my 
written testimony alludes to the fact that those storms that 
are more powerful----
    The Chairman. I am going to have to call it. Wrap up your 
answer, because everybody is going 1 to 3 minutes over, and we 
need to ask other panelists questions.
    Dr. Lubchenco. Yes, sir. Those storms last longer and are 
more likely to go inland and be more powerful and flood 
districts like yours.
    Mr. Tonko. Thank you so much.
    Mr. Chair, I yield back.
    The Chairman. Thank you.
    Mr. Beyer, you are recognized, sir.
    Mr. Beyer. Thank you, Mr. Chairman, very much. And I want 
to thank you especially for having this hearing today. I am 
really proud to see the Natural Resources Committee be a leader 
on tackling climate.
    America needs to know that our climate conversations happen 
not just on the land, but also in the water and the ocean, too. 
And for areas that I represent, northern Virginia, it is just 
expensive homeowner flooding. But if you move down to Virginia 
Beach or in Norfolk, you are talking about an entire way of 
life.
    The ocean is part of the solution, and we know that full 
implementation of ocean-based climate solutions could deliver 
one-fifth of the annual greenhouse gas emission cuts that the 
world needs by 2050 to keep that temperature below 1.5 degrees 
Centigrade.
    So, I really want to thank the Oceans-Based Climate 
Solutions Act and Lora, Rachel, Casey, Zach, and Beth, the team 
at WOW, for creating this comprehensive, meaningful bill led by 
our Chairman. And I am really pleased that I got to work with 
Republican Francis Rooney in a bipartisan way to build some of 
the coastal resiliency pieces that are in this bill.
    It is wonderful to see Dr. Lubchenco again. We miss you 
here. But welcome back.
    And when we talk about ocean and climate, we often focus 
locally here on nuisance flooding, but when you think about 
marshes, how important are they to climate change and the whole 
idea of blue carbon?
    Dr. Lubchenco. Marshes are incredibly central and important 
in absorbing carbon, and then storing that carbon, locking it 
away so that it is not part of, is not contributing actively to 
climate change. Protecting those marshes and restoring marshes 
that have been degraded is really smart action that has 
multiple benefits. Not only does it help mitigate climate 
change, but those marshes are important nursery areas for 
fisheries. They provide recreational opportunities. And 
critically important, they provide buffers against storm surge 
and winds that are coming ashore.
    So, for all of those reasons, we need to value the marshes, 
but also the seagrass beds and the mangroves, depending on what 
part of the coastline you are living in. For you, the marshes 
and the seagrass beds are the ones that are really important as 
blue carbon ecosystems. They are a hidden treasure that has 
just recently been revealed, and we need to make the best use 
of them possible.
    Mr. Beyer. Thank you very much. I know, with a home on the 
Chesapeake Bay, we look at those grasses every year, and their 
restoration, how important they are.
    Dr. Leonard, you said we are not drowning, we are fighting. 
Why are the coastal resiliency pieces in the bill so important?
    Dr. Leonard. Thank you for the question. I think the 
coastal resiliency pieces in the bill are so important because 
it is potentially the first acknowledgment of the long-time 
suffering that coastal communities have been going through in 
recent decades due to the climate crisis and, in particular, 
for Tribal coastal communities.
    It is the first recognition, both through the Tribal 
resilience program funding provisions in the bill, as well as 
the relocation funding provisions in the bill, where our harm 
and our suffering is being acknowledged, and that the Federal 
Government is stepping forward to say we have a fiduciary 
responsibility, a treaty obligation to meet these relocation 
needs, and to meet the needs of the coastal communities, not 
only Indigenous coastal communities, but other coastal 
communities who are really suffering right now, and are in need 
of solutions for a path forward so that we can envision 
ourselves as American citizens who aren't going to be 
sacrificial lambs for the climate crisis, and that we won't be 
sort of sacrificed to drown in our homes.
    Mr. Beyer. I know my friend, Mr. Graves, is probably not on 
the call any longer, but you talk to him about how much of his 
district has disappeared because of the absence of coastal 
resiliency.
    Dr. Kryc, I only have a minute, but the fourth National 
Climate Assessment said that more than half of the damage to 
coastal communities is avoidable if we take real-time 
adaptation measures. Are we doing the right thing in this bill 
to move forward on that?
    Dr. Kryc. Yes, definitively. Doing the type of work that is 
included in this bill will help to impart that coastal 
resiliency, which will protect coastal communities and, as I 
have mentioned before, will pay dividends on the original 
investment to the benefits that come for years beyond.
    Mr. Beyer. Thank you all very much.
    Mr. Chairman, I yield back. Thank you for your leadership.
    The Chairman. Thank you, Mr. Beyer. And let me recognize 
another important contributor to the legislation.
    Ms. Bonamici, you are recognized.
    Ms. Bonamici. Thank you so much, Chairman Grijalva, for 
your leadership on ocean climate action. And thank you to our 
witnesses for joining us, especially my good friend, Dr. 
Lubchenco.
    We live in Oregon, where public access to our majestic 
coastline has been protected, basically, by a permanent public 
easement back since 1913.
    We know that every person on this planet benefits from a 
healthy ocean. The ocean covers more than 70 percent of the 
planet's surface. It supplies much of the oxygen we breathe, 
and it regulates our climate, as we have discussed. It is 
linked to the water we drink, and it is home to more than half 
of life on the planet. The ocean drives our economy. It feeds, 
employs, and transports us, and the power of its waves 
generates clean energy.
    We can capture this potential to help mitigate the climate 
crisis. Earlier this year, I joined my colleagues on the House 
Select Committee on the Climate Crisis. We released our bold, 
comprehensive, science-based climate action plan that sets our 
Nation on a path to reach net zero emissions no later than mid-
century, a net negative after.
    As the co-chair of the House Oceans Caucus and 
Congressional Estuary Caucus, I am thrilled that this plan 
includes many of the pieces of legislation recognizing the 
power of our ocean as part of the solution. And I appreciate 
Chair Grijalva's leadership to incorporate many of these 
recommendations into the Ocean-Based Climate Solutions Act. 
That includes four of my bipartisan bills and six bills that I 
am co-leading.
    Dr. Lubchenco, in your testimony you noted the value of 
protecting and restoring blue carbon ecosystems. I know you 
talked about that with Representative Beyer. And you also 
worked on the High-Level Panel for a Sustainable Ocean Economy. 
That report was released last year, and indicated that the 
protection and restoration of coastal blue carbon ecosystems 
could prevent approximately one gigaton of carbon dioxide from 
entering the atmosphere by 2050.
    So, my questions are, do we have an accurate map and 
inventory of blue carbon ecosystems across the country, and how 
would a better assessment of the sequestration potential of 
blue carbon ecosystems be useful as the United States looks to 
rejoin the Paris Climate Agreement?
    Dr. Lubchenco. Congressman Bonamici, thank you for doing 
such an effective job of representing Oregon and your district, 
but also being such a staunch champion for science, and for 
working in bipartisan ways on so many important pieces of 
legislation. We really, deeply appreciate it.
    Having the numbers that you cite from the ocean panel's 
report, which I helped oversee, that are the 20 percent, the 
one-fifth of the carbon emission reductions needed to get us to 
the 1.5 degree Paris target, are obviously global numbers. We 
do not have comparable numbers for the United States, and we 
need them. That would be an obvious next step, to be able to 
better inform the kinds of actions that would be taken. And 
knowing how much bang we can get for the buck is critically 
important.
    The High-Level Panel also produced a second report, which 
draws attention to the opportunities to advance climate and 
ocean synergies through economic restoration in the aftermath 
of the economic downturn following the COVID pandemic that we 
are seeing play out again in very real time. So, I just want to 
draw attention to the importance of that report as you and your 
colleagues consider these activities, moving ahead.
    Ms. Bonamici. Thank you. And Dr. Lubchenco, as we prepare 
for the United Nations' Decade of Ocean Science for Sustainable 
Development, I worked with my House and Senate Oceans Caucus 
colleagues to introduce the Blue Globe Act to rapidly 
accelerate the collection, management, and dissemination of 
data on the Great Lakes, the ocean, bays, estuaries, and 
coasts. This bill will assess the potential for an Advanced 
Research Projects Agency-Oceans, or ARPA-O, to help overcome 
the long-term and high-risk barriers in the development of 
ocean technologies.
    Based on your experience at NOAA, how could an ARPA-O help 
us better understand the effects of the climate crisis on our 
ocean and coastal communities?
    Dr. Lubchenco. Congressman, as you know, knowledge is 
power, and having information is golden, because then we know 
how much we need to do, and where, and can be as smart and 
strategic as possible.
    So, having both the assessments and the monitoring on an 
ongoing basis so we can see how things are changing, but also 
the research to understand the processes that are driving 
climate change and the responses that we are seeing from 
ecosystems, are all critically important to help inform a 
better understanding of this new world that we are in that is a 
climate-changed world.
    So, great opportunities. Thank you for your leadership in 
moving those ahead.
    Ms. Bonamici. Thank you, Dr. Lubchenco and all the 
witnesses.
    And Mr. Chairman, thank you again for your leadership, and 
I yield back.
    The Chairman. Thank you very much, Ms. Bonamici.
    Now that Members are done with their questions, let me ask 
my questions as we wrap up this hearing. But I once again thank 
the witnesses.
    I have a set of questions that I will be submitting to the 
panelists for their response, so questions are specific to 
them. But I am not really going to go off of those at this 
point.
    Dr. Leonard, I think your points on parity and resource 
investment for tribes, and for Tribal regional efforts, parity 
at the table, and parity in terms of incorporating data and 
science coming from Indigenous knowledge is very good. And I 
appreciate that point, and it is something that needs to be 
looked at in the legislation.
    Part of what we are going to hear in almost any discussion 
on climate change--and I want to thank the WOW staff and the 
leadership of Mr. Huffman for bringing the issue of oceans and 
the important role they play in the abatement of climate change 
and the climate crisis that we are confronting to the center 
point, and to making our response a much more comprehensive 
response from this Committee. And I want to thank the staff for 
their fine work, and the leadership of the Subcommittee, and 
Committee members in general, for making sure that this becomes 
a part of a comprehensive response to climate change, along 
with land and initiatives that are also part of another piece 
of legislation.
    Dr. Lubchenco, one of the points that we are going to hear 
over and over about is that we really can't talk about climate 
change regarding the ocean. It is about job loss, it is about 
the destruction of energy independence. It is about hurting 
American families with rising energy costs. And it is having to 
play with bad actors like Russia. And this is just a bad actor 
in other instances, to the Administration, not so bad.
    And, then, I think the other point that kind of wrapped up 
that was let's talk about real science-based discussions and 
formulation of legislation going forward, because the 
legislation before us is based on emotion, and not science. I 
mean, those are the messages we are going to hear as this 
legislation goes forward.
    And it is going forward. I think it is incumbent on us in 
the House of Representatives, at least, to lay a template out 
about how we need to respond to climate change. And this is one 
of them.
    So, Dr. Lubchenco, emotion not science. I appreciated your 
discussion on integrity that you had with Mr. Tonko. That was 
excellent, as well. But if we are going to put science and 
empirical information, in fact, at the head of the table, does 
this make this legislation that we are talking about today an 
emotional, feel-good response?
    Dr. Lubchenco. Mr. Chairman, we continue to be saddled with 
a very unfortunate framing that many people have bought into, 
that we have to choose between the economy and the environment. 
And I think that is absolutely false.
    This bill really provides a pathway for both protecting and 
restoring ocean ecosystems in ways that generate economic 
benefit, and that also reduce the impacts of climate change 
that are so economically devastating and so devastating to 
people who have fewer options, be they poor people or BIPOC 
communities. And the current impact of climate change is 
devastating to the economy, to our health, to economic 
opportunities, as well as to life on Earth.
    So, it is imperative that we tackle this urgent problem of 
climate change. This bill has many key provisions for doing 
exactly that. But not only can we tackle climate change using 
ocean-based solutions, but doing so brings multiple other 
benefits and huge opportunities.
    The Chairman. Thank you. But let me just state that I 
really think having science as the crucible by which we forward 
legislation, I am absolutely in favor of that, totally. And the 
more that we have fact-driven and science-driven decisions that 
are around issues of the environment and climate change, the 
better off the American people are going to be, in terms of 
some progress.
    But I don't want to spend time going through the whole 
debate about the validity of some science versus the lack of 
validity of other science. I think we are way past that 
question. And I don't plan to really re-litigate that whole 
point over again, period.
    But I do think that, going forward, as we plan to introduce 
this legislation in the next session, based on your comments 
and the continued feedback that we are getting, we hope to make 
the bill, the legislation, even better, and incorporating some 
of the points that were made today.
    I think we need to deal with it. To ignore it, to put it 
off, and to go from denial to avoidance on climate change is 
not progress. And we have much to catch up on. Nothing has 
happened for 4 years. In fact, on the contrary, much has 
happened to make the situation even worse. So, we have to 
repair, and this is a repair legislation. And I hope that, as 
we go forward, we continue to welcome your input.
    To my colleagues and Members, thank you. To the panel, I 
appreciate very, very much your information. And we will be 
forwarding individual questions to you.
    Again, thank you, and there are no other comments?

    The meeting is adjourned. Thank you.

    [Whereupon, at 2:21 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

   Prepared Statement of the Hon. Kathy Castor, a Representative in 
                   Congress from the State of Florida
    Today I would like to commend Chair Grijalva for his continued 
leadership on climate action and to express my support for the Ocean-
Based Climate Solutions Act. This bill will unleash the incredible 
power of the ocean to capture and store carbon, helping us move closer 
to our climate goals. As Chair of the Select Committee on the Climate 
Crisis, I'm proud that it incorporates many of the recommendations from 
our Climate Crisis Action Plan. And as a Floridian, I have seen 
firsthand the impacts of climate change, such as rising sea levels and 
increasingly extreme storms and weather. I am encouraged by the 
important progress made by the Natural Resources Committee in laying 
out a comprehensive framework for ocean climate action.
    In particular, the Ocean-Based Climate Solutions Act recognizes the 
potential of ``blue carbon'' to mitigate climate change. This bill 
would take meaningful steps to protect and restore the ocean and 
wetland ecosystems that are so vital in capturing and storing carbon. 
Importantly, this legislation will protect at least 30% of our ocean by 
2030. This is an ambitious goal, but an achievable one that will help 
mitigate both the climate and biodiversity crises that we face.
    Protecting and restoring ocean and wetland ecosystems doesn't just 
increase their capacity to sequester carbon; it also makes coastal 
communities more resilient to the impacts of climate change. The Ocean-
Based Climate Solutions Act improves coastal resiliency by promoting 
living shorelines, enhancing the Coastal Barrier Resource Act, and 
expanding natural infrastructure.
    One of the most critical aspects of the Ocean-Based Climate 
Solutions Act is that it incorporates ocean-based energy production as 
part of the climate solution. It prohibits new oil and gas leasing in 
all areas of the Outer Continental Shelf, while promoting responsibly 
sited offshore wind energy and other marine energy development.
    We know the ocean is a crucial ally in the climate fight. We also 
know we need to protect it, as ocean ecosystems are already being 
harmed by climate change. The Ocean-Based Climate Solutions Act will 
keep oceans healthy in the face of warming temperatures--by enhancing 
and improving research, forecasting, and mitigation of ocean 
acidification and harmful algal blooms. It also promotes climate-ready 
fisheries and provides investments in climate and fisheries management 
research.
    These are just a few of the many climate solutions we can advance 
by passing the Ocean-Based Climate Solutions Act. This legislation will 
allow our ocean and coasts to mitigate climate change, while also 
protecting frontline communities and ensuring healthy, biodiverse 
marine ecosystems. I look forward to continuing to work with Chair 
Grijalva, as we advance meaningful, nature-based policies to fight the 
climate crisis.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submissions for the Record by Rep. Haaland

  --  A letter by 180 organizations and businesses to members 
            of the House of Representatives and to Senators, 
            dated February 7, 2020 urging them to co-sponsor a 
            House Resolution by Representative Haaland and a 
            Senate Resolution by Senators Tom Udall (D-NM) and 
            Michael Bennet (D-CO) to strongly protect at least 
            30% of lands and 30% of ocean areas by 2030.

  --  A 2019 scientific paper by E. Dinerstein et al. entitled, 
            ``A Global Deal for Nature: Guiding principles, 
            milestones, and targets,'' from the Journal Science 
            Advances.

  --  A 2020 study by Cabral et al. entitled, ``A global 
            network of marine protected areas for food,'' from 
            the Proceedings of the National Academy of 
            Sciences.

  --  A 2019 paper by Murray & Hee entitled, ``A rising tide: 
            California's ongoing commitment to monitoring, 
            managing and enforcing its marine protected 
            areas,'' in Ocean and Coastal Management, Volume 
            182.

Submissions for the Record by Rep. Huffman

  --  A letter from the Pacific Coast Federation of Fishermen's 
            Associations dated November 17, 2020, RE: Statement 
            for the record: Full Committee hearing entitled 
            `Ocean Climate Action: Solutions to the Climate 
            Crisis'.

Submissions for the Record by Rep. Lowenthal

  --  Testimony submitted by the World Shipping Council, dated 
            November 17, 2020.

Submissions for the Record by Rep. Bishop

  --  A letter of opposition to Title II from a coalition of 
            commercial fishermen, dated November 16, 2020.

  --  Testimony submitted by Dan Keppen, P.E., Executive 
            Director, Family Farm Alliance dated November 17, 
            2020.

  --  A letter of concern from Stronger America Through Seafood 
            dated November 12, 2020.

Submissions for the Record by Rep. Graves

  --  House Concurrent Resolution No. 38 of the Louisiana State 
            Legislature.

  --  A graph entitled, ``Crude Oil Supply Sources to 
            California Refineries''.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
